<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE AND THE FEDERAL MARITIME COMMISSION</title>
<body><pre>[Senate Hearing 111-1084]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1084

                           NOMINATIONS TO THE
                         DEPARTMENT OF COMMERCE
                  AND THE FEDERAL MARITIME COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 30, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE
70-644 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Ann Begeman, Acting Republican Staff Director (change after 3/24)
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 30, 2010................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Lautenberg..................................     3

                               Witnesses

Scott Doney, Ph.D., Chief Scientist-Designate, NOAA, U.S. 
  Department of Commerce.........................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Mario Cordero, Federal Maritime Commissioner-Designate...........    35
    Prepared statement...........................................    36
    Biographical information.....................................    37
Hon. Rebecca F. Dye, Commissioner, Federal Maritime Commission...    44
    Prepared statement...........................................    45
    Biographical information.....................................    46

                                Appendix

Hon. John F. Kerry, U.S. Senator from Massachusetts, prepared 
  statement......................................................    63
U.S. Representative Laura Richardson of California (D-37th 
  Congressional District), prepared statement....................    63
Response to written questions submitted to Scott Doney, Ph.D. by:
    Hon. John D. Rockefeller IV..................................    64
    Hon. Maria Cantwell..........................................    65
    Hon. Frank R. Lautenberg.....................................    68
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Mario Cordero................................................    68
    Hon. Rebecca F. Dye..........................................    70

 
                           NOMINATIONS TO THE
                         DEPARTMENT OF COMMERCE
                  AND THE FEDERAL MARITIME COMMISSION

                              ----------                              


                       TUESDAY, NOVEMBER 30, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:33 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. If everybody could just calm down for a 
moment.
    [Laughter.]
    The Chairman. Let me say, here at the beginning, I want to 
welcome our House colleague, Congresswoman Laura Richardson, 
who represents Long Beach, about which we will be talking. We 
appreciate your being with us and your statement will be a part 
of the record. I thank you.
    So, we're going to do three nominations today.
    And, Madam Vice Chairman, when we've done that, and with 
your permission, if we can have the vote on it, after one of 
the votes on the floor, we will have done all nominations 
pertaining to the Commerce Committee, with the exception of one 
which didn't submit the paperwork until much too late. So, 
that's a good record.
    Senator Hutchison. It is.
    The Chairman. We got our job done. Right?
    Senator Hutchison. Of course. We have a good Chairman.
    The Chairman. That's right. And a good Vice Chairman.
    Senator Hutchison. Not to mention the staff that leads us 
in the right direction.
    The Chairman. Dr. Scott Doney is being considered for the 
Office of Chief Scientist of the National Oceanic and 
Atmospheric Association. Mr. Mario Cordero and Rebecca Dye, to 
be commissioners of Federal Maritime Commission. It's an honor 
for us to have you before us, because you're serving your 
country. People do it in many ways, and it's hard. I wish I 
were a scientist. I'm not. You surely are. The Maritime 
Commission isn't known by everybody, but it really does 
important work and hopefully you're going to be there, or 
continue to be there.
    NOAA's Administrator, Dr. Jane Lubchenco, has dedicated 
herself to advancing research, science, innovation and 
technology at NOAA. Dr. Doney's nomination as chief scientist 
is an important step in maintaining NOAA's status as a top 
science agency, which is very important in any government, in 
any Executive Branch, but particularly in this one, where 
there's a lot of pride in the science aspect of what they do.
    We'll consider two nominations today to the Federal 
Maritime Commission, a little known, but very important 
independent regulatory agency. People love regulatory agencies, 
don't they?
    [Laughter.]
    The Chairman. I am pleased that two very qualified, in my 
judgment, individuals have been selected to serve on it. Mr. 
Cordero and Ms. Dye will have the balance and the wisdom to do 
something which nobody has ever figured out how to do, which is 
to figure out: What is a proper balance between the needs of 
the shippers and the needs of consumers and businesses 
importing and exporting products? It won't be easy, but I trust 
that you will be up for the challenge.
    Mr. Cordero comes from Long Beach, California, where he 
served as President of the Board of Long Beach Harbor 
Commissioners. But, we go on from there: He played an important 
role in implementing the port's pioneering and much-recognized 
Clean Trucks program and Green Port policy, which I will be 
interested to hear about.
    Mrs. Dye has served on the Federal Maritime Commission for 
8 years. Before that, she served as Counsel for the Coast 
Guard. I'm impressed. I like the Coast Guard. It is underfunded 
and, like many agencies in government, not treated properly. 
But, they are by us, are they not?
    Senator Hutchison. Absolutely. Absolutely.
    The Chairman. And--so, you've done that. You've also served 
the Maritime Administration, in the Department of 
Transportation, and worked in the House of Representatives. I 
look forward to hearing the results of Mrs. Dye's recent 
investigation into vessel capacity shortages. I commend her for 
leading such a comprehensive effort and for her service at the 
Federal Maritime Commission.
    And so, ending up my long speech, I thank the nominees for 
testifying today, and I urge a speedy confirmation for them.
    And I now turn to my distinguished colleague, Senator Kay 
Bailey Hutchison, of Texas. Just let it be said, in an era of 
apparent conflict and malfunction in the Congress, here are two 
people who do not have conflict and malfunction. We're an 
operating team. We get stuff done. I want to hear from her, and 
I also want to hear from our Subcommittee Chairman, Mr. Frank 
Lautenberg. And then we'll proceed to your statements.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I 
appreciate what you said, and agree with it completely. It has 
been a joy to work with you as Chairman.
    And I welcome all of you here.
    These are very important positions: the Maritime 
Commissioners and the NOAA Chief Scientist.
    And, of course, being from a Gulf State, I know that NOAA 
and weather prediction are very important. And I will tell you 
that the technology of the last 10 to 15 years has been 
immensely helpful in the predictions of when a hurricane is 
going to hit, how forceful it's going to be, and what the route 
is. And it's amazingly accurate. And I know that our most 
recent terrible hurricane, Ike, which hit in 2008, NOAA's 
advanced hurricane warnings did definitely minimize the loss of 
life. And I will say the property damage was huge, but we were 
able to open our ports to commerce quickly because we did know 
what was going to happen, from the predictions.
    Dr. Doney, we haven't had a Chief Scientist at NOAA for 
about 10 years. I'm looking forward to knowing what you plan to 
bring to the table there, as the Chief Scientist, because there 
are some important issues that you will face. Striking the 
balance of social, economic, and environmental goals, and 
maintaining our transparent process for carrying out the 
mandates and policies at NOAA are very important. The oil in 
the Gulf of Mexico accounts for 27 percent of our Nation's 
domestic oil production and 15 percent of the natural gas 
production. And it's very important for our economy and for the 
fuel that we need for our economy. So, we need to make sure 
that our science is sound in the predictions and also the 
effects of this enterprise in our waters.
    NOAA has a good record of outreach to our students to 
encourage them to go into STEM education, which, of course, is 
an area where we feel America is lacking. And this committee 
has been very proactive in encouraging America's 
competitiveness through the America COMPETES Act. And I hope 
that NOAA will continue that record, because we need to 
encourage our young people to go into science, technology, and 
math for careers, in order to stay competitive, 
internationally.
    The Port of Houston is very important in my state, and the 
Maritime Commission has a lot to say and do about our maritime 
activities. The task of regulating and ensuring the stability 
of our transportation system on the waters is a big job, and an 
important one. So, I certainly look forward to looking at your 
credentials and your ideas, which look very good, from 
everything that I have seen.
    So, with that, thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    This committee has the important responsibility of 
overseeing both the Federal Maritime Commission and NOAA. And I 
want to thank these nominees for agreeing to provide their 
services to the American people.
    With international commerce growing as it has, the Federal 
Maritime Commission makes sure that our Nation's ports remain 
competitive and can meet the demand--the growing demand placed 
on them. This is especially vital in my State, New Jersey, 
which is the home of Port Newark, the largest port on the East 
Coast, generating $20 billion a year in economic activity. The 
Port of Newark is the lifeblood of, not just our region's 
economy, but also our Nation's economy. The importance of ports 
like these cannot be overstated.
    In 2001, when the Port of Long Beach, in California, was 
shut down because of a labor dispute, it cost the economy $1 
billion a day. And it's essential that we make sure that our 
ports remain safe, secure, and strong.
    And, Mrs. Dye and Mr. Cordero, I know you understand and 
appreciate this mission.
    Ms. Dye, I look forward to hearing your views on FMC's work 
during your services there, since 2002, and how you plan to 
further its mission in the future.
    And, Mr. Cordero, you bring a valuable new perspective to 
the Commission, and we're anxious to hear from you. I look 
forward to hearing your views on how ports can both be 
environmentally conscious and economically competitive.
    NOAA also plays a critical part in our Nation's success, 
alerting us to the dangerous weathers that--weather, charting 
the seas and the skies, and guiding the use of our ocean and 
coastal resource. It's also a key player in environmental 
protection, conducting research that strengthens our 
understanding and stewardship of the world in which we live. As 
Chief Scientist, Dr. Doney, you'll play a vital role in 
ensuring the scientific integrity of the information gathered 
by NOAA.
    Dr. Doney has decades of experience as a researcher and as 
an expert on ocean acidification, a serious threat to the life 
and the well-being of our oceans altogether. And I wrote a law 
last year that establishes NOAA as the lead Federal agency in 
coordinating research on ocean acidification. Our oceans are 
now 30 percent more acidic than they were before industrial 
emissions began. More acidic oceans threaten the creatures at 
the base of the marine food chain, because their shells cannot 
form with sufficient strength to protect them. But, we need 
more--much more information on this looming threat, and the 
Chief Scientist's role at NOAA plays a critical part in 
generating that information.
    I'm eager to hear from all our nominees about how they'll 
tackle these and other challenges that will come before them. 
And I thank you for being here.
    Thank you.
    The Chairman. Thank you, Senator, very much.
    Mr. Doney, I'm going to ask you to be the first. But, I 
want to ask you, Does MIT own the Oceanographic Institute? 
What's the relationship?
    Dr. Doney. We're actually two independent institutions, but 
we share----
    The Chairman. You collaborate.
    Dr. Doney.--an education program together.
    The Chairman. OK.
    Dr. Doney. So, we teach students together.
    The Chairman. OK. So, you got your Ph.D. from MIT.
    Dr. Doney. Yes.
    The Chairman. OK.
    Dr. Doney. Well, yes, Woods Hole also can grant Ph.D.'s, 
but it's actually a joint degree between the two institutions.
    The Chairman. Well, then you have two Ph.D.'s.
    Dr. Doney. And----
    [Laughter.]
    Dr. Doney. They charge----
    The Chairman. Please proceed.
    Dr. Doney. --they'd charge me twice for tuition if I said 
that.
    The Chairman. Did they? OK.
    [Laughter.]

                STATEMENT OF SCOTT DONEY, Ph.D.,

                CHIEF SCIENTIST-DESIGNATE, NOAA,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Doney. So, Chairman Rockefeller, Ranking Member 
Hutchison, and honorable members of the Committee, thank you 
for the opportunity today to speak with you.
    I'm honored and humbled to be here as President Obama's 
nominee for Chief Scientist of the National Oceanic and 
Atmospheric Administration.
    I also would like to acknowledge Secretary Locke and Under 
Secretary Lubchenco for their gracious support of my 
nomination.
    I'd also like to thank my family, and particularly my wife, 
Andrea, who runs her own small engineering firm; and son Grant; 
my older brother Brett, who has worked for many years as a 
regional economic developer, in Massachusetts, Maine, Montana; 
and my mother, who's at home, in Brunswick, Maine.
    I especially want to thank--sorry--my late great-aunt 
Lilly, who supported my college education and encouraged me to 
follow my dream of becoming an oceanographer. With her help, I 
was able to take a term off of college to participate in my 
first oceanographic research expedition aboard a sail training 
vessel, the R/V Westward. This experience crystallized, for me, 
a life-long excitement in the sea and its important roles in 
society.
    I'm also very grateful to the numerous scientific 
colleagues who've assisted me over my career, and particularly 
those at the National Center for Atmospheric Research, in 
Boulder, Colorado, where I spent about a decade working, and in 
my present faculty position at the Woods Hole Oceanographic 
Institution.
    The central focus of my research is on the cycling of 
carbon, in its many forms, within the ocean and between the 
ocean, the atmosphere, and the land-biosphere. Along the way, 
I've also been involved in studies of marine and terrestrial 
ecology, ocean and atmospheric physics, climate, and, most 
recently, environmental economics.
    I take great pride in teaching and mentoring students and 
young scientists. I also strive to make my science more 
accessible for the public and decisionmakers through my 
writing, lecturing, and engagement with stakeholder groups.
    My background touches on many aspects of the research being 
done today at NOAA, and on how science feed into NOAA's roles 
in stewardship and service. I also worked directly with many of 
the tools that are central to NOAA science: oceanographic field 
research, numerical models, Earth-observing systems, satellite 
remote sensing, and data assimilation.
    I'm fortunate to work closely with a number of scientific 
groups within NOAA. This includes having served as the joint 
leader of two oceanographic research expeditions on NOAA ships; 
and, two summers ago, I was part of an external review 
committee for NOAA's premier science laboratory in Seattle, 
Washington.
    I also lead a grassroots effort to coordinate ocean 
chemical and ecological research across the National Science 
Foundation, NASA, and NOAA.
    Filling the Chief Scientist position at NOAA would enhance 
the visibility of research across the agency and highlight the 
critical role science plays in all aspects of NOAA's mission. 
The success of NOAA's research enterprise depends critically on 
recruiting and retaining the best scientists and technicians. 
An important element is maintaining NOAA's reputation as a 
place where topnotch scientists can pursue world-class research 
while solving problems that are directly relevant to our 
society. Another element is cultivating future scientists 
through improved science education, which also has many wider 
benefits for communities and businesses.
    There are a number of opportunities to better integrate 
research across NOAA and with its external partners, and to 
more effectively translate science into useful products for 
decisionmakers, research managers, and the public. Timely 
information about the ocean, the atmosphere, and marine 
ecosystems is increasingly important for both individuals and 
companies, whether it's in the form of better weather forecasts 
or assessments of the health of coastal ecosystems and 
fisheries.
    Mr. Chairman, members of the Committee, if confirmed, I 
look forward to working with you on ensuring that NOAA is 
generating and using the highest quality science and in a 
timely fashion.
    Thank you for your attention, and I welcome any questions.
    [The prepared statement and biographical information of Dr. 
Doney follows:]

 Prepared Statement of Scott Doney, Ph.D., Chief Scientist-Designate, 
                   NOAA, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchinson, and honorable 
members of the Committee, thank you for the opportunity today to speak 
with you. I am honored and humbled to be here as President Obama's 
nominee for Chief Scientist of the National Oceanic and Atmospheric 
Administration. I also would like to acknowledge Secretary Locke and 
Under Secretary Lubchenco for their gracious support of my nomination.
    I would like to thank my family, in particular my wife Andrea, who 
runs her own small engineering firm and my son Grant. My older brother 
Brett, who has worked for many years as a regional economic developer 
in Massachusetts, Maine and Montana. And my mother, who is at home in 
Brunswick, Maine.
    I especially want to thank my late great-aunt Lillie, who supported 
my college education and encouraged me to follow my dream of becoming 
an oceanographer. With her help, I was able to take a term off from 
college to participate in an oceanographic research expedition aboard 
the sail-training vessel R/V Westward. This experience crystallized for 
me a life-long excitement in the sea and its important roles in 
society.
    I am also very grateful to the numerous scientific colleagues who 
have assisted me over my career, in particular those at the National 
Center for Atmospheric Research, in Boulder, Colorado, where I worked 
for over a decade, and in my present faculty position at the Woods Hole 
Oceanographic Institution.
    The central focus of my research is the cycling of carbon in its 
many forms within the ocean and between the ocean, atmosphere and land 
biosphere. Along the way, I have also been involved in studies of 
marine and terrestrial ecology, ocean and atmosphere physics, climate, 
and most recently environmental economics.
    I take great pride in teaching and mentoring students and young 
scientists. I also strive to make science more accessible for the 
public and decisionmakers through my writing, lecturing and engagement 
with stakeholder groups.
    My background touches on many aspects of the research being done 
today at NOAA and on how science feeds into NOAA's roles in stewardship 
and service. I also work directly with many of the tools that are 
central to NOAA science: oceanographic field research; numerical 
models; Earth observing systems; satellite remote sensing; and data 
assimilation.
    I am fortunate to work closely with a number of science groups 
within NOAA. This includes having served as the joint leader of two 
oceanographic research expeditions on NOAA ships. Two summers ago, I 
was part of an external review committee for NOAA's premier science 
laboratory in Seattle, Washington. I also lead a grass-roots effort to 
coordinate ocean chemical and ecological research across NSF, NASA and 
NOAA.
    Filling the Chief Scientist position at NOAA would enhance the 
visibility of research across the agency and highlight the critical 
role science plays in all aspects of NOAA's mission. The success of 
NOAA's research enterprise depends critically on recruiting and 
retaining the best scientists and technicians. An important element is 
maintaining NOAA's reputation as a place where top-notch scientists can 
pursue world-class research while solving problems that are directly 
relevant to our society. Another element is cultivating future 
scientists through improved science education, which has many wider 
benefits for communities and businesses as well.
    There are also opportunities to better integrate research across 
NOAA and with its external partners and to more effectively translate 
science into useful products for decisionmakers, resource managers, and 
the public. Timely information about the ocean, atmosphere and marine 
ecosystems is increasingly important for both individuals and 
companies, whether it is in the form of improved weather forecasts or 
assessments of the health of coastal ecosystems and fisheries.
    Mr. Chairman and members of the Committee, if confirmed, I look 
forward to working with you on ensuring that NOAA is generating and 
using the highest quality science in a timely fashion.
    Thank you for your attention, and I welcome any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Scott 
Christopher Doney.
    2. Position to which nominated: Chief Scientist, National Oceanic 
and Atmospheric Administration.
    3. Date of Nomination: August 5, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Woods Hole Oceanographic Institution, 266 Woods Hole 
        Road, Woods Hole, MA 02543.

    5. Date and Place of Birth: September 8, 1964; Redondo Beach, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife--Andrea Diane Gosselin, President, Cape Structural 
        Consultants; son--Grant Arthur Doney, 12.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of California, San Diego, BA, Chemistry, June 1986.

        Massachusetts Institute of Technology/Woods Hole Oceanographic 
        Institution Joint Program, PhD, Chemical Oceanography, 
        September 1991.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Woods Hole Oceanographic Institution, Department of Marine 
        Chemistry and Geochemistry, Woods Hole, MA: Associate Scientist 
        with tenure (2002-2005); Senior Scientist (2005 to present).

        National Center for Atmospheric Research, Climate and Global 
        Dynamics Division, Boulder, CO: Advanced Study Program 
        Postdoctoral Fellow (1991-1993); Scientist I (1993-1997); 
        Scientist II (1997-1999); Scientist III (tenured) (1999-2002);.

        Massachusetts Institute of Technology/Woods Hole Oceanographic 
        Institution Joint Program, Cambridge and Woods Hole, MA: NSF 
        Graduate Fellow (1987 -1990); Graduate Research Assistant WHOI 
        and MIT (1986-1987; 1990-1991).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
National Science Program Leadership
    Ocean Carbon and Biogeochemistry (OCB) Program (NSF, NASA & NOAA):

  <bullet> Scientific Steering Committee, Chair (inaugural), 2006 to 
        present

  <bullet> PIOCB Project Office, 2006 to present

    Community Climate System Model (CCSM) (NSF and DOE):

  <bullet> Co-Chair Biogeochemistry Working Group, 1998-2007

  <bullet> Scientific Steering Committee, 2002 to present

    U.S. Carbon Cycle Science Program (U.S. Global Change Research 
Program and Interagency Working Group):

  <bullet> Scientific Steering Group, 2002 to present

  <bullet> Chair of Ocean Carbon and Climate Change (OCCC) Scientific 
        Steering Group, 2005 to present

    CLIVAR/CO<INF>2</INF> Repeat Hydrography Scientific Steering 
Committee (NOAA and NSF), 2002 to present

    Ocean Acidification Task Force (OATF) formed by the Ocean Research 
and Resources Advisory Panel (ORRAP) (a United States Federal Advisory 
Committee), taskforce member, 2010 to present
National Science Foundation

        Geosciences Directorate, GEO Vision working group, 2006-2008

        Geosciences Directorate Assistant Director, Search Committee, 
        2007
National Oceanic and Atmospheric Administration

        Pacific Marine Environmental Laboratory (PMEL), external 
        reviewer 2008

        Office of Global Programs, Global Carbon Cycle program science 
        panel, 2006-2008
National Aeronautics and Space Administration
        Aerosol-Cloud-Ocean Mission Concept Study Science Working 
        Group, 2007
National Research Council
        Committee Member, ``Development of an Integrated Science 
        Strategy for Ocean Acidification Monitoring, Research, and 
        Impacts Assessment,'' National Research Council Ocean Studies 
        Board, 2009-2010

        Committee Member, ``Stabilization Targets for Atmospheric 
        Greenhouse Gas Concentrations'' National Research Council Board 
        of Atmospheric Sciences and Climate, 2009 to present

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        The Oceanography Society, Council Member (at-large 
        representative), 2009 to present

    Communication Partnership for Science and the Sea (COMPASS):

  <bullet> Science Advisor, 2009 to present

  <bullet> COMPASS Climate Initiative, Co-Chair, 2009 to present

        Sea Education Association (SEA), Corporation overseer, 2006 to 
        present; Distinguished Lecturer, 2006-2007; Trustee, 2009 to 
        present

        American Geophysical Union

  <bullet> Search Committee, James B. Macelwane Medal, 2007 and 2008

  <bullet> Search Committee, Editor for Global Biogeochemical Cycles, 
        2004

  <bullet> Journal of Geophysical Research, Biogeosciences, Associate 
        Editor, 2004 to present

        Ecosystems Center, External Review Committee Member, the Marine 
        Biological Laboratory, Woods Hole, 2009

        American Institute of Physics Physics Today, Advisory Committee 
        Member, 2009-2012

        European Geophysical Union Ocean Science, Editorial Advisory 
        Board, 2009 to present

        Faculty of 1000, Member Ecology Section, www.facultyof1000.com, 
        2004 to present

        AAAS Science magazine, Board of Reviewing Editors, 2007 to 
        present

        Princeton University Press, external reviewer of a textbook, 
        2009

        Gordon and Betty Moore Foundation, organized science meeting on 
        ocean acidification, 2009

        Agouron Institute, external reviewer for science program, 2006

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Geophysical Union, 1988 to present (member; also see 
        above)

        The Oceanography Society, 1990 to present (member; also see 
        above)

        American Meteorological Society, 1992 to present

        American Society of Limnology and Oceanography, 2008 to present

        American Association for the Advancement of Science, 2007 to 
        present, (member; also see above)

        Sigma Xi, 2010 to present

        USA Swimming, meet official, 2007 to present

        U.S. Masters Swimming, 2005 to present

        CPR Trainer (volunteer), Falmouth Fire Department, Falmouth MA, 
        2002 to present

        Louisville Volunteer Fire Department, Louisville CO, 1993-2002 
        (firefighter, training officer, medical coordinator, treasurer, 
        membership committee)

        U.S. Coast Guard Auxiliary (Woods Hole Station flotilla), 2002-
        2004

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Barack Obama--$1,000, 6/8/2007 (spouse)

        John Kerry--$500, 8/6/2004 (spouse)

        John Kerry--$250, 1/20/2004 (self)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        W. Van Alan Clark Sr. Chair, Woods Hole Oceanographic 
        Institution, 2007

        American Geophysical Union, Editor's Citation for Excellence in 
        Refereeing, Global Biogeochemical Cycles, 2005

        Aldo Leopold Leadership Program, Fellow, 2004

        Ocean and Climate Change Institute (OCCI) Fellow, Woods Hole 
        Oceanographic Institution, 2003-2006

        James B. Macelwane Medal, American Geophysical Union, 2000

        Fellow, American Geophysical Union, 2000

        Outstanding Student Poster Award, American Geophysical Union, 
        1990

        National Science Foundation Graduate Fellowship, 1987-1990

        Urey Award, Department of Chemistry, University of California 
        at San Diego, 1986

        Phi Beta Kappa, 1986

        University of California at San Diego Alumni Scholarship, 1983-
        1984

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See attached lists of publications and speeches.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        U.S. House of Representatives Testimony, Committee on Science 
        and Technology, Subcommittee on Energy and Environment, hearing 
        on ``The Federal Ocean Acidification Research and Monitoring 
        Act: H.R. 4174'' (June 2008).

        U.S. Senate Testimony, Committee on Commerce, Science, and 
        Transportation, Subcommittee on Oceans, Atmosphere, Fisheries 
        and Coast Guard, hearing on ``Effects of Climate Change and 
        Ocean Acidification on Living Marine Resources'' (May 2007).

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My experience as a working research scientist, educator, and leader 
in the ocean science community position me well for the Chief Scientist 
job at NOAA. I have a strong interdisciplinary background that will 
allow me to guide and help integrate ocean, atmosphere and ecosystem 
science across the agency. My scientific career began as a graduate 
student at the Woods Hole Oceanographic Institution (WHOI) where I 
studied ocean chemistry and oceanographic field research. I benefited 
greatly from a decade spent at the National Center for Atmospheric 
Research (NCAR), where I was trained and worked on ocean and 
atmospheric modeling and Earth observing systems. Today I lead a 
vigorous research group at WHOI that combines laboratory and field 
studies, numerical models, and satellite remote sensing to address 
relevant societal problems. The central focus of my research is the 
cycling of carbon in its many forms within the ocean and between the 
ocean, atmosphere and land biosphere. Along the way, I have also been 
involved in studies on marine and terrestrial ecosystems, ocean and 
atmosphere physics, climate, and most recently environmental economics.
    Over the last two decades, I explored the physical, chemical and 
biological controls on ocean carbon, with the overall goal of building 
improved predictive models. The chemistry of the sea can strongly 
influence marine life and ecosystems, which led me to my present 
research on drawing the linkages from ocean chemistry to fisheries to 
human communities and social and economic impacts. These research 
skills are directly relevant to a range of topical issues confronting 
NOAA and the nation, such as the Gulf of Mexico oil spill where key 
questions surround understanding the transport and fate of organic 
contaminants and identifying acute and chronic ecosystem degradation. 
My research on ocean acidification also illustrates my emphasis on 
making science accessible for the public and decisionmakers through 
articles and lectures for popular audiences. For example, ocean 
acidification has received increased public visibility due to recent 
dramatic production declines for U.S. West Coast oyster hatcheries, and 
I have been actively involved in outreach with shellfish growers on 
identifying causes and building solutions.
    I have a good perspective on the challenges and opportunities for 
NOAA research scientists both from my external view as an academic 
scientist and from an internal view from my interactions with NOAA 
staff. I have worked closely with a number of science groups within 
NOAA, including as joint leader of two oceanographic research 
expeditions on NOAA ships. Recently I was part of an external review 
committee for one of the premier NOAA science laboratories. I have held 
leadership positions in national science professional organizations 
(e.g., Councilor of The Oceanography Society) and national and 
international science programs. In particular, I led the effort to 
build a grass-roots ocean science program, the Ocean Carbon and 
Biogeochemistry (OCB) program, that now coordinates and facilitates 
marine research by investigators working with NASA, NSF and NOAA. I 
also have long-term experience on the science steering group that works 
with the Federal inter-agency working group on carbon cycle science. At 
the international level, I have extensive experience coordinating U.S. 
ocean carbon research with colleagues from Europe and other countries 
through different international science organizations.
    The NOAA Chief Scientist helps guide NOAA's education and workforce 
training initiatives. A significant part of my current responsibilities 
include teaching and mentoring students and young scientists at WHOI 
and other institutions. As an example, over the last several years I 
have been part of an NSF Science and Technology Center based out of the 
University of Hawaii. The Center for Microbial Oceanography Research 
and Education (C-MORE) is developing innovative curriculum for primary 
and secondary education as well as programs to increase participation 
in ocean science by under-represented minorities, in particular 
Hawaiians and Pacific Islanders.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Effective management of the NOAA research enterprise is an 
important responsibility of the NOAA Chief Scientist and the rest of 
the NOAA senior management team. If confirmed, I will work through 
existing structures like the NOAA Research Council, I will work to see 
that the highest quality research is conducted at NOAA, that the best 
science is used for stewardship decisions and in creating products for 
the public, and that research plans match the needs across the agency.
    Over my career, I have led numerous research studies and have 
served as the lead scientist on several large, multi-institutional 
research grants. These projects have required me to manage personnel 
both at my home institution and at other academic institutions across 
the country. Typical projects range in size from a half dozen to two 
dozen participants, and typical grant sizes are $500,000 to $2,000,000. 
While at NCAR, I led the NCAR-wide Biogeosciences Initiative that 
allocated research resources and coordinated activities linking 
biology, climate and the carbon and water cycles. Currently I chair the 
scientific steering committee and lead the project office for the Ocean 
Carbon and Biogeochemistry (OCB) program. The OCB program helps 
coordinate and facilitate the research of several hundred U.S. ocean 
scientists by holding topical science workshops and developing outreach 
products.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    There are a number of opportunities for improving aspects of NOAA's 
mission that are currently working well while at the same time 
expanding NOAA's capabilities in other areas to reflect changing 
demands for science, service and stewardship related to the ocean and 
atmosphere. A first challenge is sustaining the quality of the NOAA 
research effort and maintaining a strong science work force. The long-
term health of science at NOAA depends on recruiting and retaining 
world-class scientists and technicians. This requires innovative 
approaches for providing scientists with appropriate career-long 
training, mentoring, and research and management opportunities. It also 
means working through NOAA and other science education programs to 
develop a pipeline of prepared young scientists and tapping into a more 
diverse work force.
    A second challenge is integrating NOAA's research efforts across 
the agency and with external partners. Research is spread over several 
NOAA line offices, and science is central to the activities in all of 
the line offices. A key task is to ensure that the mechanisms already 
in place like the NOAA Research Council are working well and to explore 
other cross-agency approaches for integrating science to stewardship 
and service. Further, NOAA's pivotal role in environmental science 
requires strong linkages with other Federal science agencies (e.g., 
NSF, NASA, USGS, DOE, ONR, etc.) and international partners. An ongoing 
issue that involves both internal and external relationships is how 
best to transition Earth observations that are often started as 
exploratory research projects into the operational observing systems 
that are critical for environmental predictions and services.
    A third challenge is effectively translating the knowledge gained 
from NOAA's research, observations and predictions into useful products 
for decisionmakers, environmental resource managers, and the public. 
This involves a two-way dialogue between scientists and stakeholder 
groups to determine what research information is available versus what 
is needed by stakeholders, effective approaches for communicating this 
information, and new research directions to address unresolved needs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        TIAA/CREF Retirement Account

        Defined benefit retirement plan from Woods Hole Oceanographic 
        Institution

        Vanguard retirement account (spouse)

        Morgan Stanley retirement account (spouse)

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    If confirmed, I have arranged for a leave of absence from Woods 
Hole Oceanographic Institution while I am employed at the National 
Oceanic and Atmospheric Administration.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    While at NCAR, I participated in a Science, Engineering and 
Technology Congressional Visits Day (either spring 2000 or spring 
2001), where I met with staff from the House Science committee for a 
discussion on ocean numerical models and high-performance science 
computing.
    As a scientist at the Woods Hole Oceanographic Institution, I have 
been asked on two occasions to testify before congressional committees 
to discuss ocean acidification and other topics related to my research 
(see Question A.17). I have also on occasion met with Members of 
Congress and staff at their request to discuss my research.
    In April, 2009, I presented separate briefings for staff of the 
Congressional Research Service, House Appropriations Committee, and 
White House Office of Management and Budget on the topic of ocean 
acidification.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of scott c. doney
Senior Scientist
Department of Marine Chemistry and Geochemistry MS 25
Woods Hole Oceanographic Institution
266 Woods Hole Road
Woods Hole, MA 02543
Education
    Ph.D. Chemical Oceanography, September 1991, Massachusetts 
Institute of Technology--Woods Hole Oceanographic Institution Joint 
Program, Woods Hole, MA 02543
        Thesis titled: ``A Study of North Atlantic Ventilation Using 
        Transient Tracers'' (Dr. William J. Jenkins, advisor)
    B.A. Chemistry (magna cum laude), Japanese Studies Minor, 1986, 
Revelle College, University of California at San Diego, La Jolla, CA 
92093
Professional Experience
    Woods Hole Oceanographic Institution, Dept . of Marine Chemistry 
and Geochemistry, Woods Hole, MA: Associate Scientist with tenure 
(2002-2005); Senior Scientist (2005-present).
    National Center for Atmospheric Research, Climate and Global 
Dynamics Division, Boulder, CO: Scientist I (1993-1997); Scientist II 
(1997-1999); Scientist III (tenured) (1999-2002); Advanced Study 
Program Postdoctoral Fellow (1991-1993).
    Massachusetts Institute of Technology/Woods Hole Oceanographic 
Institution Joint Program, Cambridge and Woods Hole, MA: NSF Graduate 
Fellow (1987 -1990); Graduate Research Assistant WHOI and MIT (1986-
1987; 1990-1991).
    Friday Harbor Laboratories, Student Participant in Ocean 
Circulation and Biogeochemical Cycles, summer short-course, instructors 
J. Sarmiento and P. Rhines, (1990).
    University of California at San Diego, Chemistry Department, La 
Jolla, CA: Grader (1984-1985); Teaching Assistant, Organic Chemistry 
(1985-1986).
    Goddard Institute for Space Studies, NASA, New York, NY: Summer 
Intern (1985).
    Sea Education Association, Woods Hole, MA: Student Class W-76, 
(1984).
Professional Affiliations
        American Geophysical Union

        The Oceanography Society

        American Meteorological Society

        American Society of Limnology and Oceanography
Research Interests
        Marine biogeochemistry and ecosystem dynamics

        Ocean acidification

        Global carbon cycle

        Climate change
Academic Honors
    W. Van Alan Clark Sr. Chair, Woods Hole Oceanographic Institution, 
2007
    American Geophysical Union, Editor's Citation for Excellence in 
Refereeing, Global Biogeochemical Cycles, 2005
    Aldo Leopold Leadership Program, Fellow, 2004
    Ocean and Climate Change Institute (OCCI) Fellow, Woods Hole 
Oceanographic Institution 2003-2006
    James B. Macelwane Medal, American Geophysical Union, 2000
    Fellow, American Geophysical Union, 2000
    Outstanding Student Poster Award, American Geophysical Union, 1990
    National Science Foundation Graduate Fellowship, 1987-1990
    Urey Award, Dept. of Chemistry, University of California at San 
Diego, 1986
    Phi Beta Kappa, 1986
    University of California at San Diego Alumni Scholarship, 1983-1984
External Professional Activities
National and International Science Program Leadership
    Ocean Carbon and Biogeochemistry (OCB) Program (NSF, NASA and 
NOAA):

        Scientific Steering Committee, Chair (inaugural), 2006-present

        PI OCB Project Office, 2006-present

    Community Climate System Model (CCSM):

        Co-Chair Biogeochemistry Working Group, 1998-2007

        Scientific Steering Committee, 2002-present

    U.S. Carbon Cycle Science Program:

        Scientific Steering Group, 2002-present

        Chair of Ocean Carbon and Climate Change (OCCC) Scientific 
        Steering Group, 2005-present

        Chair of Ocean Implementation Group, 2002-2004

    C-MORE, Center for Microbial Oceanography, Research, and Education 
(NSF Science and Technology Center):

        Science Team Member, 2006-present

        Theme IV (Modeling) Team Leader, 2006-present

        Executive Committee, 2006-present

    CLIVAR/CO 2 Repeat Hydrography Scientific Steering Committee, 2002-
present
    World Ocean Circulation Experiment (WOCE), U.S. Scientific Steering 
Committee, 1997-2002
    Joint Global Ocean Flux Study (JGOFS):

        U.S. Synthesis and Modeling Project, Co-coordinator, 1997-2005

        U.S. Scientific Steering Committee, 1993-2003

        U.S. and International North Atlantic Planning Groups, 1994-
        1996

        U.S. Time-Series Oversight Committee, 1996
Editorial Service
    American Institute of Physics Physics Today, Advisory Committee 
Member, 2009-2012
    EGU Ocean Science, Editorial Advisory Board, 2009-present
    Faculty of 1000, Member Ecology Section, www.facultyof1000.com, 
2004-present
    AAAS Science magazine, Board of Reviewing Editors, 2007-present
    Journal Editor:

        Journal of Geophysical Research, Biogeosciences, Associate 
        Editor, 2004-present

        Global Biogeochemical Cycles, Associate Editor, 2002-2004

        Reviews of Geophysics, Associate Editor, 1997-2001

    Guest Editor for Special Issues:

        Surface Ocean CO<INF>2</INF> Variability and Vulnerabilities, 
        Deep-Sea Res. II, 56 (8-10), 2009

        U.S. JGOFS Synthesis and Modeling III, Deep-Sea Res. II, 53 (5-
        7), 2006

        U.S. JGOFS Synthesis and Modeling II, Deep-Sea Res. II, 50 (22-
        26), 2003

        U.S. JGOFS Synthesis and Modeling, Deep-Sea Res. II, 49 (1-3), 
        2002
National Science Foundation
    Geosciences Directorate, GEO Vision working group, 2006-2008
    Geosciences Directorate Assistant Director Search Committee, 2007
    Ocean Information Technology Initiative working group, 2003-2004
    Ocean Carbon Cycle Research (OCCR) planning group, 2001-2003
    Ocean Carbon Transport, Exchanges and Transformations planning 
group, 1999-2000
National Oceanic and Atmospheric Administration
    Pacific Marine Environmental Laboratory (PMEL), external reviewer 
2008
    Office of Global Programs, Global Carbon Cycle program advisory 
panel, 1999-2002 and 2006-present
    Carbon Observations Planning Group, 1999-2001
    CIMAS Visiting Scholar, University of Miami and NOAA/AOML, 1996
National Aeronautics and Space Administration
    Orbiting Carbon Observatory (OCO) Mission Science Team, 2002-2009 
and Atmospheric CO<INF>2</INF> from Space (ACOS) team, 2009-present
    SeaWiFS and Ocean Color Science Teams, 1997-present
    Aerosol-Cloud-Ocean Mission Concept Study Science Working Group, 
2007
National Research Council
    Committee Member, ``Development of an Integrated Science Strategy 
for Ocean Acidification Monitoring, Research, and Impacts Assessment,'' 
National Research Council Ocean Studies Board, 2009-2010
    Committee Member, ``Stabilization Targets for Atmospheric 
Greenhouse Gas Concentrations'' National Research Council Board of 
Atmospheric Sciences and Climate, 2009-2011
Congressional Testimony
    U.S. House of Representatives Testimony, Committee on Science and 
Technology, Subcommittee on Energy and Environment, hearing on ``The 
Federal Ocean Acidification Research and Monitoring Act: H.R. 4174'' 
(June, 2008)
    U.S. Senate Testimony, Committee on Commerce, Science and 
Transportation, Subcommittee on Oceans, Atmosphere, Fisheries and Coast 
Guard, hearing on ``Effects of Climate Change and Ocean Acidification 
on Living Marine Resources'' (May, 2007)
American Geophysical Union
    Search Committee, James B. Macelwane Medal, 2007 and 2008
    Search Committee, Editor for Global Biogeochemical Cycles, 2004
The Oceanography Society
    Council Member (at-large representative), 2009-2012
Non-profit Organizations
    Communication Partnership for Science and the Sea (COMPASS), 
Science Advisor, http://www.compassonline.org/, 2009-present
    Sea Education Association (SEA), Corporation overseer, 2006-
present; Trustee, 2009-present
Other
    H. Burr Steinbach Visiting Scholar, Woods Hole Oceanographic 
Institution, 2000
    NCAR Biogeosciences Initiative, Project Lead, 2001-2002
    Ecosystems Center, External Review Committee Member, the Marine 
Biological Laboratory, Woods Hole, 2009
WHOI Institutional Activities
    MIT/WHOI Joint Committee on Chemical Oceanography (JCCO), 2003-2007
    WHOI Director and President Search Committee, 2006-2007
    WHOI Information Technology Advisory Committee (ITAC), 2002-2006
    WHOI Marine Chemistry and Geochemistry Dept. Faculty Hiring 
Committee, Chair, 2003
    WHOI Ocean and Climate Change Institute (OCCI), Institute Advisory 
Committee, 2003-2006
    WHOI Marine Chemistry and Geochemistry Dept., Faculty Mentorship 
Committees: Mak Saito, Chair; Dierdre Toole; Karen Casciotti; Rachel 
Stanley)
Field Experience
    Undergraduate student on Sea Education Association research cruise 
on SSV Westward (W-76), Sargasso Sea and western North Atlantic, Chief 
Scientist Mary Farmer; May and June, 1984.
    At sea analysis of perfluorodecaline and SF<INF>6</INF> on Santa 
Monica Basin Purposeful Tracer Release Experiment, R/V New Horizon and 
R/V Robert Gordon Sproul, Chief Scientist Jim Ledwell; Sept. 1985.
    Deployment and retrieval of in-situ particle pumping system and 
sediment trap array from R/V Weatherbird, Bermuda, Chief Scientist 
Robert Sherrell; Sept. 1987.
    Collection and analysis of chlorofluorocarbon, tritium, and 
<SUP>3</SUP> He samples on Oceanus Cruise 202, a hydrographic section 
from Iceland to equator along 20+W, R/V Oceanus, Chief Scientist Mike 
McCartney; July and August, 1988.
    Collection of tritium and <SUP>3</SUP> He samples for Leg 6 of 
South Atlantic Ventilation Experiment, R/V Melville, Chief Scientist 
Lynne Talley; March and April, 1989.
    Co-Chief Scientist, NOAA 1993 North Atlantic CO<INF>2</INF> Cruise, 
R/V Malcolm Baldridge, Chief Scientist Rik Wanninkhof; July, 1993.
    Co-Chief Scientist, World Ocean Circulation Experiment leg I7N in 
western Indian Ocean, R/V Knorr, Chief Scientist Don Olson; July and 
August, 1995.
    Collection of Trichodesmium samples for physiological and genomic 
analysis, NSF N<INF>2</INF> Fixation Biocomplexity Cruise (MANTRA), 
North Pacific, R/V Revelle, Chief Scientist Doug Capone, August, 2003.
    Chief Scientist, A16S, CLIVAR/CO<INF>2</INF> Repeat Hydrography 
Program, R/V Ronald H. Brown, South Atlantic, (joint Chief Scientist w/
Rik Wanninkhof), Jan. and Feb. 2005.
Teaching and Mentoring
    Graduate Student Advisor, MIT/WHOI Joint Program:

        Pre-generals advisor: Andrew McDonnell (Chemistry, 2005-2007), 
        Holly Moeller (Biology, 2008-2009)

        Thesis advisor: Annette Hynes (Biology, Ph.D., 2009); Naomi 
        Levine (Chemistry, Ph.D., 2009

    Postdoctoral Advisor/Co-Advisor:

        NCAR: Julia Lee (1996-1997), Montse Fuentes (1998), J. Keith 
        Moore (1999-2002), Ivan Lima (1999-2002), Roger Dargaville 
        (2000-2002), David Baker (2000-2002)

        WHOI: Dierdre Toole (2003-2005), Irina Marinov (2007-2008), 
        Nathalie Goodkin (2007-2008), Sarah Cooley (2007-present), 
        Paulo Calil (2009-present), Yawei (Wayne) Luo (2009-present), 
        Annette Hynes (2009-present)

    Thesis Committee Member (other than as advisor/co-advisor):

        MIT/WHOI Joint Program: Rachel Stanley (Ph.D., 2007), Nathalie 
        Goodkin (Ph.D., 2007), Louie Wurch

        Other: Nan Rosenbloom (Ph.D., U Colorado, Boulder, 1997), Sarah 
        Zedler (M.S., UC Santa Barbara, 1999)

    Visiting Graduate Student Advisor:

        NCAR: Camilla Geels (U. Copenhagen, Denmark, 2000-2001)

        WHOI: David Nicholson (U. Washington, 2009)

    Overseas External Examiner, Carolyn Walker (Ph.D., 2009), U. Otago, 
Dunedin, New Zealand
    External Thesis Supervisor, Claudine Hauri, ETH Zurich, Zurich 
Switzerland
    MIT/WHOI Joint Program Thesis Defense Chair: Phoebe Dreux Chappell 
(Ph.D., 2009)
    Undergraduate Summer Student Advisor:

        UCAR-SOARS program: Kiesha Stevens (1996) and Sharon Perez 
        (1998)

        WHOI Summer Student Fellows: Allis Wallis (2004), Nora Xu 
        (2009)

        Other: Nicole Benoit (Co-op student, U. Pittsburgh, 3 
        semesters, 2007-2008), Hannah Lee (NOAA Hollings Scholar, 2008)

    Graduate teaching, U. Colorado, Boulder:

        ATOC 5225 Thermodynamics of Atmospheres and Oceans, Fall, 1998

        GEOL/EPOB 5700-2 Carbon, Climate and Society: Spring, 2001; 
        Fall, 2001; Spring, 2002

    Graduate teaching, MIT/WHOI Joint Program:

        12.747 Modeling, Data Analysis, and Numerical Techniques for 
        Geochemistry, Fall 2002, Fall 2004; Fall 2006; Fall 2008

        12.759 Special Topics in Marine Chemistry Seminar: Spring 2004

        12.742 Marine Chemistry: annually Fall 2004-2008

                (published Open Course Ware notes for Marine Chemistry: 
                http://ocw2.mit.edu/OcwWeb/Earth_Atmospheric_and-
                Planetary-Sciences/12-742Fall2006/CourseHome/
                index.htm).

        7.430 Topics in Quantitative Marine Science: Ocean Biological-
        Physical Interaction, Spring 2006.

    Graduate Student Workshops: MSRI-NCAR Summer Workshop on Carbon 
Data Assimilation, Organizer with I. Fung and D. Schimel, Berkeley CA, 
July 2006.
    Undergraduate Teaching, Sea Education Association (SEA), Woods Hole 
MA:

        Distinguished Lecturer, SEA Oceans and Climate Program: Fall 
        2006, Fall 2007, Fall 2009.

        Lecturer on carbon cycle, ocean modeling and ocean 
        acidification, Spring 2008, Fall 2008, Spring 2009.

    Adjunct faculty, University of Colorado, Boulder: Geology (1997-
2002), Aerospace Engineering (1998-2002), Environmental Sciences (2000-
2002).
Publications for General Public (Total of 8)
(papers denoted by * first authored by supervised graduate student or 
        postdoctoral researcher)
    Doney, S.C., 2006: The dangers of ocean acidification. Scientific 
American, 294(3), March 2006, 58-65. (republished in German as ``Das 
Meer wird sauer'' in Spektrum der Wissenschaft, June 2006).
    Doney, S.C. and N.M. Levine, 2006: How long can the ocean slow 
global warming? Oceanus, Woods Hole Oceanographic Institution, (http://
www.whoi.edu/oceanus/index.do).
    *Goodkin, N. and S. Doney, 2007: Global calcification after ocean 
acidification, Meridian, Bermuda Institute of Ocean Sciences, 2(2), 12-
13.
    Buesseler, K., S. Doney, and H. Kite-Powell, 2008: To fertilize, or 
not to fertilize, Oceanus, 46(1), Jan. 2008, 3.
    Buesseler, K., S. Doney, and H. Kite-Powell (ed.), 2008: Should we 
fertilize the ocean to reduce greenhouse gases? Oceanus, 46(1), Jan. 
2008, 27pp.
    Pidgeon, E. and S.C. Doney, 2008: The role of the oceans, Chapter 8 
(pp 246-276), in A Climate for Life, Meeting the Global Challenge, R.A. 
Mittermeier et al., CEMEX Conservation Book Series, with Conservation 
International and the International League of Conservation 
Photographers, ISBN 978-0-9818321.
    Doney, S.C., 2008: Ocean acidification, essay in Ocean: An 
Illustrated Atlas (National Geographic Atlas) by S.A. Earle and L.K. 
Glover, National Geographic, Washington, D.C., p. 39, ISBN 978-
1426203190.
    Doney, S.C., 2009: Ocean acidification, Flotsam & Jetsam, 
Massachusetts Marine Educators, 38, Issue 1 (Summer 2009), 1-15, 
www.massmarineeducators.org.
Publications in Refereed Journals (Total of 152)
(papers denoted by * first authored by supervised graduate student or 
        postdoctoral researcher)
    Doney, S.C. and W.J. Jenkins, 1988. The effect of boundary 
conditions on tracer estimates of thermocline ventilation rates. J. 
Mar. Res., 46, 947-965.
    Doney, S.C., D.M. Glover, and W.J. Jenkins, 1992. A model function 
of the global bomb-tritium distribution in precipitation, 1960-1986. J. 
Geophys. Res., Oceans, 97, 5481-5492.
    Doney, S.C. and J.L. Bullister, 1992. A chlorofluorocarbon section 
in the eastern North Atlantic. Deep-Sea Res., 39, 1857-1883.
    Doney, S.C., 1992. Bomb tritium in the deep North Atlantic. 
Oceanography, 5, 169-170.
    Doney, S.C., W.J. Jenkins, and H.G. Ostlund, 1993. A tritium budget 
for the North Atlantic, observations and model results. J. Geophys. 
Res., Oceans, 98, 18,069-18,081.
    Doney, S.C. and W.J. Jenkins, 1994. Ventilation of the deep western 
boundary current and the abyssal western North Atlantic: estimates from 
tritium and <SUP>3</SUP> He distributions. J. Phys. Oceanogr., 24, 638-
659.
    Doney, S.C., 1994. Irreversible thermodynamic coupling between heat 
and mass fluxes across a gas/liquid interface. J. Chem. Society, 
Faraday Trans., 90, 1865-1874.
    Large, W.G., J.C. McWilliams, and S.C. Doney, 1994. Oceanic 
vertical mixing: A review and a model with a nonlocal boundary layer 
parameterization. Rev. Geophys., 32, 363-403.
    Doney, S.C., R.G. Najjar, and S. Stewart, 1995. Photochemistry, 
mixing, and diurnal cycles in the upper ocean. J. Mar. Res., 53, 341-
369.
    Doney, S.C., 1995. Irreversible thermodynamics and air-sea 
exchange. J. Geophys. Res., Oceans, 100, 8541-8553.
    Doney, S.C., 1995. Comment on ``Experimental demonstration of 
coupling of heat and matter fluxes at a gas-water interface'' by Leon 
F. Phillips. J. Geophys. Res., Atmospheres, 100, 14,347-14,350.
    Doney, S.C., D.M. Glover, and R.G. Najjar, 1996. A new coupled, 
one-dimensional biological--physical model for the upper ocean: 
applications to the JGOFS Bermuda Atlantic Time Series (BATS) site. 
Deep-Sea Res. II, 43, 591-624.
    Ayotte, K.W., P.P. Sullivan, A. Andren, S.C. Doney, A.A.M. 
Holtslag, W.G. Large, J.C. McWilliams, C.-H. Moeng, M.J. Otte, J.J. 
Tribbia, and J.C. Wyngaard, 1996. An evaluation of neutral and 
convective planetary boundary-layer parameterizations relative to large 
eddy simulations. Bound. Layer Meteorol., 79, 131-175.
    Doney, S.C., 1996. A synoptic atmospheric surface forcing data set 
and physical upper ocean model for the U.S. JGOFS Bermuda Atlantic 
Time-Series Study (BATS) site. J. Geophys. Res., Oceans, 101, 25,615-
25,634.
    Doney, S.C., 1997: The ocean's productive deserts, Nature, 389, 
905-906.
    Doney, S.C., W.J. Jenkins, and J.L. Bullister, 1997. A comparison 
of ocean tracer dating techniques on a meridional section in the 
eastern North Atlantic. Deep-Sea Res. I, 44, 603-626.
    Large, W.G., G. Danabasoglu, S.C. Doney, and J.C. McWilliams, 1997: 
Sensitivity to surface forcing and boundary layer mixing in a global 
ocean model: annual-mean climatology. J. Phys. Oceanogr., 27, 2418-
2447.
    *Howell, E.A., S.C. Doney, R.A. Fine, D.B. Olson, 1997: Geochemical 
estimates of denitrification rates for the Arabian Sea and Bay of 
Bengal during WOCE. Geophys. Res. Lett., 24, 2549-2552.
    Keeling, R.F., B.B. Stephens, R.G. Najjar, S.C. Doney, D. Archer, 
M. Heimann, 1998: Seasonal variations in the atmospheric O<INF>2</INF>/
N<INF>2</INF> ratio in relation to the kinetics of air-sea gas 
exchange, Global Biogeochem. Cycles, 12, 141-163.
    Doney, S.C., J.L. Bullister, and R. Wanninkhof, 1998: Climatic 
variability in upper ocean ventilation diagnosed using 
chlorofluorocarbons, Geophys. Res. Lett., 25, 1399-1402.
    Gent, P.R., F.O. Bryan, G. Danabasoglu, S.C. Doney, W.R. Holland, 
W.G. Large, J.C. McWilliams, 1998: The NCAR Climate System Model global 
ocean component, J. Climate, 11, 1287-1306.
    Doney, S.C., W.G. Large, and F.O. Bryan, 1998: Surface ocean fluxes 
and water-mass transformation rates in the coupled NCAR Climate System 
Model, J. Climate, 11, 1420-1441.
    *Lee-Taylor, J.M., S.C. Doney, G. Brasseur, and J.-F. Muller, 1998: 
A global three-dimensional atmosphere-ocean model of methyl bromide 
distributions, J. Geophys. Res., 103, 16,039-16,059.
    Lee, K., R. Wanninkhof, T. Takahashi, S.C. Doney, and R.A. Feely, 
1998: Low interannual variability in recent oceanic uptake of 
atmospheric carbon dioxide, Nature, 396, 155-159.
    Wanninkhof, R., S.C. Doney, T.-H. Peng, J. Bullister, K. Lee, and 
R.A. Feely, 1999: Comparison of methods to determine the anthropogenic 
CO<INF>2</INF> invasion into the Atlantic Ocean, Tellus, 51B, 511-530.
    Doney, S.C., 1999: Major challenges confronting marine 
biogeochemical modeling, Global Biogeochem. Cycles, 13, 705-714.
    Doney, S.C., D.W.R. Wallace, H.W. Ducklow, 2000: The North Atlantic 
Carbon Cycle: New Perspectives from JGOFS and WOCE. in The Changing 
Ocean Carbon Cycle: A Midterm Synthesis of the Joint Global Ocean Flux 
Study, ed. R.B. Hanson, H.W. Ducklow, and J.G. Field, Cambridge 
University Press, 373-391.
    Saravanan, R., G. Danabasoglu, S.C. Doney, and J.C. McWilliams, 
2000: Decadal variability and predictability in the midlatitude ocean-
atmosphere system, J. Climate, 13, 1073-1097.
    Fung, I.Y., S.K. Meyn, I. Tegen, S.C. Doney, J.G. John, and J.K.B. 
Bishop, 2000: Iron supply and demand in the upper ocean. Global 
Biogeochem. Cycles, 14, 281-295.
    *Fuentes, M., S.C. Doney, D.M. Glover, and S.J. McCue, 2000: 
Spatial structure of the SeaWiFS ocean color data for the North 
Atlantic Ocean, Studies in the Atmospheric Sciences (Lecture notes in 
Statistics Vol. 144), ed. M. Berliner, D. Nychka, and T. Hoar, 
Springer-Verlag, New York, 153-171.
    *Bailey, B.A., and S. Doney, 2000: Quantifying the effects of noise 
on biogeochemical models, Computing Science and Statistics, 32, 447-
453.
    Dickey, T., S. Zedler, X. Yu, S.C. Doney, D. Frye, H. Jannasch, D. 
Manov, D. Sigurdson, J.D. McNeil, L. Dobeck, T. Gilboy, C. Bravo, D.A. 
Siegel, and N. Nelson, 2001: Physical and biogeochemical variability 
from hours to years at the Bermuda testbed mooring: June 1994-March 
1998, Deep-Sea Res. II, 48, 2105-2140.
    *Rosenbloom, N.A., S.C. Doney, and D.S. Schimel, 2001: Geomorphic 
evolution of soil texture and organic matter in eroding landscapes, 
Global Biogeochem. Cycles, 15, 365-381.
    Garcon, V.C., A. Oschlies, S.C. Doney, D. McGillicuddy, J. Waniek, 
2001: The role of mesoscale variability on plankton dynamics in the 
North Atlantic, Deep-Sea Res. II, 48, 2199-2226.
    Fasham, M.J.R., B.M. Balino, M.C. Bowles, R. Anderson, D. Archer, 
U. Bathmann, P. Boyd, K. Buesseler, P. Burkill, A. Bychkov, C. Carlson, 
C.T.A. Chen, S. Doney, H. Ducklow, S. Emerson, R. Feely, G. Feldman, V. 
Garcon, D. Hansell, R. Hanson, P. Harrison, S. Honjo, C. Jeandel, D. 
Karl, R. Le Borgne, K.K. Liu, K. Lochte, F. Louanchi, R. Lowry, A. 
Michaels, P. Monfray, J. Murray, A. Oschlies, T. Platt, J. Priddle, R. 
Quinones, D. Ruiz-Pino, T. Saino, E. Sakshaug, G. Shimmield, S. Smith, 
W. Smith, T. Takahashi, P. Treguer, D. Wallace, R. Wanninkhof, A. 
Watson, J. Willebrand, C.S. Wong, 2001: A new vision of ocean 
biogeochemistry after a decade of the Joint Global Ocean Flux Study 
(JGOFS), AMBIO, Sp. Iss. 10, 4-31.
    Doney, S.C. and D.M. Glover, 2001: Modelling the ocean carbon 
system, in Encyclopedia of Ocean Sciences, Vol. 4, 1929-1935, ed. J. 
Steele, S.A. Thorpe, and K.K. Turekian, Academic Press, London, UK.
    Wanninkhof, R., S.C. Doney, T. Takahashi, and W.R. McGillis, 2001: 
The effect of using time-averaged winds on regional air-sea 
CO<INF>2</INF> fluxes, in Gas Transfer at Water Surfaces, ed. M. 
Donelan, W. Drennan, E. Saltzman, and R. Wanninkhof, pp. 351-357, AGU, 
Geophysical Monograph 127, Washington, D.C.
    Blackmon, M., B. Boville, F. Bryan, R. Dickinson, P. Gent, K. 
Kiehl, R. Moritz, D. Randall, J. Shukla, S. Solomon, G. Bonan, S. 
Doney, I. Fung, J. Hack, E. Hunke, J. Hurrell, J. Kutzbach, J. Meehl, 
B. Otto-Bliesner, R. Saravanan, E.K. Schneider, L.Sloan, M. Spall, K. 
Taylor, J. Tribbia and W. Washington, 2001: The Community Climate 
System Model, Bull. Amer. Meteorol. Soc., 82, 2357-2376.
    Doney, S.C., and D.S. Schimel, 2001: Global Change--the future and 
the greenhouse effect, Encyclopedia of Life Sciences, Nature Publishing 
Group, http://www.els.net.
    Doney, S.C., I. Lima, K. Lindsay, J.K. Moore, S. Dutkiewicz, M.A.M. 
Friedrichs, and R.J. Matear, 2001: Marine biogeochemical modeling, 
Oceanography, 14 (4), 93-107.
    Doney, S.C. and M.W. Hecht, 2002: Antarctic Bottom Water formation 
and deep water chlorofluorocarbon distributions in a global ocean 
climate model, J. Phys. Oceanogr., 32, 1642-1666.
    Doney, S.C., J.A. Kleypas, J.L. Sarmiento, and P.G. Falkowski, 
2002: The U.S. JGOFS Synthesis and Modeling Project-An introduction, 
Deep-Sea Res. II, 49, 1-20.
    Dutay, J.-C., J.L. Bullister, S.C. Doney, J.C. Orr, R. Najjar, K. 
Caldeira, J.-M. Champin, H. Drange, M. Follows, Y. Gao, N. Gruber, M.W. 
Hecht, A. Ishida, F. Joos, K. Lindsay, G. Madec, E. Maier-Reimer, J.C. 
Marshall, R.J. Matear, P. Monfray, G.-K. Plattner, J. Sarmiento, R. 
Schlitzer, R. Slater, I.J. Totterdell, M.-F. Weirig, Y. Yamanaka, and 
A. Yool, 2002: Evaluation of ocean model ventilation with CFC-11: 
comparison of 13 global ocean models. Ocean Modelling, 4, 89-120.
    *Lima, I, D.B. Olson and S.C. Doney, 2002: Intrinsic dynamics and 
stability properties of size-structured pelagic ecosystem models. J. 
Plankton Res., 24, 533-556.
    *Moore, J.K., S.C. Doney, J.A. Kleypas, D.M. Glover, and I.Y. Fung, 
2002: An intermediate complexity marine ecosystem model for the global 
domain. Deep-Sea Res., II, 49, 403-462.
    *Moore, J.K., S.C. Doney, D.M. Glover, and I.Y. Fung, 2002: Iron 
cycling and nutrient limitation patterns in surface waters of the world 
ocean. Deep-Sea Res., II, 49, 463-507.
    Randerson, J.T., C.J. Still, J.J. Balle, I.Y. Fung, S.C. Doney, 
P.P. Tans, T.J. Conway, J.W.C. White, B. Vaugn, N. Suits and A.S. 
Denning, 2002: Carbon isotope discrimination of arctic and boreal 
biomes inferred from remote atmospheric measurements and a biosphere-
atmosphere model. Global Biogeochem. Cycles, 16(3), 1028, doi:0.1029/
2001GB001435.
    Siegel, D.A., S.C. Doney, and J.A. Yoder, 2002: The North Atlantic 
spring phytoplankton bloom and Sverdrup's critical depth hypothesis, 
Science, 296, 730-733.
    Glover, D.M., S.C. Doney, A.J. Mariano, R.H. Evans, and S.J. McCue, 
2002: Mesoscale variability in time-series data: Satellite-based 
estimates for the U.S. JGOFS Bermuda Atlantic Time-Series Study (BATS) 
site, J. Geophys. Res., Oceans, 107(C8), 3092, doi:10.1029/
2000JC000589.
    Boyd, P.W., S.C. Doney, 2002: Modelling regional responses by 
marine pelagic ecosystems to global climate change, Geophys. Res. 
Lett., 29(16), 1806, doi:10.1029/2001GL014130.
    *Lima, I.D., D.B. Olson, and S.C. Doney, 2002: Biological response 
to frontal dynamics and mesoscale variability in oligotrophic 
environments: a numerical modeling study, J. Geophys. Res., Oceans, 
107(C8), 3111, doi:10.1029/2000JC0003 93
    Iglesias-Rodriguez, M.D., C.W. Brown, S.C. Doney, J. Kleypas, D. 
Kolber, Z. Kolber, P.K. Hayes, and P.G. Falkowski, 2002: Representing 
key phytoplankton functional groups in ocean carbon cycle models: 
coccolithophores, Global Biogeochem. Cycles, 16(4), 1100, doi:10.1029/
2001GB001454.
    *Zedler, S.E., T.D. Dickey, S.C. Doney, J.F. Price, X. Yu, and G.L. 
Mellor, 2002: Analyses and simulations of the upper ocean's response to 
Hurricane Felix at the Bermuda Testbed Mooring site: 13-23 August 1995, 
J. Geophys. Res., Oceans, 107(C12), 3232, doi:10.1029/2001 JC000969.
    Doney, S.C., D.M. Glover, M. Fuentes, and S. McCue, 2003: Mesoscale 
variability of Sea-viewing Wide Field-of-view Sensor (SeaWiFS) 
satellite ocean color: Global patterns and spatial scales, J. Geophys. 
Res., Oceans., 108(C2), 3024, doi:10.1029/2001JC000843.
    McGillicuddy, D.J., Jr., L.A. Anderson, S.C. Doney, and M.E. 
Maltrud, 2003: Eddy-driven sources and sinks of nutrients in the upper 
ocean: Results from a 0.1 resolution model of the North Atlantic, 
Global Biogeochem. Cycles, 17(2), 1035, doi:10.1029/2002GB001987.
    Boyd, P. and S.C. Doney, 2003: The impact of climate change and 
feedback process on the ocean carbon cycle. Ocean Biogeochemistry, ed. 
M. Fasham, Springer, 157-193.
    Doney, S.C., K. Lindsay, J.K. Moore, 2003: Global ocean carbon 
cycle modeling, Ocean Biogeochemistry, ed. M. Fasham, Springer, 217-
238.
    *Dargaville, R.J., S.C. Doney, and I.Y. Fung, 2003: Inter-annual 
variability in the interhemispheric atmospheric CO<INF>2</INF> 
gradient: Contributions from transport and the seasonal rectifier. 
Tellus B, 55, 711-722.
    Dilling, L., S.C. Doney, J. Edmonds, K.R. Gurney, R. Harriss, D. 
Schimel, B. Stephens, G. Stokes, 2003: The role of carbon cycle 
observations and knowledge in carbon management, Ann. Rev. Environ. 
Resourc., 28, 521-558, doi:10.1146/annurev.energy.28.011503.163443.
    Jenkins, W.J. and S.C. Doney, 2003: The subtropical nutrient 
spiral, Global Biogeochem. Cycles, 17(4), 1110, doi:10.1029/
2003GB002085.
    *Geels, C., S.C. Doney, R. Dargaville, J. Brandt, and J.H. 
Christensen, 2004: Investigating the sources of synoptic variability in 
atmospheric CO<INF>2</INF> measurements over the Northern Hemisphere 
continents: A regional model study. Tellus B, 56, 35-50.
    Matsumoto, K., J.L. Sarmiento, R.M. Key, J.L. Bullister, K. 
Caldeira, J.-M. Campin, S.C. Doney, H. Drange, J.-C. Dutay, M. Follows, 
Y. Gao, A. Gnanadesikan, N. Gruber, A. Ishida, F. Joos, K. Lindsay, E. 
Maier-Reimer, J.C. Marshall, R.J. Matear, P. Monfray, R. Najjar, G.-K. 
Platter, R. Schlitzer, R. Slater, P.S. Swathi, I.J. Totterdell, M.-F. 
Weirig, Y. Yamanaka, A. Yool, and J.C. Orr, 2004: Evaluation of ocean 
carbon cycle models with data-based metrics, Geophys. Res. Lett., 31, 
L07303, doi:10.1029/2003GL018970.
    Bailey, B.A., S.C. Doney, and I.D. Lima, 2004: Quantifying the 
effects of dynamical noise on the predictability of simple ecosystem 
model, Environmetrics, 15, 337-355, doi:10.1002/env.645.
    Bonfils, C., I. Fung, S. Doney, and J. John, 2004: On the detection 
of summertime terrestrial photosynthetic variability from its 
atmospheric signature, Geophys. Res. Lett., 31, L09207, doi:10.1029/
2004GL019453.
    Stark, S., W.J. Jenkins, and S.C. Doney, 2004: Deposition and 
recirculation of tritium in the North Pacific Ocean, J. Geophys. Res., 
Oceans, 109 (C6), C06009, 10.1029/2003JC002150.
    Sarmiento, J., R. Slater, R .Barber, L. Bopp, S.C. Doney, A.C. 
Hirst, J. Kleypas, R. Matear, U. Mikolajewicz, P. Monfray, V. Soldatov, 
S. Spall, R. Slater, and R. Stouffer, 2004: Response of ocean 
ecosystems to climate warming, Global Biogeochem. Cycles, 18, GB3003, 
doi:10.1029/2003GB002134.
    Crisp, D., R.M. Atlas, F.-M. Breon, L.R. Brown, J.P. Burrows, P. 
Ciais, B.J. Connor, S.C. Doney, I.Y. Fung, D.J. Jacob, C.E. Miller, D. 
O'Brien, S. Pawson, J.T. Randerson, P. Rayner, R.J. Salawitch, S.P. 
Sander, B. Sen, G.L. Stephens, P.P. Tans, G.C. Toon, P. O. Wennberg, 
S.C. Wofsy, Y.L. Yung, Z. Kuang, B. Chudasama, G. Sprague, B. Weiss, R. 
Pollock, D. Kenyon, S. Schroll, 2004: The Orbiting Carbon Observatory 
(OCO) Mission, Advanc. Space Res., 34, 700-709.
    Doney, S.C., K. Lindsay, K. Caldeira, J.-M. Campin, H. Drange, J.-
C. Dutay, M. Follows, Y. Gao, A. Gnanadesikan, N. Gruber, A. Ishida, F. 
Joos, G. Madec, E. Maier-Reimer, J.C. Marshall, R.J. Matear, P. 
Monfray, A. Mouchet, R. Najjar, J.C. Orr, G.-K. Plattner, J. Sarmiento, 
R. Schlitzer, R. Slater, I.J. Totterdell, M.-F. Weirig, Y. Yamanaka, A. 
Yool, 2004: Evaluating global ocean carbon models: the importance of 
realistic physics, Global Biogeochem. Cycles, 18, GB3017, doi:10.1029/
2003GB002150.
    Lima, I. and S.C. Doney, 2004: A three-dimensional, multi-nutrient, 
size-structured ecosystem model for the North Atlantic, Global 
Biogeochem. Cycles, 18, GB3019, doi:10.1029/2003 GB002146.
    Doney, S.C., M.R. Abbott, J.J. Cullen, D.M. Karl, and L. Rothstein, 
2004: From genes to ecosystems: the ocean's new frontier, Frontiers 
Ecology Environ., 2, 457-466.
    Moore, J.K., S.C. Doney and K. Lindsay, 2004: Upper ocean ecosystem 
dynamics and iron cycling in a global 3-D model, Global Biogeochem. 
Cycles, 18, 4, GB4028, 10.1029/2004GB002220.
    Bonfils, C., A. Angert, C. Henning, S. Biraud, S.C. Doney, and I. 
Fung, 2005: Extending the record of photosynthetic activity over the 
eastern United States into the pre-satellite period using surface 
diurnal temperature range, Geophysical Res. Lett., 32, L08405, 
doi:10.1029/2005GL022583.
    Fung, I., S.C. Doney, K. Lindsay, and J. John, 2005: Evolution of 
carbon sinks in a changing climate, Proc. Nat. Acad. Sci. (USA), 102, 
11201-11206, doi:10.1073/pnas.0504949102.
    Orr, J.C., V.J. Fabry, O. Aumont, L. Bopp, S.C. Doney, R.A. Feely, 
A. Gnanadesikan, N. Gruber, A. Ishida, F. Joos, R.M. Key, K. Lindsay, 
E. Maier-Reimer, R. Matear, P. Monfray, A. Mouchet, R.G. Najjar, G.-K. 
Plattner, K.B. Rodgers, C.L. Sabine, J.L. Sarmiento, R. Schlitzer, R.D. 
Slater, I.J. Totterdell, M.-F. Weirig, Y. Yamanaka, and A. Yool, 2005: 
Anthropogenic ocean acidification over the twenty-first century and its 
impact on marine calcifying organisms, Nature, 437, 681-686, 
doi:10.1038/nature04095.
    Rothstein, L., M. Abbott, E. Chassignet, J. Cullen, K. Denman, S. 
Doney, H. Ducklow, K. Fennel, M. Follows, D. Haidvogel, E. Hofmann, D. 
Karl, J. Kindle, I. Lima, M. Maltrud, C. McClain, D. McGillicuddy, J. 
Olascoa, Y. Spitz, J. Wiggert, and J. Yoder, 2006: Modeling ocean 
ecosystems: The PARADIGM Program, Oceanography, 19, 16-45.
    Mikaloff Fletcher, S.E., N. Gruber, A.R. Jacobson, S.C. Doney, S. 
Dutkiewicz, S. Gerber, M. Follows, F. Joos, K. Lindsay, D. Menemenlis, 
A. Mouchet, S.A. Muller, and J.L. Sarmiento, 2006: Inverse estimates of 
anthropogenic CO<INF>2</INF> uptake, transport, and storage by the 
ocean, Global Biogeochem. Cycles, 20, GB2002, doi:10.1029/2005GB002530.
    Gent, P.R., F.O. Bryan, G. Danabasoglu, K. Lindsay, D. Tsumune, 
M.W. Hecht, and S.C. Doney, 2006: Ocean chlorofluorocarbon and heat 
uptake during the twentieth century in the CCSM3, J. Climate, 19(11), 
2366-2381.
    Bryan, F., G. Danabasoglu, N. Nakashiki, Y. Yoshida, D.-H. Kim, J. 
Tsutsui, and S. Doney, 2006: Response of the North Atlantic 
thermohaline circulation and ventilation to increasing carbon dioxide 
in CCSM3, J. Climate, 19(11), 2382-2397.
    Collins, W.D., M. Blackmon, C.M. Bitz, G.B Bonan, C.S. Bretherton, 
J.A. Carton, P. Chang, S. Doney, J.J. Hack, J.T. Kiehl, T. Henderson, 
W.G. Large, D. McKenna, and B.D. Santer, 2006: The Community Climate 
System Model: CCSM3, J. Climate, 19(11), 2122-2143.
    Doney, S.C., K. Lindsay, I. Fung and J. John, 2006: Natural 
variability in a stable 1000 year coupled climate-carbon cycle 
simulation, J. Climate, 19(13), 3033-3054.
    *Stanley, R.H.R., W.J. Jenkins, and S.C. Doney, 2006: Quantifying 
seasonal air-sea gas exchange processes using noble gas time-series: a 
design experiment, J. Mar. Res., 64(2), 267-295.
    Moore, J.K., and S.C. Doney, 2006: Remote sensing observations of 
ocean physical and biological properties in the region of the SOFeX 
iron fertilization experiment, 2006: J. Geophys. Res. Oceans, 111, 
C06026, doi:10.1029/2005JC003289.
    Doney, S.C. and H.W. Ducklow, 2006: A decade of synthesis and 
modeling in the U.S. Joint Global Ocean Flux Study, Deep-Sea Res. II, 
53(5-7), 451-458.
    Hood, R.R., E.A. Laws, R.A. Armstrong, N.R. Bates, C.W. Brown, C.A. 
Carlson, F. Chai, S.C. Doney, P.G. Falkowski, R.A. Feely, M.A.M. 
Friedrichs, M.R. Landry, J.K. Moore, D.M. Nelson, T.L. Richardson, B. 
Salihoglu, M. Schartau, D.A. Toole, and J.D. Wiggert, 2006: Pelagic 
functional group modeling: progress, challenges and prospects, Deep-Sea 
Res. II, 53(5-7), 459-512.
    Glover, D.M., C.L. Chandler, S.C. Doney, K.O. Buesseler, G. 
Heimerdinger, J.K.B. Bishop, and G.R. Flierl, 2006: The U.S. JGOFS data 
management experience, Deep-Sea Res. II, 53(5-7), 793-802.
    McKinley, G.A., T. Takahashi, E. Butenhuis, F. Chai, J.R. 
Christian, S.C. Doney, M.-S. Jiang, K. Lindsay, J.K. Moore, C. Le 
Quere, I. Lima, R. Murtugudde, L. Shi, and P. Wetzel, 2006: North 
Pacific carbon cycle response to climate variability on seasonal to 
decadal timescales, J. Geophys. Res. Oceans, 111, C07S06, doi:10.1029/
2005JC003173.
    Johnson, G.C., and S.C. Doney, 2006: Recent western South Atlantic 
bottom water warming, Geophys. Res. Lett., 33(14), L14614, 10.1029/
2006GL026769.
    Friedlingstein, P., P. Cox, R. Betts, L. Bopp, W. von Bloh, V. 
Brovkin, P. Cadule, S. Doney, M. Eby, I. Fung, G. Bala, J. John, C. 
Jones, F. Joos, T. Kato, M. Kawamiya, W. Knorr, K. Lindsay, H.D. 
Matthews, T. Raddatz, P. Rayner, C. Reick, E. Roeckner, K.-G. 
Schnitzler, R. Schnur, K. Strassmann, A.J. Weaver, C. Yoshikawa, and N. 
Zeng, 2006: Climate-carbon cycle feedback analysis: Results from the 
C4MIP model intercomparison, J. Climate, 19(14), 3337-3353.
    Gruber, N., H. Frenzel, S.C. Doney, P. Marchesiello, J.C. 
McWilliams, J.R. Moisan, J.J. Oram, G.-K. Plattner, and K.D. 
Stolzenbach, 2006: Eddy-resolving simulation of plankton ecosystem 
dynamics in the California Current System, Deep-Sea Res. I, 53, 1483-
1516, doi:10.1016/j. dsr.2006.06.005.
    Moore, J.K., S.C. Doney, K. Lindsay, N. Mahowald, and A.F. 
Michaels, 2006: Nitrogen fixation amplifies the ocean biogeochemical 
response to decadal timescale variations in mineral dust deposition, 
Tellus, 58B, 560-572.
    Baker, D.F., S.C. Doney, and D.S. Schimel, 2006: Variational data 
assimilation for atmospheric CO<INF>2</INF>, Tellus, 58B, 359-365.
    Doney, S.C., 2006: Plankton in a warmer world, Nature, 444, 695-
696.
    Mikaloff Fletcher, S.E., N. Gruber, A.R. Jacobson, M. Gloor, S.C. 
Doney, S. Dutkiewicz, M. Gerber, M. Follows, F. Joos, K. Lindsay, D. 
Menemenlis, A. Mouchet, S.A. Muller, and J.L. Sarmiento, 2007: Inverse 
estimates of the oceanic sources and sinks of natural CO<INF>2</INF> 
and their implied oceanic transport, Global Biogeochem. Cycles, 21, 
GB1010, 10.1029/2006GB002751.
    Moore, J.K., and S.C. Doney, 2007: Iron availability limits the 
ocean nitrogen inventory stabilizing feedbacks between marine 
denitrification and nitrogen fixation, Global Biogeochem. Cycl., 21, 
GB2001, doi:10.1029/2006GB002762.
    Patra, P.K., J.K. Moore, N. Mahowald, M. Uematsu, S.C. Doney, and 
T. Nakazawa, 2007: Exploring the sensitivity of interannual basin-scale 
air-sea CO<INF>2</INF> fluxes to variability in atmospheric dust 
deposition using ocean carbon models and atmospheric CO<INF>2</INF> 
inversions, J. Geophys. Res. Biogeosci., 112, G02012, doi:10.1029/
2006JG000236.
    Jin, X., R.G. Najjar, F. Louanchi, and S.C. Doney, 2007: A modeling 
study of the seasonal oxygen budget of the global ocean, J. Geophys. 
Res. Oceans, 112, C05017, doi:10.1029/2006JC003731.
    Miller, C.E., D. Crisp, P.L. DeCola, S.C. Olsen, J.T. Randerson, A. 
Michalak, A. Alkhaled, P. Rayner, D.J. Jacob, P. Suntharalingam, D.B.A. 
Jones, A.S. Denning, M.E. Nicholls, S.C. Doney, S. Pawson, H. Boesch, 
B.J. Connor, I.Y. Fung, D. O'Brien, R.J. Salawitch, S.P. Sander, B. 
Sen, P. Tans, G.C. Toon, P.O. Wennberg, S.C. Wofsy, Y.L. Yung, and R.M. 
Law, 2007: Precision requirements for space-based XCO<INF>2</INF> data, 
J. Geophys. Res. Atmos., 112, D10314, doi:10.1029/2006JD007659.
    Lovenduski, N.S., N. Gruber, S.C. Doney, and I.D. Lima, 2007: 
Enhanced CO<INF>2</INF> outgassing in the Southern Ocean from a 
positive phase of the Southern Annular Mode, Global Biogeochem. Cycles, 
21, GB2026, doi:10.1029/2006GB002900.
    Friedrichs, M.A.M., J.A. Dusenberry, L.A. Anderson, R. Armstrong, 
F. Chai, J.R. Christian, S.C. Doney, J. Dunne, M. Fujii, R. Hood, D. 
McGillicuddy, J.K. Moore, M. Schartau, Y.H. Spitz, and J.D. Wiggert, 
2007: Assessment of skill and portability in regional marine 
biogeochemical models: the role of multiple planktonic groups, J. 
Geophys. Res. Oceans, 112, C08001, doi:10.1029/2006JC003852.
    Doney, S.C., S. Yeager, G. Danabasoglu, W.G. Large, and J.C. 
McWilliams, 2007: Mechanisms governing interannual variability of upper 
ocean temperature in a global hindcast simulation, J. Phys. Oceanogr., 
37, 1918-1938.
    Najjar, R.G., X. Jin, F. Louanchi, O. Aumont, K. Caldeira, S.C. 
Doney, J.-C. Dutay, M. Follows, N. Gruber, F. Joos, K. Lindsay, E. 
Maier-Reimer, R.J. Matear, K. Matsumoto, P. Monfray, A. Mouchet, J.C. 
Orr, G.K. Plattner, J.L. Sarmiento, R. Schlitzer, R.D. Slater, M.-F. 
Weirig, Y. Yamanaka and A. Yool, 2007: Impact of circulation on export 
production, dissolved organic matter and dissolved oxygen in the ocean: 
Results from Phase II of the Ocean Carbon-cycle Model Intercomparison 
Project (OCMIP-2), Global Biogeochem. Cycles, 21, GB3007, doi:10.1029/
2006GB002857.
    Doney, S.C., N. Mahowald, I. Lima, R.A. Feely, F.T. Mackenzie, J.-
F. Lamarque, and P.J. Rasch, 2007: The impact of anthropogenic 
atmospheric nitrogen and sulfur deposition on ocean acidification and 
the inorganic carbon system, Prod. Nat. Acad. Sci. USA, 104, 14,580-
14,585, doi:10.1073/pnas.0702218104.
    Caldeira, K., D. Archer, J.P. Barry, R.G.J. Bellerby, P.G. Brewer, 
L. Cao, A.G. Dickson, S.C. Doney, H. Elderfield, V.J. Fabry, R.A. 
Feely, J.-P. Gattuso, P.M. Haugan, O. Hoegh-Guldberg, A.K. Jain, J.A. 
Kleypas, C. Langdon, J.C. Orr, A. Ridgwell, C.L. Sabine, B.A. Seibel, 
Y. Shirayama, C. Turley, A.J. Watson, and R.E. Zeebe, 2007: Comment on 
``Modern-age buildup of CO<INF>2</INF> and its effects on seawater 
acidity and salinity'' by Hugo A. Loaiciga, Geophys. Res. Lett., 34, 
L18608, doi:10.1029/2006GL027288.
    Doney, S.C., and D. S. Schimel, 2007: Climate change and 
biogeochemical impacts, Encyclopedia of Life Sciences, John Wiley & 
Sons, Ltd, Chichester http://www.els.net/, doi:10.1002/
9780470015902.a0003242.pub2 (updated and revised version of Doney and 
Schimel, ELS, 2001).
    Thomas, H., A.E.F. Prowe, S. van Heuven, Y. Bozec, H.J.W. de Baar, 
L.-S. Schiettecatte, K. Suykens, M. Kone, A.V. Borges, I.D. Lima, and 
S.C. Doney, 2007: Rapid decline of the CO<INF>2</INF> buffering 
capacity in the North Sea and implications for the North Atlantic 
Ocean, Global Biogeochem. Cycles, 21, GB4001, doi:10.1029/2006GB002825.
    Doney, S.C. and D. S. Schimel, 2007: Carbon and climate system 
coupling on timescales from the Precambrian to the Anthropocene, Ann. 
Rev. Environ. Resources, 32, 31-66, doi:10.1 146/
annurev.energy.32.041706.124700.
    Buesseler, K.O., S.C. Doney, D.M. Karl, P.W. Boyd, K. Caldeira, F. 
Chai, K. Coale, H.J.W. de Baar, P.G. Falkowski, K.S. Johnson, R.S. 
Lampitt, A.F. Michaels, S.W.A. Naqvi, V. Smetacek, S. Takeda, and A.J. 
Watson, 2008: Ocean iron fertilization: moving forward in a sea of 
uncertainty, Science, 319, 162, doi:10.1126/science.1154305.
    Nevison, C.D., N.M. Mahowald, S.C. Doney, I.D. Lima, G.R. van der 
Werf, J.T. Randerson, D.F. Baker, P. Kasibhatla, and G.A. McKinley, 
2008: Contribution of ocean, fossil fuel, land biosphere and biomass 
burning carbon fluxes to seasonal and interannual variability in 
atmospheric CO<INF>2</INF>, J. Geophys. Res. Biogeosci., 113, G01010, 
doi:10.1029/2007JG000408.
    Krishnamurthy, A., J.K. Moore, and S.C. Doney, 2008: The effects of 
dilution and mixed layer depth on deliberate ocean iron fertilization: 
1-D simulations of the southern ocean iron experiment (SOFeX), J. Mar. 
Systems, 71, 112-130.
    Jin, X., N. Gruber, H. Frenzel, S.C. Doney, and J.C. McWilliams, 
2008: The impact on atmospheric CO<INF>2</INF> of iron fertilization 
induced changes in the ocean's biological pump, Biogeosciences, 5, 385-
406.
    *Levine, N.M, S.C. Doney, R. Wanninkhof, K. Lindsay, and I. Fung, 
2008: Impact of ocean carbon system variability on the detection of 
temporal increases in anthropogenic CO<INF>2</INF>, J. Geophys. Res. 
Oceans, 113, C03019, doi:10.1029/2007JC004153.
    Toole, D.A., D.A. Siegel, and S.C. Doney, 2008: An ultraviolet 
light-driven 1-D DMS Biogeochemical cycling model for the Sargasso Sea, 
J. Geophys. Res. Biogeosci., 113, G02009, doi:10.1029/2007JG000426.
    Schneider, B., L. Bopp, M. Gehlen, J. Segschneider, T.L. Frolicher, 
P. Cadule, P. Friedlingstein, S.C. Doney, M.J. Behrenfeld, and F. Joos, 
2008: Climate-induced interannual variability of marine primary and 
export production in three global coupled climate carbon cycle models, 
Biogeosciences, 5, 597-614.
    Boyd, P.W., S.C. Doney, R. Strzepek, J. Dusenberry, K. Lindsay, and 
I. Fung, 2008: Climate-mediated changes to mixed-layer properties in 
the Southern Ocean: assessing the phytoplankton response, 
Biogeosciences, 5, 847-864.
    Nevison, C.D., N.M. Mahowald, S.C. Doney, I.D. Lima, and N. Cassar, 
2008: Impact of variable air-sea O2 and CO<INF>2</INF> fluxes on 
atmospheric potential oxygen (APO) and land-ocean carbon sink 
partitioning, Biogeosciences, 5, 875-889.
    *Goodkin, N.F., K.A. Hughen, W.B. Curry, S.C. Doney, and D.R. 
Ostermann, 2008: Sea surface temperature and salinity variability at 
Bermuda during the end of the Little Ice Age, Paleoceanography, 23, 
PA3203, doi:10.1029/2007PA001532.
    Lovenduski, N.S., N. Gruber, and S.C. Doney, 2008: Toward a 
mechanistic understanding of the decadal trends in the Southern Ocean 
carbon sink, Global Biogeochem. Cycles, 22, GB3016, doi:10.1029/
2007GB003139.
    *Goodkin, N.F., K.A. Hughen, S.C. Doney, and W.B. Curry, 2008: 
Increased multidecadal variability of the North Atlantic Oscillation 
since 1781, Nature Geosciences, 1, 844-848.
    Thomas, H., A.E. Friederike Prowe, I.D. Lima, S.C. Doney, R. 
Wanninkhof, R.J. Greatbatch, U. Schuster, and A. Corbiere, 2008: 
Changes in the North Atlantic Oscillation influence CO<INF>2</INF> 
uptake in the North Atlantic over the past 2 decades, Global 
Biogeochem. Cycles, 22, GB4027, doi:10.1029/2007GB003167.
    Doney, S.C. and D.M. Glover, 2009: Ocean carbon system, modeling 
of, in Encyclopedia of Ocean Sciences (second edition), ed. J. Steele, 
K.K. Turekian, and S.A. Thorpe, Elseiver, 4121-4130, doi:10.1016/B978-
012374473-9.00631-7, (expanded and updated version of Doney and Glover, 
2001).
    Gruber, N. and S.C. Doney, 2009: Ocean biogeochemistry and ecology, 
modeling of, in Encyclopedia of Ocean Sciences (second edition), ed. J. 
Steele, K.K. Turekian, and S.A. Thorpe, Elseiver, 4105-4120, 
doi:10.1016/B978-012374473-9.00741-4.
    Doney, S.C., V.J. Fabry, R.A. Feely, J.A. Kleypas, 2009: Ocean 
acidification: the other CO<INF>2</INF> problem, Ann. Rev. Mar. Sci., 
1, 169-192, 10.1146/annurev
.marine.010908.163834
    Ducklow, H., S.C. Doney, and D.K. Steinberg, 2009: Contributions of 
long-term research and time-series observations to marine ecology and 
biogeochemistry, Ann. Rev. Mar. Sci., 1, 279-302, 10.1146/
annurev.marine.010908.163801.
    Stow, C.A. J. Jolliff, D.J. McGillicuddy Jr., S.C. Doney, J.I. 
Allen, M.A.M. Friedrichs, K.A. Rose, and P. Wallhead, 2009: Skill 
assessment for coupled biological/physical models of marine systems, J. 
Mar. Systems, 76, 4-15, doi:10.1016/j.jmarsys.2008.03.011.
    Gregg, W.W., M.A.M. Friedrichs, A.R. Robinson, K.A. Rose, R. 
Schlitzer, K.R. Thompson, and S.C. Doney, 2009: Skill assessment in 
ocean biological data assimilation, J. Mar. Systems, 76, 16-33, 
doi:10.1016/j.jmarsys.2008.05.006.
    Doney, S.C., I. Lima, J.K. Moore, K. Lindsay, M.J. Behrenfeld, T.K. 
Westberry, N. Mahowald, D.M. Glover, and T. Takahashi, 2009: Skill 
metrics for confronting global upper ocean ecosystem-biogeochemistry 
models against field and remote sensing data, J. Mar. Systems, 76, 95-
112, doi:10.1016/j.jmarsys.2008.05.015.
    Friedrichs, M.A.M., M.-E. Carr, R.T. Barber, M. Scardi, D. Antoine, 
R.A. Armstrong, I. Asanuma, M.J. Behrenfeld, E.T. Buitenhuis, F. Chai, 
J.R. Christian, A.M. Ciotti, S.C. Doney, M. Dowell, J. Dunne, B. 
Gentili, W. Gregg, N. Hoepffner, J. Ishizaka, T. Kameda, I. Lima, J. 
Marra, F. Melin, J.K. Moore, A. Morel, R.T. O'Malley, J. O'Reilly, V.S. 
Saba, M. Schmeltz, T.J. Smyth, J. Tjiputra, K. Waters, T.K. Westberry, 
A. Winguth, 2009: Assessing the uncertainties of model estimates of 
primary productivity in the tropical Pacific Ocean, J. Mar. Systems, 
76, 113-133, doi:10.1016/j.jmarsys.2008.05.010.
    Frolicher, T.L., F. Joos, G.-K. Plattner, M. Steinacher, and S.C. 
Doney, 2009: Natural variability and anthropogenic trends in oceanic 
oxygen in a coupled carbon cycle-climate model ensemble, Global 
Biogeochem. Cycles, 23, GB1003, doi:10.1029/2008GB003316.
    Gruber, N., M. Gloor, S.E. Mikaloff Fletcher, S.C. Doney, S. 
Dutkiewicz, M.J. Follows, M. Gerber, A.R. Jacobson, F. Joos, K. 
Lindsay, D. Menemenlis, A. Mouchet, S.A. Muller, J.L. Sarmiento, and T. 
Takahashi, 2009: Oceanic sources, sinks, and transport of atmospheric 
CO<INF>2</INF>, Global Biogeochem. Cycles, 23, GB1005, doi:10.1029/
2008GB003349.
    *Levine, N.M., M.L. Bender, and S.C. Doney, 2009: The 18O of 
dissolved O2 as a tracer of mixing and respiration in the mesopelagic 
ocean, Global Biogeochem. Cycles, 23, GB1006, doi:10.1029/2007GB003162.
    Paytan, A., K.R.M. Mackey, Y. Chen, I.D. Lima, S.C. Doney, N. 
Mahowald, R. Labiosa, and A.F. Post, 2009: Toxicity of atmospheric 
aerosols on marine phytoplankton, Proc. Nat. Acad. Sci. USA, 106, 4601-
4605, 10.1073/pnas
.0811486106.
    Montes-Hugo, M., H. Ducklow, S. Doney, W. Fraser, D. Martinson, S. 
Stammerjohn, and O. Schofield, 2009: Recent changes in phytoplankton 
communities associated with rapid regional climate change along the 
western Antarctic Peninsula, Science, 323, 1470-1473.
    Steinacher, M., F. Joos, T.L. Frolicher, G.-K. Plattner, and S.C. 
Doney, 2009: Imminent ocean acidification in the Arctic projected with 
the NCAR global coupled carbon cycle-climate model, Biogeosciences, 6, 
515-533.
    *Cooley, S.R. and S.C. Doney, 2009: Ocean acidification's impact on 
fisheries and societies: a U.S. perspective, Current-the Journal of 
Marine Education, 25(1), 15-19, National Marine Educators Association.
    Doney, S., 2009: The consequences of human-driven ocean 
acidification for marine life, F1000 Biology Reports 2009, 1:36, 4pp., 
doi:10.3410/B1-36 (present: http://www.f1000biology.com/f1000reports/
articles/10.3410/b1-36/article.html will be: http://www.F1000.com/
Reports/Biology/content/1/36).
    Behrenfeld, M.J., T.K. Westberry, E.S. Boss, R.T. O'Malley, D.A. 
Siegel, J.D. Wiggert, B.A. Franz, C.R. McClain, G.C. Feldman, S.C. 
Doney, J.K. Moore, G. Dall'Olmo, A.J. Milligan, I. Lima, and N. 
Mahowald, 2009: Satellite-detected fluorescence reveals global 
physiology of ocean phytoplankton, Biogeosciences, 6, 779-794 
(www.biogeosciences.net/6/779/2009).
    *Cooley, S.R. and S.C. Doney, 2009: Anticipating ocean 
acidification's economic consequences for commercial fisheries, 
Environ. Res. Lett., 4, 024007, doi: 10.1088/1748-9326/4/2/024007.
    *Hynes, A.M., P.D. Chappell, S.T. Dyhrman, S.C. Doney, and E.A. 
Webb, 2009: Cross-basin comparison of phosphorus stress and nitrogen 
fixation in Trichodesmium, Limnol. Oceanogr., 54, 1438-1448.
    Doney, S.C., B. Tilbrook, S. Roy, N. Metzl, C. Le Quere, M. Hood, 
R.A. Feely, and D. Bakker, 2009: Surface ocean CO<INF>2</INF> 
variability and vulnerability, Deep-Sea Res. II, 56, 504-511.
    Doney, S.C., I. Lima, R.A. Feely, D.M. Glover, K. Lindsay, N. 
Mahowald, J.K. Moore, and R. Wanninkhof, 2009: Mechanisms governing 
interannual variability in upper-ocean inorganic carbon system and air-
sea CO<INF>2</INF> fluxes: physical climate and atmospheric dust, Deep-
Sea Res. II, 56, 640-655.
    Krishnamurthy, A., J.K. Moore, N. Mahowald, C. Luo, S.C. Doney, K. 
Lindsay, C.S. Zender, 2009: Impacts of increasing anthropogenic soluble 
iron and nitrogen deposition on ocean biogeochemistry, Global 
Biogeochem. Cycles, 23, GB3016, doi:10.1029/2008GB003440.
    Birdsey, R., N. Bates, M. Behrenfeld, K. Davis, S.C. Doney, R. 
Feely, D. Hansell, L. Heath, E. Kasischke, H. Kheshgi, B. Law, C. Lee, 
A.D. McGuire, P. Raymond, and C.J. Tucker, 2009: Carbon cycle 
observations: gaps threaten climate mitigation policies, EOS, Trans. 
American Geophys. Union, 90(34), 292-293.
    Randerson, J.T., F.M. Hoffman, P.E. Thornton, N.M. Mahowald, K. 
Lindsay, Y.-H. Lee, C.D. Nevison, S.C. Doney, G. Bonan, R. Stockli, C. 
Covey, S.W. Running, and I.Y. Fung, 2009: Systematic assessment of 
terrestrial biogeochemistry in coupled climate-carbon models, Global 
Change Biology, 15, 2462-2484, doi:10.1111/j.1365-2486.2009.01912.x.
    Rodgers, K.B., R.M. Key, A. Gnanadesikan, J.L. Sarmiento, O. 
Aumont, L. Bopp, S.C. Doney, J.P. Dunne, D.M. Glover, A. Ishida, M. 
Ishii, A.R. Jacobson, C. Lo Monaco, E. Maier-Reimer, H. Mercier, N. 
Metzl, F.F. Perez, A.F. Rios, R. Wanninkhof, P. Wetzel, C.D. Winn, and 
Y. Yamanaka, 2009: Using altimetry to help explain patchy changes in 
hydrographic carbon measurements, J. Geophys. Res. Oceans, 114, C09013, 
doi:10.1029/2008JC005183.
    Thornton, P.E., S.C. Doney, K. Lindsay, J.K. Moore, N. Mahowald, 
J.T. Randerson, I. Fung, J.-F. Lamarque, J.J. Feddema, and Y.-H. Lee, 
2009: Carbon-nitrogen interactions regulate climate-carbon cycle 
feedbacks: results from an atmosphere-ocean general circulation model, 
Biogeosciences, 6, 2099-2120.
    Marshall, J., A. Andersson, N. Bates, W. Dewar, S. Doney J. Edson, 
R. Ferrari, G. Forget, D. Fratantoni, M. Gregg, T. Joyce, K. Kelly, S. 
Lozier, R. Lumpkin, G. Maze, J. Palter, R. Samelson, K. Silverthorne, 
E. Skyllingstad, F. Straneo, L. Talle y, L. Thomas, J. Toole, and R. 
Weller, 2009: The CLIMODE field campaign: observing the cycle of 
convection and restratification over the Gulf Stream, Bull. Amer. 
Meteor. Soc., 90, 1337-1350.
    Doney, S.C. and R.A. Feely, 2009: Ocean acidification, Education in 
Chemistry (Royal Society of Chemistry), 46(6), 182-187.
    *Stanley, R.H.R., W.J. Jenkins, D.E. Lott III, and S.C. Doney, 
2009: Noble gas constraints on air-sea gas exchange and bubble fluxes, 
J. Geophys. Res. Ocean, 114, C11020, doi:10.1029/2009JC005396.
    Doney, S.C., W.M. Balch, V.J. Fabry, and R.A. Feely, 2009: Ocean 
acidification: a critical emerging problem for the ocean sciences, 
Oceanography, 22, 16-25.
    Feely, R.A., S.C. Doney and S.R. Cooley, Ocean acidification: 
present conditions and future changes in a high-CO<INF>2</INF> world, 
Oceanography, 22, 36-47.
    *Cooley, S., H.L. Kite-Powell, S.C. Doney, Ocean acidification's 
potential to alter global marine ecosystem services, Oceanography, 22, 
172-180.
    Le Quere, C., M.R. Raupach, J.G. Canadell, G. Marland, L. Bopp, P. 
Ciais, T.J. Conway, S.C. Doney, R.A. Feely , P. Foster, P. 
Friedlingstein, K. Gurney, R.A. Houghton , J.I. House, C. Huntingford, 
P.E. Levy, M.R. Lomas, J. Majkut, N. Metzl , J.P. Ometto, G.P. Peters, 
I.C. Prentice, J.T. Randerson, S.W. Running , J.L. Sarmiento, U. 
Schuster, S. Sitch, T. Takahashi , N. Viovy, G.R. van der Werf, and 
F.I. Woodward, 2009: Trends in the sources and sinks carbon dioxide, 
Nat. Geosci., 2, 831-836, doi:10.1038/ngeo689.
Publications in Press
    Montes-Hugo, M., C. Sweeney, S.C. Doney, H. Ducklow, R. Frouin, 
D.G. Martinson, S. Stammerjohn, and O. Schofield, Seasonal forcing of 
summer dissolved inorganic carbon and chlorophyll a on the Western 
Shelf of the Antarctic Peninsula, J. Geophys. Res. Oceans, in press.
    Swann, A.L., I.Y. Fung, S. Levis, G.B. Bonan, and S.C. Doney, 
Changes in arctic vegetation amplify high-latitude warming through 
greenhouse effect, Proc. Nat. Acad. Sci. USA, in press.
Manuscripts Submitted
    Baker, D.F. H. Bosch, S.C. Doney, and D.S. Schimel, Carbon source/
sink information provided by column CO<INF>2</INF> measurements from 
the Orbiting Carbon Observatory, Atmosp. Chem. Physics, submitted. 
(Atmosp. Chem. Phys. Disc., 8, 20051-20112, 2008).
    *Luo, Y., H.W. Ducklow, M.A.M. Friedrichs, S.C. Doney, and M.J. 
Church, Heterotrophic microbial dynamics in the open ocean revealed by 
data assimilative modeling, Aquatic Microbial Ecology, submitted.
    Steinacher, M., F. Joos, T.L. Frolicher, L. Bopp, P. Cadule, S.C. 
Doney, M. Gehlen, B. Schneider, and J. Segschneider, Projected 21st 
century decrease in marine productivity: a multi-model analysis, 
Biogeosciences, submitted, (Biogeosciences Discuss., 6, 7933-7981, 
2009).
    Saba, V.S., M.A.M. Friedrichs, M.-E. Carr, D. Antoine, R.A. 
Armstrong, I. Asanuma, O. Aumont, N.R. Bates, M.J. Behrenfeld, V. 
Bennington, L. Bopp, J. Bruggeman, E.T. Buitenhuis, M.J. Church, A.M. 
Ciotti, S.C. Doney, M. Dowell, J. Dunne, S. Dutkiewicz, W. Gregg, N. 
Hoepffner, K.J.W. Hyde, J. Ishizaka, T. Kameda, D.M. Karl, I. Lima, 
M.W. Lomas, J. Marra, G.A. McKinley, F. Melin, J.K. Moore, A. Morel, J. 
O'Reilly, B. Salihoglu, M. Scardi, T.J. Smyth, S. Tang, J. Tjiputra, J. 
Uitz, M. Vichi, K. Waters, T.K. Westberry, and A. Yool, The challenges 
of modeling marine primary productivity over multiple decades: A case 
study at BATS and HOT, Global Biogeochem. Cycles, submitted.
    Henson, S.A., J.L. Sarmiento, J.P. Dunne, L. Bopp, I. Lima, S.C. 
Doney, J. John, and C. Beaulieu, Is global warming already changing 
ocean productivity? Biogeosciences, submitted, (Biogeosciences 
Discuss., 6, 10311-10354, 2009).
    Ducklow, H., A. Clarke, R. Dickhut, S.C. Doney, H. Geisz, K. Huang, 
D.G. Martinson, M.P. Meredith, H.V. Moeller, M. Montes-Hugo, O. 
Schofield, S.E. Stammerjohn, D. Steinberg, and W. Fraser, Marine 
pelagic ecosystems: the West Antarctic Peninsula, in Antarctica: An 
Extreme Environment in a Changing World, ed. A.D. Rogers, Wiley, 
submitted.
Manuscripts in Prep
    Wanninkhof, R., S.C. Doney, J.L. Bullister, N.M. Levine, M. Warner, 
and N. Gruber, Decadal changes in inorganic carbon along meridional 
section A16 in the Atlantic Ocean from 1989-2005 : Separating natural 
variability from anthropogenic input, in prep.
    Maltrud, M., F.P. Chavez, S. Dutkiewicz, N. Gruber, X. Jin, J.L. 
Sarmiento, A. Tagliabue, S. Doney and I. Lima, Atmospheric carbon 
dioxide reduction from ocean iron fertilization: a model 
intercomparison study, in prep.
    Levine, N.M., S.C. Doney, I. Lima, R. Wanninkhof, C. Sabine, R.A. 
Feely, and N. Bates, The impact of interannual variability on the 
accumulation of anthropogenic CO<INF>2</INF> in the North Atlantic, in 
prep.
    Hynes, A.M., E.A. Webb, S.C. Doney, and J.B. Waterbury, Comparison 
of cultured Trichodesmium (Cyanophyceae) with species characterized 
from the field, J. Phycology, in prep.
Non-refereed Publications and Reports (Total of 53)
    NCAR Oceanography Section, 1996: The NCAR CSM Ocean Model. NCAR 
Technical Note, NCAR/TN-423+STR.
    Large, W.G. and S.C. Doney, 1996: Global surface fluxes and 
parameters. U.S. WOCE Implementation Report, No. 8, 14-16.
    Large, W.G. and S.C. Doney, 1997: Inferring ocean transports from 
surface fluxes. International WOCE Newsletter, No. 25, 36-37.
    Castle, R.D., R. Wanninkhof, J.L. Bullister, S.C. Doney, R.A. 
Feely, B.E. Huss, E. Johns, F.J. Millero, K. Lee, D. Frazel, D. 
Wisegarver, D. Greely, F. Menzia, M. Lamb, G. Berberian, and L.D. 
Moore, Jr., 1998: Chemical and hydrographic profiles and underway 
measurements from the eastern North Atlantic during July and August 
1993. NOAA Data Report ERL AOML-32.
    Doney, S.C. and J.L. Sarmiento, ed., 1998: Synthesis and Modeling 
Project; Time-Series Stations and Modeling Planning Report. U.S. JGOFS 
Planning Report 21, U.S. JGOFS Planning Office, Woods Hole, MA, 96 pp.
    Doney, S.C., 1998: SMP Workshop looks at ocean biogeochemical 
responses to climate change, U.S. JGOFS News, Vol. 9, No. 3, 2.
    Doney, S.C. and C.L. Sabine, 1999: Direct estimates of the oceanic 
inventory of anthropogenic carbon, WOCE Accomplishments, U.S. WOCE 
Implementation Report Number 11, U.S. WOCE Office, College Station, TX, 
8-10.
    Doney, S.C., J.C. McWilliams, and R.D. Smith, 1999: Mesoscale 
eddies and the oceanic general circulation, WOCE Accomplishments, U.S. 
WOCE Implementation Report Number 11, U.S. WOCE Office, College 
Station, TX, 15-18.
    Doney, S.C. and J.L. Sarmiento, ed., 1999: Synthesis and Modeling 
Project; Ocean biogeochemical response to climate change. U.S. JGOFS 
Planning Report 22, U.S. JGOFS Planning Office, Woods Hole, MA, 105 pp.
    Roether, W. and S.C. Doney, ed., 1999: Report of the WOCE-AIMS 
Tracer Workshop, WOCE Report No. 167/99, WOCE International Project 
Office, Southampton, UK, 70 pp.
    Gent, P., F. Bryan, S. Doney, and W. Large, 1999: A perspective on 
the ocean component of climate models, CLIVAR Exchanges, Vol 4, No. 4, 
CLIVAR Project Office, Southampton, UK, 11-14.
    Doney, S.C. and J.A. Kleypas, 1999: SMP investigators share results 
and assess progress at annual meeting. U.S. JGOFS News, Vol. 10, No. 2, 
5-6.
    Moore, J.K. and S.C. Doney, 2000: Incorporating iron into a global 
ecosystem model. U.S. JGOFS News, Vol. 10, No. 4, 1-2.
    Doney, S.C. and J.A. Kleypas, 2000: Expanding scope of U.S. JGOFS 
SMP shown at annual meeting, U.S. JGOFS News, Vol. 10, No. 4, 3-5.
    Lee, C., M. Abbott, R. Anderson, J. Barth, M. Bender, S. Doney, H. 
Ducklow, R. Feely, D. Hansell, and D. Karl, 2000: Ocean Carbon 
Transport, Exchanges and Transformations (http://www.msrc.sunysb.edu/
octet/).
    Kleypas, J.A. and S.C. Doney, 2001: Nutrients, chlorophyll, primary 
production and related biogeochemical properties in the ocean mixed 
layer--A compilation of data collected at nine JGOFS sites. NCAR 
Technical Report, NCAR/TN-447+STR, 53 pp.
    Doney, S.C. and J.A. Kleypas, 2001: U.S. JGOFS SMP investigators 
gather for summer meeting, U.S. JGOFS News, Vol. 11, No. 3, 7-8.
    Bender, M., S. Doney, R.A. Feely, I. Fung, N. Gruber, D.E. 
Harrison, R. Keeling, J.K. Moore, J. Sarmiento, E. Sarachik, B. 
Stephens, T. Takahashi, P. Tans, and R. Wanninkhof , 2002: A large-
scale CO<INF>2</INF> observing plan: In situ oceans and atmosphere 
(LSCOP). NOAA OAR Special Report, 201 pp.
    Doney, S.C. and M. Hood, 2002: A Global Ocean Carbon Observation 
System, A Background Report, Global Ocean Observing System Report No. 
118, UNESCO Intergovernmental Oceanographic Commission IOC/INF-1173, 55 
pp.
    Doney, S.C. and J.A. Kleypas, 2002: Advances highlighted at summer 
meeting of U.S. JGOFS SMP investigators, U.S. JGOFS News, Vol. 12, No. 
1, 3-4.
    Doney, S.C., S. Yeager, G. Danabasoglu, W.G. Large, and J.C. 
McWilliams, 2003: Modeling oceanic interannual variability (1958-1997): 
Simulation design and model-data evaluation. NCAR Technical Report, 
NCAR/TN-452+STR, 48 pp.
    Kiehl, J.T., C.S. Bretherton, P. Chang, J.J. Hack, W. Large, M. 
Blackmon, C. Bitz, D. McKenna, S. Doney, J. Fein, S.J. Reid, D. Bader, 
2003: Community Climate System Model Science Plan (2004-2008), P.E. 
Merilees (ed.), National Center for Atmospheric Research, Boulder, CO, 
www.ccsm.ucar.edu, 76 pp.
    Kiehl, J.T., J. Hack, P. Gent, W. Large, M. Blackmon, P. Chang, 
C.S. Bretherton, S. Doney, D. McKenna, 2003: Community Climate System 
Model Strategic Business Plan (2004-2008), National Center for 
Atmospheric Research, Boulder, CO, www.ccsm.ucar.edu, 28 pp.
    Doney, S.C. 2003: JGOFS not over yet: U.S. JGOFS Synthesis and 
Modeling Project still going strong, U.S. JGOFS News, Vol. 12, No. 3, 
1-2.
    Doney, S.C., R. Anderson, J. Bishop, K. Caldeira, C. Carlson, M.-E. 
Carr, R. Feely, M. Hood, C. Hopkinson, R. Jahnke, D. Karl, J. Kleypas, 
C. Lee, R. Letelier, C. McClain, C. Sabine, J. Sarmiento, B. Stephens, 
and R. Weller, 2004: Ocean Carbon and Climate Change (OCCC): An 
Implementation Strategy for U.S. Ocean Carbon Cycle Science, UCAR, 
Boulder, CO, 108 pp.
    Ciais, P., B. Moore, W. Steffen, M. Hood, S. Quegan, J. Cihlar, M. 
Raupach, J. Tschirley, G. Inoue, S. Doney, C. Heinze, C. Sabine, K. 
Hibbard, D. Schulze, M. Heimann, A. Chedin, P. Monfray, A. Watson, C. 
LeQuere, P. Tans, H. Dolman, R. Valentini, O. Arino, J. Townshend, G. 
Seufert, C. Field, T. Igarashi, C. Goodale, A. Nobre, D. Crisp, D. 
Baldocchi, S. Denning, I. Rasool, W. Cramer, R. Francey, D. Wickland, 
2004: Integrated Global Carbon Observation Theme, a report of the 
Integrated Global Observing Strategy Partnership, published by the 
Integrated Global Biosphere Programme, Stockholm, Sweden, http://
www.igbp.kva.se, 53 pp.
    Doney, S.C., 2004: Final U.S. JGOFS SMP workshop marks end of an 
era, U.S. JGOFS News, Vol. 12, No. 4, 12.
    Doney, S.C., 2004: The future of ocean biogeochemical research, 
U.S. JGOFS News, Vol. 12, No. 4, 13.
    Ocean ITI Working Group, 2004: Trends in Information Technology 
Infrastructure in the Ocean Sciences, 24 pp., http://www.geo-prose.com/
oceans_iti_trends.
    Denning, S., R. Oren, D. McGuire, C. Sabine, S. Doney, K. Paustian, 
M. Torn, L. Dilling, L. Heath, P. Tans, S. Wofsy, R. Cook, S. Waltman, 
A. Andrews, G. Asner, J. Baker, P. Bakmin, R. Birdsey, D. Crisp, K. 
Davis, C. Field, C. Gerbig, D. Hollinger, D. Jacob, B. Law, J. Lin, H. 
Margolis, G. Marland, H. Mayeux, C. McClain, B. McKee, C. Miller, S. 
Pawson, J. Randerson, J. Reilly, S. Running, S. Saleska, R. Stallard, 
E. Sundquist, S. Ustin, and S. Verma, 2005: Science Implementation 
Strategy for the North American Carbon Program, UCAR, Boulder, CO, 67 
pp.
    Doney, S.C. and D.M. Glover, 2005: Recent advances in the ocean 
carbon system, EOS, Trans. American Geophys. Union, 86(42), 399-400.
    Wanninkhof, R., S. Doney, E. Peltola, 2005: Underway 
pCO<INF>2</INF> Data Obtained During the R/V Ronald H. Brown Cruise in 
the Atlantic Ocean on CLIVAR Repeat Hydrography Sections A16S (11 
January--24 February, 2005), http://cdiac.ornl.gov/oceans/
RepeatSections/clivar_a16s.html. Carbon Dioxide Information Analysis 
Center, Oak Ridge National Laboratory, U.S. Department of Energy, Oak 
Ridge, Tennessee.
    Wanninkhof, R. and S.C. Doney, 2005: Cruise Report CLIVAR A16S 
2005, http://www.aoml.noaa.gov/ocd/gcc/a16s/.
    Doney, S.C., 2006: Ocean Carbon Biogeochemistry-United States, 
IMBER Update, Issue 2, March 2006, 5.
    Wanninkhof, R., S.C. Doney, E. Peltola , R.D. Castle, F.J. Millero, 
J.L. Bullister, D.A. Hansell, M.J. Warner, C. Langdon, G.C. Johnson, 
and C.W. Mordy. 2006: Carbon Dioxide, Hydrographic, and Chemical Data 
Obtained During the R/V Ronald H. Brown Repeat Hydrography Cruise in 
the Atlantic Ocean: CLIVAR CO<INF>2</INF> Section A16S--2005 (11 
January-24 February, 2005), ed. A. Kozyr. ORNL/CDIAC-151, NDP-087. 
Carbon Dioxide Information Analysis Center, Oak Ridge National 
Laboratory, U.S. Department of Energy, Oak Ridge, Tennessee, 38 pp. 
(available from http://cdiac.ornl.gov/oceans/ndp_087/NDP-087.html).
    Doney, S.C. and D.M. Glover, U.S. Ocean Carbon and Biogeochemistry 
(OCB) 2006 Summer Workshop, IMBER Update, Issue 4, Sept. 2006, 12-14.
    Doney, S.C. and N.M. Levine, Detecting anthropogenic carbon 
inventory growth in a noisy ocean, SOLAS News, Issue 4, Autumn 2006, 9 
(www.solas-int.org).
    Gruber, N., S.C. Doney, S.R. Emerson, D. Gilbert, T. Kobayashi, A. 
Kortzinger, G.C. Johnson, K. S. Johnson, S.C. Riser, and O. Ulloa, The 
Argo-Oxygen Program, A white paper to promote the addition of oxygen 
sensors to the international Argo float program, 60 pp., http://
www.ioccp.org, draft release Feb. 2007.
    Doney, S.C. 2007: The role of biogeochemistry in the climate 
system: early experiences from the NCAR Community Climate System Model, 
in Understanding Multiple Environmental Stresses, The National 
Academies Press, 105-109.
    Schoeberl, M., C. McClain, T. Ackerman, Z. Ahmad, M. Behrenfeld, E. 
Boss, S. Brown, J. Butler, B. Cairns, L. Callahan, P. Colarco, D. 
Diner, S. Doney, A. Fridland, P. Hildebrand, S. Hooker, C. Hostetler, 
A. Hou, K. Hu, Y. Hu, R. Kahn, J. Loiacono, R. Marchand, J.V. Martins, 
G. Meister, M. Mishchenko, S. Platnick, J. Redemann, L. Remer, J. 
Smith, D. Starr, G. Stephens, E. Welton, 2007: Aerosol--Cloud--Ocean 
Biology (ACOB), Proposed Satellite Mission, whitepaper submitted to 
NASA Headquarters, 48 pp.
    Metzl, N., B. Tilbrook, D. Bakker, C. Le Quere, S. Doney, R. Feely, 
M. Hood, R. Dargaville, 2007: Global changes in ocean carbon: 
variability and vulnerability, EOS, Trans. American Geophys. Union, 88, 
287.
    IOCCP, 2007: Surface Ocean Variability and Vulnerability Workshop 
(IOCCP Rpt No. 7), Paris, France, April 2007, 100 pp.
    Doney, S. and H. Benway, 2007: Ocean Carbon and Biogeochemistry: an 
eye toward integrated research. Limnol. Oceanogr. Bulletin, 16(3), 69.
    Benway, H.M. and S.C. Doney, 2007: Advancing the integration of 
marine ecosystem dynamics and biogeochemistry, EOS, Trans. American 
Geophys. Union, 88(47), 504.
    Benway, H.M. and S.C. Doney, 2008: Ocean carbon cycling and climate 
impacts on marine ecosystems, EOS, Trans. American Geophys. Union, 
89(47), 472.
    OCB Subcommittee on Ocean Acidification, 2009a: Ocean 
acidification-recommended strategy for a U.S. National Research 
Program, Ocean Carbon and Biogeochemistry Program, http://us-ocb.org/, 
14 pp.
    Boland, S., H. Bosch, L. Brown, P. Ciais, B. Connor, D. Crisp, S. 
Denning, S. Doney, I. Fung, D. Jacob, B. Johnson, J. Martin-Torres, A. 
Michalak, C. Miller, D. O'Brien, I. Polonsky, C. Potter, P. Rayner, R. 
Salawitch, M. Santee, P. Wennberg, D. Wunch, and Y. Yung, 2009, The 
need for atmospheric carbon dioxide measurements from space: 
Contributions from a rapid reflight of the Orbiting Carbon Observatory, 
White paper to NASA, April 2, 2009, 48 pp.
    OCB Subcommittee on Ocean Acidification, 2009b: Ocean Carbon and 
Biogeochemistry Program Response to EPA Notice of Data Availability: 
Ocean Acidification and Marine pH Water Quality Criteria, Public 
Submission EPA-HQ-OW-2009-0224-0163, 33 pp., http://
www.regulations.gov/fdmspublic/component/main?main
=DocumentDetail&o=090000 64809d0189, http://us-ocb.org/.
    Joint, I., D.M. Karl, S.C. Doney, E.V. Armbrust, W. Balch, M. 
Berman, C. Bowler, M. Church, A. Dickson, J. Heidelberg, D. Iglesias-
Rodriguez, D. Kirchman, Z. Kolber, R. Letelier, C. Lupp, S. Maberly, S. 
Park, J. Raven, D.J. Repeta, U. Riebesell, G. Steward, P. Tortell, R.E. 
Zeebe and J.P. Zehr, 2009: Consequences of high CO<INF>2</INF> and 
ocean acidification for microbes in the global ocean, Report of expert 
meeting at U. Hawaii, 24-26 February 2009 organized by Plymouth Marine 
Laboratory and Center for Microbial Oceanography Research and 
Education, 23 pp.
    Fabry, V. J., C. Langdon, W. M. Balch, A. G. Dickson, R. A. Feely, 
B. Hales, D. A. Hutchins, J. A. Kleypas, and C. L. Sabine (2009) (S.C. 
Doney Contributing Author): Present and future impacts of ocean 
acidification on marine ecosystems and biogeochemical cycles, Report of 
the Ocean Carbon and Biogeochemistry Scoping Workshop on Ocean 
Acidification Research (UCSD, Scripps Institution of Oceanography; 9-11 
October 2007), 51 pp.
    NSF Advisory Committee for Geosciences, 2009: GEO Vision Report, 
National Science Foundation, 39 pp. (S. Doney member of GEO Vision 
Working Groups, a subcommittee of NSF Advisory Committee for 
Geosciences).
    Benway, H.M. and S.C. Doney, 2009: Multidisciplinary perspectives 
in marine biogeochemistry and ecology, EOS, Trans. American Geophys. 
Union, 90(45), 414.
    Ocean Acidification Reference User Group, 2009: Ocean 
Acidification: the Facts. A special introductory guide for policy 
advisers and decisionmakers. D.d'A. Laffoley and J.M. Baxter (eds.), 
European Project on Ocean Acidification (EPOCA), 12 pp. (S. Doney 
provided acknowledged scientific advice).
Published Abstracts (Total of 125)
    Doney, S.C. and W.J. Jenkins, 1987: The dependence of ventilation 
rates on transient tracer boundary conditions. Eos Trans. AGU, Meeting 
Supp., 68(50), 1700.
    Doney, S.C. and W.J. Jenkins, 1990: North Atlantic abyssal 
ventilation estimates using transient tracers. Eos Trans. AGU, Meeting 
Supp., 71, 168.
    Doney, S.C. and J.L. Bullister, 1990: Chlorofluorocarbons in the 
Eastern North Atlantic. Eos Trans. AGU, Meeting Supp., 71, 1401.
    Doney, S.C. and R. Najjar, 1992: Nutrient cycling and new 
production in a coupled biological-physical model. Eos Trans. AGU, 
Meeting Supp., 73, 303.
    Doney, S.C. 1994: Irreversible thermodynamics and air-sea exchange. 
Eos Trans. AGU, Meeting Supp., 75, 195.
    Glover, D.M. and S.C. Doney, 1994: A coupled, one -dimensional 
biological-physical model for the Sargasso Sea: chlorophyll and ocean 
color. Eos Trans. AGU, Meeting Supp., 75, 373.
    Chapman, P., S.C. Doney, E. Howell, and D. Olson, 1996: Nutrient 
relationships in the northern Indian Ocean. Eos Trans. AGU, Meeting 
Supp., 76, OS26.
    Olson, D., S.C. Doney, and D. Musgrave, 1996: Tracing the ocean's 
deep circulation. Eos Trans. AGU, Meeting Supp., 76, OS41.
    Doney, S.C., J.L. Bullister, and D.P. Wisegarver, 1996: Temporal 
evolution of chlorofluorocarbon distribution in the eastern North 
Atlantic. Eos Trans. AGU, Meeting Supp., 75, OS128.
    Wanninkhof, R., S.C. Doney, T.-H. Peng, R. Feely, and J.L. 
Bullister, 1996: Penetration of anthropogenic CO<INF>2</INF> into the 
North Atlantic Ocean. Eos Trans. AGU, Meeting Supp., 76, OS128.
    Glover, D.M., and S.C. Doney, 1996: Seasonal global mixed layer 
PZND model. Eos Trans. AGU, Meeting Supp., 76, OS168.
    Howell, E., D.B. Olson, R.A. Fine, and S. Doney, 1996: 
Biogeochemical rate estimates in the monsoonal gyre of the North Indian 
Ocean during WOCE. Eos Trans. AGU, Meeting Supp., 77, F393.
    Glover, D.M. and S.C. Doney, 1996: The aliasing of mesoscale 
spatial variability into time-series data: satellite based estimates 
for the JGOFS-BATS site. Eos Trans. AGU, Meeting Supp., 77, F402.
    Lee, J.M., G.P. Brasseur, S.C. Doney, D.J. Erickson III, and J.-F. 
Muller, 1996: Modeled distribution of methyl bromide in a 3-D coupled 
ocean-atmosphere study. Eos Trans. AGU, Meeting Supp., 77, F108.
    Gent, P.R., F.O. Bryan, G. Danabasoglu, S.C. Doney, W.R. Holland, 
W.G. Large, J.C. McWilliams, 1996: The NCAR Climate System Model global 
ocean component. Eos Trans. AGU, Meeting Supp., 77, F380.
    Glover, D.M., S.C. Doney, and R.H Evans, 1998: The aliasing of 
mesoscale spatial variability into time-series data: satellite based 
estimates for the JGOFS-BATS site, revisited. Eos Trans. AGU, Meeting 
Supp., 79, OS7.
    Doney, S.C., M.W. Hecht, and K. Lindsay, 1998: Transient tracer 
simulations in the global NCAR CSM ocean model. Eos Trans. AGU, Meeting 
Supp., 79, F441.
    Perez-Suarez, S.D. and S.C. Doney, 1998: Tritium concentrations in 
precipitation: relaxation to the natural background. Eos Trans. AGU, 
Meeting Supp., 79, F496.
    Rosenbloom, N.A., S.C. Doney, and D.S. Schimel, 1998: Hillslope 
mass transport, catenary sequences and soil organic matter: numerical 
simulations and model-data comparisons of the CREEP model for Great 
Plains grassland environments. Eos Trans. AGU, Meeting Supp., 79, F264.
    Glover, D.M., S.J. McCue, S.C. Doney, and M. Fuentes, 1998: 
Spatial-temporal decorrelation length scales in the SeaWiFS ocean color 
data for the North Atlantic. Eos Trans. AGU, Meeting Supp., 79, F431.
    Siegel, D.A., J.A. Yoder, S.C. Doney, N.B. Nelson, M. Kennelly, M. 
Lorenzi-Kaiser, 1999: Satellite views of the North Atlantic spring 
bloom. Eos Trans. AGU, Meeting Supp., 80, F45.
    Famiglietti, J., S.C. Doney, N. Rosenbloom, D. Schimel, S. Graham, 
1999: Impact of continental streamflow transport on fully-coupled 
climate system model simulations, Eos Trans. AGU, Meeting Supp., 80, 
F362-363.
    Hecht, M.W. and S.C. Doney, 1999: Sensitivity of transient tracer 
simulations to a bottom boundary layer scheme in a global ocean climate 
model. Eos Trans. AGU, Ocean Sciences Meeting Supp., 80(49), OS304.
    Fung, I.Y., S.K. Meyn, I. Tegen, S.C. Doney, J.G. John, and J.K.B. 
Bishop, 1999: Iron supply and demand in the upper ocean. Eos Trans. 
AGU, Ocean Sciences Meeting Supp., 80(49), OS105.
    Williams, S., W.J. Jenkins, and S.C. Doney, 1999: A bomb-tritium 
budget for the North Pacific. Eos Trans. AGU, Ocean Sciences Meeting 
Supp., 80, (49), OS100.
    Doney, S.C., J.K. Moore, J. Kleypas, D.M. Glover, and I. Fung, 
1999: Iron limitation in the global marine environment: Exploration in 
an intermediate complexity, prognostic mixed layer ecosystem model. Eos 
Trans. AGU, Ocean Sciences Meeting Supp., 80(49), OS65.
    Louanchi, F., R.G. Najjar, and S. Doney, 1999: New production and 
shallow remineralization estimated from a seasonal oxygen climatology 
and a biogeochemical model. Eos Trans. AGU, Ocean Sciences Meeting 
Supp., 80(49), OS302.
    Iglesias-Rodriguez, D., C. Brown, S. Doney, J. Kleypas, D. Kolber, 
Z. Kolber, R. Najjar, P. Hayes, L. Medlin, and P. Falkowski, 1999: 
Statistical distribution of functional phytoplankton groups in the 
oceans: Representing Coccolithophores in carbon cycle models. Eos 
Trans. AGU, Ocean Sciences Meeting Supp., 80(49), OS248-249.
    Kennelly, M.A., J.A. Yoder, B.M. Uz, and S. Doney, 1999: Satellite 
studies of Winter-Spring phytoplankton chlorophyll transitions in the 
North Atlantic. Eos Trans. AGU, Ocean Sciences Meeting Supp., 80(49), 
OS64.
    Glover, D.M., S.C. Doney, A.J. Mariano, R.H. Evans, and S.J. McCue, 
1999: Mesoscale variability in Time-Series Data: Satellite based 
estimates for the U.S. JGOFS Bermuda Atlantic Time-Series Study (BATS) 
Site. Eos Trans. AGU, Ocean Sciences Meeting Supp., 80(49), OS64.
    Zedler, S.E., T. Dickey, S. Doney, and J. Price, 1999: Observations 
and modeling of Hurricane Felix. Eos Trans. AGU, Ocean Sciences Meeting 
Supp., 80(49), OS44.
    Lima, I., S. Doney, F. Bryan, D. McGillicuddy, L. Anderson, and M. 
Maltrud, 1999: Preliminary results from an eddy-resolving ecosystem 
model for the North Atlantic. Eos Trans. AGU, Meeting Supp., 80(49), 
OS28.
    Michaels, A.F., D. Capone, S. Doney, D. Sigman, N. Mahowald, D. 
Siegel, 2000: Biocomplexity: oceanic nitrogen fixation, atmospheric 
dust and global climate. Eos Trans. AGU, Fall Meet. Suppl.
    Balle, J., I. Fung, S.C. Doney, 2000: Modeling <SUP>13</SUP> C 
variations in the ocean. Eos Trans. AGU, Fall Meet. Suppl.
    Doney, S.C., 2000: The current status and future directions of 
global ocean carbon cycle modeling. Eos Trans. AGU, Fall Meet. Suppl.
    Brockmann, P., J.C. Orr, O. Aumont, P. Monfray, R.G. Najjar, F. 
Louanchi, R. Schlitzer, M. Weirig, R. Matear, A. Lenton, Y. Yamanaka, 
A. Ishida, K. Caldeira, M. Wickett, M. Follows, E. Maier-Reimer, K. 
Lindsay, S. Doney, K. Plattner, F. Joos, T. Stocker, R. Slater, N. 
Gruber, J. Sarmiento, R. Key, A. Yool, I. Totterdell, C. Sabine, 2000: 
Constraining oceanic uptake of anthropogenic CO<INF>2</INF> through 3-D 
model-data comparison. Eos Trans. AGU, Fall Meet. Suppl.
    Glover, D.M., S.C. Doney, M. Fuentes, S.J. McCue, 2000: Mesoscale 
variability of satellite ocean color: global patterns and spatial 
scales, Eos Trans. AGU, Fall Meet. Suppl.
    Dargaville, R.J. and S.C. Doney, 2001: Modeling inter-annual 
variability at baseline CO<INF>2</INF> stations: Contributions from 
sources and transport. Eos Trans. AGU, Fall Meet. Suppl., 82, F227.
    Fung, I.Y. and S. Doney, 2001: Use of space-borne observations to 
study air-sea CO<INF>2</INF> exchange, Eos Trans. AGU, Fall Meet. 
Suppl., 82, F620.
    Siegel, D.A., S.C. Doney, and J.A. Yoder, 2002: Sverdrup's critical 
depth hypothesis and the North Atlantic spring bloom, Eos Trans. AGU, 
83(4), Ocean Sciences Meet. Suppl., Abstract OS11Q-10.
    Glover, D.M., S.C. Doney, N. Nelson, 2002: Mesoscale and 
submesoscale ocean color variability about the Bermuda Atlantic Time-
series Site (BATS), Eos Trans. AGU, 83(4), Ocean Sciences Meet. Suppl., 
Abstract OS11Q-12.
    Sarmiento, J.L., R. Slater, P. Monfray, R. Barber, L. Bopp, S. 
Doney, A.C. Hirst, J. Kleypas, R. Matear, U. Mikolajewicz, J. Orr, V. 
Soldatov, S. Spall, and R. Stouffer, 2002: Response of ocean biology to 
future climate change, Eos Trans. AGU, 83(4), Ocean Sciences Meet. 
Suppl., Abstract OS22R-02.
    Michaels, A.F., E.A. Boyle, E.J. Carpenter, S. Doney, G. Haug, D.M. 
Karl, N. Mahowald, R.L. Siefert, D.A. Siegel, D. Sigman, A. 
Subramaniam, P.L. Yager, and D.G. Capone, 2002: Biocomplexity: oceanic 
nitrogen fixation and global climate. Eos Trans. AGU, 83(4), Ocean 
Sciences Meet. Suppl., Abstract OS32E-173.
    Moore, J.K., S.C. Doney, K. Lindsay, 2002: Phytoplankton functional 
groups and oceanic carbon cycling. Eos Trans. AGU, 83(4), Ocean 
Sciences Meet. Suppl., Abstract OS32E-178.
    Najjar, R., X. Jin, R. Louanchi, and S. Doney, 2002: The seasonal 
oxygen budget of a three-dimensional marine biogeochemical model, Eos 
Trans. AGU, 83(4), Ocean Sciences Meet. Suppl., Abstract OS42K-02.
    Doney, S.C. and P.W. Boyd, 2002: Modeling regional responses by 
marine pelagic ecosystems to global climate change. Eos Trans. AGU, 
83(4), Ocean Sciences Meet. Suppl., Abstract OS42L-02.
    Doney, S.C., K. Moore, and K. Lindsay, 2002: The Role of Ecosystem 
Dynamics on the Global Ocean Carbon Cycle: Exploratory 3-D Simulations 
in the CCSM-Ocean Model, Eos Trans. AGU, 83 (47), Fall Meet. Suppl., 
Abstract OS52B-0211.
    Aumont, O, K Caldeira, J Campin, S Doney, H Drange, M Follows, Y 
Gao, N Gruber, A Ishida, F Joos, R Key, K Lindsay, E Maier-Reimer, R 
Matear, P Monfray, R Najjar, *J Orr, G Plattner, A Mouchet, C Sabine, J 
Sarmiento, R Schlitzer, R Slater, I Totterdell, M Weirig, M Wickett, 
2002: Multi-tracer constraints on ocean storage of anthropogenic 
CO<INF>2</INF>, Eos Trans. AGU, 83 (47), Fall Meet. Suppl., Abstract 
OS52B-0222.
    Siegel, D.A., J.C. Ohlmann, S.C. Doney, and C.R. McClain, 2002: 
Variability of Ocean Radiant Heating in the Eastern Tropical Pacific, 
Eos Trans. AGU, 83 (47), Fall Meet. Suppl., Abstract A22A-0070.
    Mikaloff Fletcher, S.E., N.P. Gruber, A.R. Jacobsen, K. Caldeira, 
S.C. Doney, M. Gloor, M. Follows, K. Lindsay, R. Matear, D. Menemenlis, 
A. Mouchet, J.L. Sarmiento, 2003: Inverse Estimates of Anthropogenic 
Carbon Dioxide from Ocean Interior Carbon Measurements and Ocean 
General Circulation Models, Eos Trans. AGU, 84(46), Fall Meet. Suppl., 
Abstract A31H-01.
    Baker, D.F., B. Stephens, S. Doney, and D. Schimel, 2003: A 4-D 
Variational Data Assimilation Approach for Estimating Time-Varying 
Sources and Sinks of CO<INF>2</INF>, Eos Trans. AGU, 84(46), Fall Meet. 
Suppl., Abstract A51H-06.
    Dilling, L., S. Doney, J. Edmonds, K.R. Gurney, R. Harriss, D. 
Schimel, B. Stephens, and G. Stokes, 2003: A review of the role of 
carbon cycle science in supporting carbon management policy, Eos Trans. 
AGU, 84(46), Fall Meet. Suppl., Abstract B51F-01.
    Bonfils, C., I. Fung, S. Doney, J. John, 2003: Can we detect 
interannual variability of summertime terrestrial photosynthesis from 
climatic and hydrological markers? Eos Trans. AGU, 84(46), Fall Meet. 
Suppl., Abstract B52E-06.
    Moore, J., S.C. Doney, and K. Lindsay, 2003: Phytoplankton Ecology 
in a Global 3D Ecosystem Simulation, Eos Trans. AGU, 84(52), Ocean Sci. 
Meet. Suppl., Abstract OS22A-11.
    Jenkins, W.J. and S.C. Doney, 2003: The Subtropical Nutrient 
Spiral, Eos Trans. AGU, 84(52), Ocean Sci. Meet. Suppl., Abstract 
OS32L-08.
    Mikaloff Fletcher, S.E., N.P. Gruber, A.R. Jacobson, K. Caldeira, 
S.C. Doney, M. Gloor, M. Follows, L. Keith, R. Matear, D. Menemenlis, 
A. Mouchet, J.L. Sarmiento, 2003: Estimates of Air-sea Anthropogenic 
Carbon Dioxide Flux From Ocean Interior Carbon Measurements and Ocean 
General Circulation Models, Eos Trans. AGU, 84(52), Ocean Sci. Meet. 
Suppl., Abstract OS42I-06.
    Doney, S.C., and W.J. Jenkins, 2004: The subtropical nutrient 
spiral, ASLO/TOS Ocean Research Conference, 2004, Abstract Book, pp 42.
    McGillicuddy, D.J., L.A. Anderson, S.C. Doney, and M.E. Maltrud, 
2004: Eddy-driven sources and sinks of nutrients in the upper ocean: 
results from a 0.1 degree resolution model of the North Atlantic, ASLO/
TOS Ocean Research Conference, 2004, Abstract Book, pp 104.
    Barber, R.T., J. Sarmiento, R. Slater, L. Bopp, S.C. Doney, A.C. 
Hirst, J. Kleypas, R. Matear, U. Mikolajewicz, P. Monfray, V. Soldatov, 
S. Spall, and R. Stouffer, Response of ocean ecosystems to climate 
warming, ASLO/TOS Ocean Research Conference, 2004, Abstract Book, pp 
11.
    Stanley, R.H.R., W.J. Jenkins and S.C. Doney, 2004: The noble gas 
toolbox for air-sea gas exchange, SOLAS Open Science Conference, 
Halifax, Canada.
    Toole, D.A., D.A. Siegel, D. Slezak, and S.C. Doney, A light-driven 
dimethylsulfide biogeochemical cycling model for the Sargasso Sea, 
SOLAS Open Science Conference, Halifax, Canada.
    Mikaloff Fletcher, S.E., N.P. Gruber, A. Jacobson, S. Doney, S. 
Dutkiewicz, M. Follows, K. Lindsay, D. Menemenlis, A. Mouchet, 2004: On 
the robustness of air-sea flux estimates of carbon dioxide from ocean 
inversions, Eos Trans. AGU, 85(47), Fall Meet. Suppl., Abstract A12B-
06.
    Bonfils, C., A. Angert, C. Henning, S. Biraud, S.C. Doney, I. Fung, 
2004: Extending the record of photosynthetic activity over the eastern 
United States into the pre-satellite period using surface diurnal 
temperature range, Eos Trans. AGU, 85(47), Fall Meet. Suppl., Abstract, 
B23A-0932.
    Fung, I., S.C. Doney, K. Lindsay, J. John, 2004: Carbon-climate 
feedbacks in the NCAR Community Climate System Model, Eos Trans. AGU, 
85(47), Fall Meet. Suppl., Abstract, B32A-05.
    Moore, J.K. and S.C. Doney, 2004: Dust Deposition, Ecosystem 
Response, and Oceanic Uptake of Atmospheric CO<INF>2</INF>, Eos Trans. 
AGU, 85(47), Fall Meet. Suppl., Abstract, B33A-0247.
    Wallis, A., S.C. Doney, D.M. Glover, N. Nelson, 2004: 
Characterizing submesoscale ocean color variability in the Sargasso Sea 
in the vicinity of the Bermuda Atlantic Time-series Site (BATS): A 
geostatistical approach, Eos Trans. AGU, 85(47), Fall Meet. Suppl., 
Abstract, OS21C-1274.
    Orr, J.C., V.J. Fabry, O. Aumont, L. Bopp, K. Caldeira, M.E. 
Wickett, S.C. Doney, R.A. Feely, C.L. Sabine, M. Follows, N. Gruber, G. 
Plattner, A. Ishida, Y. Yamanaka, F. Joos, A. Gnanadesikan, R.M. Key, 
J.L. Sarmiento, R.D. Slater, K. Lindsay, E. Maier-Reimer, R. Matear, P. 
Monfray, A. Mouchet, R.G. Najjar, R. Schlitzer, M. Weirig, A. Yool, I. 
Totterdell, Aragonite undersaturation in the high-latitude surface 
ocean within the 21 st Century, Eos Trans. AGU, 85(47), Fall Meet. 
Suppl., Abstract, OS24B-08.
    Tsumune, D., F.O. Bryan, S.C. Doney, M.W. Hecht, N. Nakashiki, 
2004: Interannual variability of chlorofluorocarbons, pCFC ages and 
ideal ages in the North Pacific from 1958-2000 as simulated by an ocean 
general circulation model, Eos Trans. AGU, 85(47), Fall Meet. Suppl., 
Abstract, OS31A-05553.
    Hynes, A.M., E.A. Webb, S.T. Dyhrman, and S.C. Doney, 2005: 
Phosphorus and iron physiology in North Pacific Trichodesmium, poster 
at the 2005 ASLO Aquatic Sciences Meeting, Salt Lake City, Utah, Feb. 
2005.
    Friedrichs, M., R. Hood, L. Anderson, R. Armstrong, F. Chai, J. 
Christian, S. Doney, J. Dunne, J. Dusenberry, M. Fujii, J. Klinck, D. 
McGillicuddy, M. Schartau, Y. Spitz, J. Wiggert, 2005: The regional 
ecosystem modeling intercomparison project, European Geosciences Union 
General Assembly, EGU05-A-03719, Vienna, Austria, April 2005.
    Maltrud, M., S. Doney, I. Lima, D. McGillicuddy, and K. Moore, 
2005: A global eddy-permitting physical/biological ocean simulation, 
EGU05-A-09328, Vienna, Austria, April 2005.
    Lindsay, K., K. Moore, and S. Doney, 2006: The impact of tracer 
advection schemes on biogeochemical tracers, Eos Trans. AGU, 87(36), 
Ocean Sci. Meet. Suppl., Abstract OS35A12.
    Moore, J.K. and S. Doney, 2006: Nitrogen fixation and water column 
denitrification: Linking the biogeochemical cycles of carbon and 
nitrogen at the global scale, Eos Trans. AGU, 87(36), Ocean Sci. Meet. 
Suppl., Abstract OS34A-03.
    Kennelly, M.A., J.A. Yoder, S.C. Doney, and I. Lima, 2006: 
Intercomparison of biogeochemical properties at Atlantic and Pacific 
observatory sites using ocean data and a PARADIGM model, Eos Trans. 
AGU, 87(36), Ocean Sci. Meet. Suppl., Abstract OS45B-16.
    Levine, N.M., S. Doney, K. Lindsay, and R. Wanninkhof, 2006: Ocean 
carbon system variability and the detection of oceanic anthropogenic 
CO<INF>2</INF> uptake, Eos Trans. AGU, 87(36), Ocean Sci. Meet. Suppl., 
Abstract OS52A-04.
    Gruber, N., H. Frenzel, T. Nagai, A. Leinweber, G. Plattner, J.C. 
McWilliams, K.D. Stolzenbach, F. Chavez, G. Friederich, B. Hales, and 
S. Doney, 2006: Toward a first carbon budget for the U.S. West Coast's 
margins, Eos Trans. AGU, 87(36), Ocean Sci. Meet. Suppl., Abstract 
OS33D-04.
    Wanninkhof, R., S. Doney, J.L. Bullister, N. Gruber, C. Sabine, 
R.A. Feely, G.C. Johnson and F. Millero, 2006: Changes in inorganic 
carbon inventory in the Atlantic Ocean over the last decade, Eos Trans. 
AGU, 87(36), Ocean Sci. Meet. Suppl., Abstract OS52C-01.
    Friedrichs, M.A., L. Anderson, R. Armstrong, F. Chai, J. Christian, 
S. Doney, J. Dunne, J. Dusenberry, M. Fujii, R. Hood, D. McGillicuddy, 
M. Schartau, Y. Spitz, and J. Wiggert, 2006: The regional ecosystem 
model intercomparison project, Eos Trans. AGU, 87(36), Ocean Sci. Meet. 
Suppl., Abstract OS34A-06.
    McKinley, G.A., T. Takahashi, E. Buitenhuis, F. Chai, J. Christian, 
S. Doney, M. Jiang, C. Lequere, I. Lima, R. Murtugudde, L. Shi, and P. 
Wetzel, 2006: North Pacific carbon cycle response to climate 
variability on seasonal to decadal timescales, Eos Trans. AGU, 87(36), 
Ocean Sci. Meet. Suppl., Abstract OS24G-03.
    Yoder, J., M. Kennelly, S. Doney, and I. Lima, 2006: Long-term 
trends in model and satellite-derived chlorophyll concentrations in 
selected regions of the global ocean, Eos Trans. AGU, 87(52), Fall 
Meet. Suppl., Abstract, OS52A-08.
    Glover, D.M., N.M. Frew, S.C. Doney, I.D. Lima, M.J. Caruso, and 
M.J. McCue, 2006: The application of mean square slope derived gas 
transfer velocities in a global general circulation model, 2006: Eos 
Trans. AGU, 87(52), Fall Meet. Suppl., Abstract, OS53A-1092.
    Warner, M.J., J.L. Bullister, R. Wanninkhof, and S. Doney, 2006: 
Temporal change in the CFC distributions along 25 W in the South 
Atlantic since the WOCE period, Eos Trans. AGU, 87(52), Fall Meet. 
Suppl., Abstract, OS21C-1596.
    Johnson, G.C., S.C. Doney, S. Mecking, B.M. Sloyan, and S.E. 
Wijffels, Abyssal temperature variability and the global ocean heat 
budget, 2006: Eos Trans. AGU, 87(52), Fall Meet. Suppl., Abstract, 
OS41D-05.
    Goodkin, N.F., K.A. Hughen, A.L. Cohen, W.B. Curry, and S.C. Doney, 
2006: The North Atlantic Oscillation reconstructed at Bermuda for 220 
Years using Sr/Ca Ratios in Diploria labyrinthiformis (brain coral), 
Eos Trans. AGU, 87(52), Fall Meet. Suppl., Abstract, PP42A01.
    Hynes, A.M., J.B. Waterbury, E.A. Webb, and S.C. Doney, 2007: 
Diversity of Trichodesmium: Characterization of the Woods Hole culture 
collection, ASLO Aquatic Sciences Meeting 2007, Meeting Report, 21.
    Najjar, R., X. Jin, F. Louanchi, O. Aumont, K. Caldeira, S. Doney, 
J. Dutay, M. Follows, N. Gruber, F. Joos, K. Lindsay, E. Maier-Reimer, 
R.J. Matear, K. Matsumoto, P. Monfray, A. Mouchet, J.C. Orr, G.K. 
Plattner, J.L. Sarmiento, R. Schlitzer, M.F. Weirig, Y. Yamanaka, and 
A. Yool, 2007: Impact of circulation on export production, dissolved 
organic matter and dissolved oxygen in the ocean: Results from OCMIP-2, 
ASLO Aquatic Sciences Meeting 2007, Meeting Report, 53.
    Denning, S.A., S. Doney, D. Zupanski, S.R. Kawa, G.J. Collatz, and 
S. Pawson, 2007: Status of current capabilities and future directions 
for carbon cycle data assimilation, 87th American Meteorological 
Society Annual Meeting.
    Gruber, N., N. Lovenduski, H. Brix, S.C. Doney, I. Lima, and D.W. 
Thompson, 2007: Recent Biogeochemical Trends in the Southern Ocean: 
Signs of a positive feedback in the climate system? EGU General 
Assembly, Geophysical Research Abstracts, Vol. 9, EGU2007-A02788.
    Nevison, C.D., N.M. Mahowald, and S.C. Doney, 2007: Seasonal 
rectifier effects in atmospheric potential oxygen (APO) and 
CO<INF>2</INF>, Eos Trans. AGU, 88(52), Fall Meet. Suppl., Abstract, 
B51 E-05.
    Paytan, A., K.R. Mackey, Y. Chen, N. Mahowald, S. Doney, and A. 
Post, 2007: Atmospheric dust impacts on marine phytoplankton, Eos 
Trans. AGU, 88(52), Fall Meet. Suppl., Abstract, A33E-1649.
    Stanley, R., W.J. Jenkins, D.E. Lott, and S.C. Doney, 2007: Using 
noble gases to constrain gas exchange and biological productivity, Eos 
Trans. AGU, 88(52), Fall Meet. Suppl., Abstract, OS32A-03.
    Thornton, P., K. Lindsay, S. Doney, J.K. Moore, and N. Mahowald, 
2007: Fundamental influence of carbon-nitrogen cycle coupling on 
climate-carbon cycle feedbacks, Eos Trans. AGU, 88(52), Fall Meet. 
Suppl., Abstract, B33F-07.
    Baker, D.F., H. Boesch, and S.C. Doney, 2007: The constraint on 
surface CO<INF>2</INF> fluxes provided by OCO column CO<INF>2</INF> 
measurements: a realistic assessment, Eos Trans. AGU, 88(52), Fall 
Meet. Suppl., Abstract, A12B-06.
    Stanley, R.H., W.J. Jenkins, S.C. Doney, and D.E. Lott, 2008: A 
time-series of five noble gases and tritiugenic helium-3 as tracers for 
biogeochemical cycles, AGU/ASLO Ocean Sciences Meeting 2008.
    Moore, J.K., A. Krishnamurthy, S.C. Doney, and N. Mahowald, 2008: 
The influence of external iron inputs on marine ecology and 
biogeochemical cycles, AGU/ASLO Ocean Sciences Meeting 2008.
    Doney, S.C., S. Yeager, G. Danabasoglu, W.G. Large, and J.C. 
McWilliams, 2008: Mechanisms governing interannual variability of upper 
ocean temperature in a global ocean hindcast simulation, AGU/ASLO Ocean 
Sciences Meeting 2008.
    Andersson, A.J., N.R. Bates, M.A. Jeffries, J.K. Neely, S.C. Doney, 
and N. Benoit, 2008: Increasing uptake and fate of CO<INF>2</INF> in 
North Atlantic subtropical mode water (STMW), AGU/ASLO Ocean Sciences 
Meeting 2008.
    Wanninkhof, R., S.C. Doney, J.L. Bullister, R.A. Feely, and F.J. 
Millero, 2008: Methods of determining changes in anthropogenic carbon 
inventory in the Atlantic Ocean over the last decade, AGU/ASLO Ocean 
Sciences Meeting 2008.
    Levine, N.M., D.A. Toole, A.R. Neeley, J.W. Dacey, S.C. Doney, N.R. 
Bates, and M.A. Moran, 2008: Bacterially driven diurnal changes in the 
upper ocean sulfur cycle, AGU/ASLO Ocean Sciences Meeting 2008.
    Chepurin, G.A., J.A. Carton, S.C. Doney, and I.D. Lima, 2008: 
Impact of temperature and salinity assimilation on the global 
biogeochemical parameters distribution, AGU/ASLO Ocean Sciences Meeting 
2008.
    Hynes, A.M., E.A. Webb, J.B. Waterbury, and S.C. Doney, 2008: 
Identification and quantification of the nitrogen fixer Trichodesmium: 
phylogeny and qPCR, AGU/ASLO Ocean Sciences Meeting 2008.
    Glover, D.M., S.C. Doney, N.B. Nelson, and A. Wallis, 2008: 
Submesoscale anisotropy (fronts, eddies, and filaments) as observed 
near Bermuda with ocean color data, AGU/ASLO Ocean Sciences Meeting 
2008.
    Lima, I., S.C. Doney, N. Mahowald, R.A. Feely, F. Mackenzie, and 
J.F. Lamarque, 2008: Impact of anthropogenic nitrogen and sulfur 
deposition on ocean acidification and inorganic carbon system, AGU/ASLO 
Ocean Sciences Meeting 2008.
    Thornton, P., G. Bonan, S. Doney, K. Lindsay, K. Moore, N. 
Mahowald, J. Randerson, I. Fung, J.-F. Lamarque, 2008: Carbon-nitrogen 
coupling regulates climate-carbon feedback, EGU General Assembly, 
Geophysical Research Abstracts, Vol. 10, EGU2008-A-09674.
    Misumi, K., D. Tsumune, T. Yoshimura, J. Nishioka, F.O. Bryan, K. 
Lindsay, J.K. Moore, and S.C. Doney, 2008: Effects of two different 
iron sources on the iron cycle in the subarctic North Pacific, Effects 
of Climate Change on the World's Oceans International Symposium, Gijon 
Spain, ICES, PICES, IOC, Poster S2.1-4744.
    Johnson, G.C., S.G. Purkey, J.L. Bullister, A.H. Orsi, C.S. 
Wiederwohl, M.J. Warner, S. Mecking, B.M. Sloyan, S.E. Wijffels, and 
S.C. Doney, 2008: Recent decadal warming and freshening of Antarctic-
derived abyssal waters, AGU 2008 Fall Meeting, OS11E-07.
    Glover, D.M., S.C. Doney, N. Nelson, A. Wallis, 2008: Mesoscale and 
submesoscale influence on variability and anisotropy observed in ocean 
color data near Bermuda, AGU 2008 Fall Meeting, OS13A-1174.
    Paytan, A., K.R. Mackey, Y. Chen, I.D. Lima, S.C. Doney, N. 
Mahowald, R. Labiosa, and A.F. Post, 2008: Toxicity of atmospheric 
aerosols on marine phytoplankton, AGU 2008 Fall Meeting, OS14B-02.
    Krishnamurthy, A., J.K. Moore, N.M. Mahowald, C. Luo, S.C. Doney, 
K. Lindsay, and C.S. Zender, 2008: The impacts of increasing soluble 
iron and nitrogen deposition on ocean biogeochemistry, AGU 2008 Fall 
Meeting, OS14B-07.
    Cooley, S.R., and S.C. Doney, 2008: Economic vulnerability 
assessment of U.S. fishery revenues to ocean acidification, AGU 2008 
Fall Meeting, OS21A-1156.
    Doney, S.C., N.M. Levine, R. Wanninkhof, C. Sabine, and R.A. Feely, 
2008: Observational and model estimates of decadal-scale changes in 
anthropogenic carbon in the Atlantic and Pacific Oceans, AGU 2008 Fall 
Meeting, OS24A-02.
    Marinov, I., S. Doney, I. Lima, K. Lindsey, and K. Moore, 2008: 
Response of plankton ecology and the carbon cycle to climate change 
over the 21 st century, AGU 2008 Fall Meeting, OS31A-1237.
    Fung, I., S.C. Doney, 2008: Testing carbon-climate models using 
space observations of atmospheric carbon dioxide, AGU 2008 Fall 
Meeting, A43F-04.
    Parazoo, N.C., S. Denning, S.R. Kawa, S. Pawson, Z. Zhu, K. Gurney, 
J. Randerson, and S. Doney, 2008: Evaluation of transport 
characteristics of GEOS-5 using chemistry transport model simulations 
of atmospheric CO<INF>2</INF>, AGU 2008 Fall Meeting, A43F-06.
    Levine, N.M., D.A. Toole, A. Neeley, J. Dacey, S.C. Doney, N.R. 
Bates, and M.A. Moran, 2009: Evidence that bacteria play an important 
role in the upper ocean sulfur cycle at the Bermuda Atlantic Time-
Series Station, ASLO Aquatic Sciences Meeting 2009.
    Boss, E.S., M. Behrenfeld, T. Westberry, R. O'Malley, J. Wiggert, 
D. Siegel, B. Franz, C. McClain, G. Feldman, G. Dall'Olmo, A. Milligan, 
S. Doney, K. Moore, I. Lima, and N. Mahowald, 2009: Global analysis of 
phytoplankton physiology using satellite chlorophyll fluorescence, ASLO 
Aquatic Sciences Meeting 2009.
    H. Thomas, A. E. F. Prowe, I. D. Lima, S. C. Doney, R. Wanninkhof, 
R. J. Greatbatch, U. Schuster, and A. Corbiere, 2009: Changes in the 
North Atlantic Oscillation influence CO<INF>2</INF> uptake in the North 
Atlantic over the past two decades, EGU General Assembly, 2009, Vienna, 
Austria, EGU2009-5796.
    Doney, S.C., 2009: The coupled cycles of carbon and iron in the 
sea, Ecol. Soc. Amer. Ann. Meeting, (abstract OOS 26-6).
    Le Quere, C., M. Raupach, J.G. Canadell, G. Marland, L. Bopp, P. 
Ciais, T.J. Conway, S. Doney, R. Feely, C.B. Field, P. Foster, P. 
Friedlingstein, R.A. Houghton, C. Huntingford, P. Levy, M.R. Lomas, N. 
Metzl, A. Mouchet, C. Prentice, J.T. Randerson, S.W. Running, J.L. 
Sarmiento, U. Schuster, S. Sitch, T. Takahashi, N. Viovy, G. van der 
Werf, I. Woodward, 2009: Recent trends in the global carbon cycle, 8th 
International Carbon Dioxide Conference (ICDC8), Plenary Talk, Jena, 
Germany.
    Wanninkhof, R., G.-H. Park, S. Doney, T. Takahashi, C. Sabine, K. 
Lee, R. Feely, 2009: Empirical estimates of interannual changes in air-
sea CO<INF>2</INF> fluxes, 8th International Carbon Dioxide Conference 
(ICDC8), T1-090, Jena, Germany.
    Denning, S., R. Lokupitiya, D. Zupanski, N. Parazoo, D. Baker, S. 
Doney, I. Baker, R. Kawa, J. Collatz, S. Pawson, K. Gurney, 2009: 
Carbon cycle data assimilation in the GOSAT era: An observing system 
simulation, 8th International Carbon Dioxide Conference (ICDC8), T4-
056, Jena, Germany.
    Stanley, H.R., W.J. Jenkins, D.E. Lott, III, and S.C. Doney, 2009: 
Bubble and air-sea gas exchange fluxes constrained by noble gases, 
SOLAS Open Science Conference 2009, Barcelona, Spain.
    Swann, A., I. Fung, S. Levis, G.B. Bonan, and S.C. Doney, 2009: 
Changes in arctic vegetation amplify high-latitude warming through 
greenhouse effect, AGU 2009 Fall Meeting (A21F06).
    Denning, A., R. S. Lokupitiya, D. Zupanski, S.R. Kawa, D.F. Baker, 
S.C. Doney, and K.R. Gurney, 2009: Global analysis of carbon sources 
and sinks with a comprehensive model optimized with GOSAT/Tanso 
observations, AGU 2009 Fall Meeting (A51A-0110).
    Swift, J.H., T. Dittmar, S.C. Doney, G.C. Johnson, A.H. Orsi, B. 
Sloyan, K.G. Speer, R.H. Wanninkhof, and A.P. Wong, 2009: U.S. Southern 
Ocean CTD/hydrographic/carbon/tracer meridional transects contributing 
to the IPY, AGU 2009 Fall Meeting (C43C-0516).
    Steinberg, D.K., O.M.E. Schofield, W.R. Fraser, S.E. Stammerjohn, 
D.G. Martinson, S.C. Doney, M. Montes-Hugo, H.W. Ducklow, 2010: The 
changing ecosystem of the West Antarctic Peninsula, Society for 
Integrative and Comparative Biology 2010 Annual Meeting.

    The Chairman. Thank you very much.
    And now we will go to you, Mr. Cordero.
    All of your statements are automatically a part of the 
record.

   STATEMENT OF MARIO CORDERO, FEDERAL MARITIME COMMISSIONER-
                           DESIGNATE

    Mr. Cordero. Good afternoon, Mr. Chairman, Ranking Member 
Hutchison, and members of the Committee.
    I'm honored to have the opportunity to appear before you 
this afternoon as President Obama's nominee to serve as 
Commissioner on the Federal Maritime Commission. And I thank 
Chairman Lidinsky for his support.
    If confirmed by the Senate, I look forward to supporting 
the mission of the Federal Maritime Commission, to promote a 
fair and efficient and reliable international ocean 
transportation system, and to protect the public from unfair 
and deceptive practices.
    Before I proceed, I would like to introduce my wife, Gloria 
Cordero. We have been married 36 years, and Gloria has been a 
large factor in my personal success and achievements. We are 
blessed to have two wonderful children, now of adult age, as 
well, and well into their respective professions. Our daughter, 
who's also here, Celine Cordero, is a lawyer. And our son, 
Mario, is an educator. And we're also proud to have two 
grandchildren, Cruz and Santos, and a third is on its way.
    I graduated from the University of Santa Clara Law School, 
and I'm in my 30th year of the practice of law. For the past 7 
years, I have served on the Board of Harbor Commissioners for 
the Port of Long Beach, having served one term as President and 
two terms as Vice President.
    The Port of Long Beach is one of America's premier seaports 
and a leader in promoting international trade and environmental 
stewardship. This port is also the second-largest container 
port in the Nation and, together with the Port of Los Angeles, 
is the Nation's largest port complex.
    The port's gross operating revenues, for Fiscal Year 2009, 
which was a down year, was $311.4 million. The value of trade 
that moves through the Port of Long Beach on an annual basis is 
estimated at $120 billion. For year 2009, the port handled in 
excess of 132 million tons of cargo. The port supports 30,000 
jobs in the City of Long Beach and, it's estimated, 300,000 
jobs in the southern California region.
    In 2009, the readers of Cargonews Asia named the Port of 
Long Beach as the best seaport in North America for the 5th 
consecutive year and the 13th time in the past 14 years.
    My service at the Port of Long Beach has provided me with 
firsthand experience in the areas of international trade, goods 
movements, intermodal transportation, and marine terminal 
operations. The port is a focal point of the Nation's largest 
liner trade lane, the Transpacific.
    In the global economy of today, it is paramount to have 
strong and open dialogue with international carriers, shippers, 
and parties of interest in relation to foreign commerce. In the 
scope of my duties as a Harbor Commissioner, I've engaged in 
numerous trade missions to Asia, Europe, and Latin America. 
These missions involved meetings with the major international 
vessel operating carriers in order to learn more about their 
issues related to logistics and cost.
    In that capacity, I've also helped to pioneer the Green 
Port policy, at the Port of Long Beach. The policy, which was 
formally adopted in January 2005 by the Board of Harbor 
Commissioners, was a bold step at that time, but, today, 
represents a mainstream approach in both the domestic and 
international maritime communities. In order for the United 
States to compete in the global market, it is essential to 
further efficient maritime operations and the corresponding 
goods movement transportation chain.
    If confirmed by the Senate, I am eager to put my experience 
to work on behalf of the Federal Maritime Commission. The 
Commission's work is vital in assisting the economic recovery 
by facilitating international trade through the Nation's ports, 
as well as supporting increases in the efficiency and 
sustainability of shipping and port operations.
    On a closing note, I again thank President Obama for his 
nomination to serve on the Federal Maritime Commission, and the 
Committee, for allowing me, this afternoon, to appear before 
you.
    I will welcome any questions you may have.
    Thank you very much, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Cordero follows:]

                 Prepared Statement of Mario Cordero, 
                Federal Maritime Commissioner-Designate
    Good morning Mr. Chairman, Ranking Member Hutchison, and members of 
the Committee.
    I am honored to have the opportunity to appear before you this 
morning as President Obama's nominee to serve as Commissioner on the 
Federal Maritime Commission, and I thank Chairman Lidinsky for his 
support. If confirmed by the Senate, I look forward to supporting the 
mission of the Federal Maritime Commission to promote a fair, 
efficient, and reliable international ocean transportation system, and 
to protect the public from unfair and deceptive practices. I further 
support the intent of the Shipping Act, as amended by the Ocean 
Shipping Reform Act.
    Before I proceed, I would like to introduce my wife, Gloria 
Cordero. We have been married thirty-six years and Gloria has been a 
large factor in my personal success and achievements. We are blessed 
with two wonderful children, now of adult age and well into their 
respective professions. Our daughter, Celine, is a lawyer and our son 
Mario is an educator. We are also proud to have two grandchildren, Cruz 
and Santos, and a third is on the way.
    I graduated from Santa Clara University School of Law and I am in 
my 30th year practicing law. For the past 7 years I have served on the 
Board of Harbor Commissioners for the Port of Long Beach, having served 
one term as Board President and two terms as Vice President. The Port 
of Long Beach is one of America's premier seaports and a leader in 
promoting international trade and environmental stewardship. The Port 
is also the second largest container port in the Nation, and together 
with the Port of Los Angeles, the Nation's largest port complex. The 
Port's gross operating revenue for Fiscal Year 2009 (a down year) was 
$311.4 million. The value of trade that moves through the Port on an 
annual basis is estimated at $120 billion. For year 2009, the Port 
handled in excess of 132 million tons of cargo. The Port supports 
30,000 jobs in the City of Long Beach and an estimated 300,000 jobs in 
Southern California. In 2009, readers of Cargonews Asia named the Port 
of Long Beach as the best seaport in North America for the fifth 
consecutive year and the 13th time in the past 14 years.
    My service at the Port of Long Beach has provided me with first-
hand experience in the areas of international trade, goods movement, 
intermodal transportation, and marine terminal operations. The Port is 
a focal point of the Nation's largest liner trade lane, the Trans-
Pacific. In the global economy of today, it is paramount to have a 
strong and open dialogue with international carriers, shippers, and 
parties of interest in relation to foreign commerce. In the scope of my 
duties as a Harbor Commissioner, I have engaged in numerous trade 
missions in Asia, Europe, and Latin America. These missions involved 
meetings with the major international vessel operating carriers in 
order to learn about issues related to logistics and cost.
    In that capacity, I also helped to pioneer the Green Port Policy at 
the Port of Long Beach. The policy, which was formally adopted in 
January 2005 by the Board of Harbor Commissioners, was a bold step at 
the time, but today represents a mainstream approach in both the 
domestic and international maritime communities. In order for the U.S. 
to compete in the global market, it is essential to further efficient 
maritime operations and the corresponding goods movement transportation 
chain.
    If confirmed by the Senate, I am eager to put my experience to work 
on behalf of the Federal Maritime Commission. The Commission's work is 
vital in assisting the economic recovery by facilitating international 
trade through the Nation's ports, as well as supporting increases in 
the efficiency and sustainability of shipping and port operations.
    On a closing note, I again thank President Obama for this 
nomination to serve on the Federal Maritime Commission and the 
Committee for allowing me to appear before you this afternoon. I 
welcome any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mario 
Cordero.
    2. Position to which nominated: Federal Maritime Commission.
    3. Date of Nomination: September 20, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 6700 East Pacific Coast Highway, Long Beach, CA 90803.

    5. Date and Place of Birth: August 31, 1952; Los Angeles, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Gloria Cordero, spouse, Principal, ABC Advocacy Group; Celine 
        Cordero, daughter, 34; Mario Andres Cordero, son, 31.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Santa Clara University, School of Law J.D. 1975-1978.

        California State University Long Beach, B.A. 1970-1974.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, Board of Harbor Commissioners, Port of Long 
        Beach, California. 2003 to present.

        Board President, June 2007-June 2008; Board Vice President, 
        June 2006-June 2007, June 2009-June 2010.

    As a Commissioner, I am responsible for the management of executive 
staff, as well as for setting policy and approving leases and contracts 
for the Port of Long Beach, a 7,600-acre complex of land and water that 
is one of the world's busiest seaports and a leading gateway for more 
than $120 billion a year in trade. The Port's gross operating revenues 
exceed $300 million per year, and it has approximately 400 employees.

        Senior Attorney, Law Office of Wayne Singer, Long Beach, 
        California, November 2009 to present.

    In my professional career as an attorney specializing in workers 
compensation defense, I manage support staff, secretarial and 
paralegal, as well as case management and client relations. I also use 
my analytical skills to solve complex issues.

        Professor (part time) in Political Science, Long Beach City 
        College, California, 1996 to present.

    As an instructor of political science at Long Beach City College, I 
manage students, curriculum, and a variety issues.

        Counsel, Safeco Insurance, Long Beach, California, 2007-2008.

        Attorney, Adelson, Testan & Brundo, Long Beach, California, 
        2001-2006.

        Attorney, Altman & Shoemaker, Encino, California, 1998-2001.

        Attorney, Ochoa & Sillas, Los Angeles, California, 1996-1998.

        Attorney, Robin, Carmack & Gonia, Tustin, California, 1993-
        1996.

        Attorney, Nezin, Maher & Johnson, Tustin, California, 1988-
        1993.

        Counsel, Industrial Indemnity Insurance, Los Angeles, 
        California, 1987-1988.

        Attorney, State Compensation Insurance Fund, Los Angeles, 
        California, 1986-1987.

        Sole Practitioner Attorney, Long Beach, California, 1982-1986.

        Counsel, California Department of Insurance, Los Angeles, 
        California, 1980-1982.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        President, Association of Pacific Ports, August 2010 to 
        present.

        Vice President, Association of Pacific Ports, August 2009-
        August 2010.

        Member, Board of Directors, Museum of Latin American Art, 2004 
        to present.

        Member, Board of Directors, California League of Conservation 
        Voters, 2008 to present.

        Member, Board of Directors, St. John Bosco High School, 2005-
        2009.

    In addition, I have represented clients as a private attorney.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    None of the following organizations restrict membership in any way:

        Museum of Latin American Art, Board of Directors, 2004 to 
        present.

        Miller Children's Hospital, Advisory Council, 2007 to present.

        California League of Conservation Voters, Board of Directors, 
        2008 to present.

        St. John Bosco High School, Board of Directors, 2005-2009.

        Mexican American Bar Association, Committee Chair, 2001-2003.

        Long Beach Bar Association, Committee Chair, 2003-2004.

        State Bar of California, 1980 to present.

        Bar of the U.S. District of Court Central District of 
        California, 1980 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I was appointed to the Long Beach Harbor Commission in 2003, and 
reappointed in 2009. There was no campaign, and therefore no debt 
incurred.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    I have not held any office or provided any service to a State or 
National political party and/or election committee.
    Mayor Bob Foster, Long Beach, CA--$500, 2006; $250, 2010.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Alternative Fuel Vehicle Institute, 20/20 Vision Award, Public 
        Servant Award, 2009.

        Community Hispanic Association, Community Award, 2008.

        League of California Cities/Latino Caucus, Public Servant 
        Environmental Leadership Award, 2007.

        Mexican American Bar Association, Attorney of the Year Award, 
        2007.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have authored one article, ``Port & Counter-Port: Lawsuit Will 
Slow Cleanup,'' that appeared in the Long Beach Press Telegram on 
February 17, 2008.
    As a Harbor Commissioner, I have given a number of speeches 
relevant to the position to which I have been nominated.
    I have presented to the Latin American Delegation of Ports at their 
annual conference in 2005, 2007, and 2008. The topics have focused on 
environmental policy at port authorities.
    I delivered speeches before the Hemispheric Latin American 
Conference on best practices and environmental policies in regard to 
port operations. The presentations were at conferences held in Panama 
and Brazil. In addition, at the invitation of the Brazilian and Mexican 
governments, I have delivered speeches on sustainable environmental 
port operations.
    In 2007, Port of Long Beach and Port of Los Angeles hosted the 
first ever conference with the Mexican pacific ports. This conference 
was one in which I played a major role in developing. The topics 
included environmental practices and cooperative agreements on security 
and environmental technology. In addition, we discussed the status of 
developing ports in Mexico. I delivered speeches both at the 2007 
conference in Los Angeles and 2009 conference held In Manzanillo, 
Mexico.
    In 2006, I delivered a speech in Buenos Aires, Argentina on the 
subject on International trade with an emphasis on western hemispheric 
relations.
    On two occasions, 2005 and 2007, I have participated in panel 
presentations before the American Association of Port Authorities. The 
subject matter related to environmental initiatives and policy at the 
Port of Long Beach.
    I spoke at the Texas Corridor Transportation Coalition Conference 
in 2005 and 2006 on efficient goods movement transportation.
    I have presented at the Fast Freight Clean Air Conference in 2007 
and 2008, both on the west coast (Los Angeles) and east coast (New 
York). The subject matter addressed was sustainable environmental port 
operations.
    I have also addressed sustainable environmental policies as a 
keynote speaker at the Footwear Logistics Distribution Conference and 
Recycle Exporter Association.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served for almost 7 years on the Board of Harbor 
Commissioners for the Port of Long Beach (POLB), the second largest 
port in the Nation. During this time, I served for a term (2007-2008) 
as Board President and for two terms (2006-2007, 2009-2010) as Board 
Vice President. The Board is charged with the exclusive control to 
manage and set policy in relation to the Harbor District. The duties 
include providing for the needs of commerce, navigation, and operations 
related to International Trade.
    My experience as POLB Harbor Commissioner has provided me with 
first-hand experience on many aspects not only with regard to port 
operations, but in addition paramount issues faced by the maritime 
community, both in the domestic and international arenas.
    The Federal Maritime Commission's (FMC's) mission is to foster a 
fair, efficient, and reliable international ocean transportation 
system. These have also been major goals for the POLB during my tenure. 
Under the Shipping Act, many of the FMC's principal responsibilities 
include reviewing and evaluating agreements, practices, rates, charges, 
and classifications involving ports, marine terminal operators, and 
ocean carriers to protect commerce and the shipping public. As 
Commissioner of a major port that entered into these agreements and 
interacted with all segments of the maritime industry, if confirmed, I 
would bring a perspective from the front-lines that could benefit the 
FMC's mission.
    My desire to serve on the FMC clearly stems from the positive 
experience I have had at the Port of Long Beach. Specifically, I have 
enjoyed the opportunity to address challenging issues that have come 
before the Board in relation to international commerce and the movement 
of goods throughout the Nation. In this regard, the concepts of 
sustainability and efficiency, I believe, are paramount to being 
competitive in the global market. The Port of Long Beach is seen, and 
acknowledged, as a leader in sustainable practices and I would welcome 
the opportunity to serve on the FMC should I be confirmed.
    As a part-time professor for many years at Long Beach City College, 
I have been a passionate advocate to my students of political science 
that they can make a difference; a concept that will benefit them both 
as citizens of a great democracy and in their respective careers. My 
service at the Port of Long Beach clearly supports the aforementioned 
view. If confirmed, I hope to bring the same passion to the Federal 
Maritime Commission.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    First, the goals and objective of an organization are dependent on 
a keen partnership between the Commission and its management staff. If 
confirmed, my responsibility would involve not only ensuring the proper 
oversight, but being proactive on the issues before the Commission. 
Here, that would entail ensuring the staff is not only accountable to 
the policies expressed by the Commission, but responsive to the needs 
of the industry and consumers.
    Second, my experience at the Port of Long Beach provides many 
parallels as to the management of a large organization. The gross 
operating revenue for the Port of Long Beach in Fiscal Year 2009 (a 
down year) was estimated at $311.4 million. In 2008 the revenue sum 
exceeded $360 million. Total employees at the POLB approximate 400. The 
Government Finance Officers Association of the United States and Canada 
(GFOA) awarded a Certificate of Achievement for Excellence in Financial 
Reporting to the POLB. The year ending September 30, 2008 was the 26th 
consecutive year the POLB has received this prestigious award. Serving 
on the Board of Harbor Commissioners has clearly provided not only 
relevant experience, but one that has characterized the POLB as a 
leader in the industry.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    A paramount concern is furthering economic recovery. At the POLB we 
experienced a downward trend due to overall economic conditions. The 
shipping industry is a vital component not only to the success of 
international trade, but a component in intermodal goods movement in 
our domestic market. Accordingly, policies and initiatives that further 
the flow of cargo are essential. As to the latter, greater involvement 
in the area of intermodal cargo movement is vital.
    A second challenge is that of the trade imbalance in regard to 
export-import containerization. In this regard, the Administration has 
highlighted a National Export Initiative, which is key to the future of 
our domestic economy and serves to provide a positive impact on job 
production.
    A third challenge is to ensure sustainable and efficient maritime 
operations. Here, adherence to strong environmental practices is 
essential to continued growth of commerce. On this issue, I believe I 
bring strong credentials in helping to pioneer the Green Port Policy at 
the Port of Long Beach, which has served as a model for sustainable 
practices at ports that allow for continued economic growth and 
competitiveness. An essential component to the aforementioned is the 
development of green technology with the objective of maximizing 
efficient operations. Furthering sustainable and efficient practices I 
believe is relevant to the parallel issue of diversion of cargo in the 
vital Trans-Pacific trade. It is well-known our Nation is facing 
credible competition from our neighbors both south and north of our 
borders.
                   b. potential conflicts of interest
    I. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the FMC's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the FMC's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the FMC's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the FMC's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my official capacity as a Harbor Commissioner, I have regularly 
worked with Federal, state, and local governments on legislation and 
policies relating to port operations and infrastructure.
    In regard to port operations, reducing harmful emissions has been a 
center point at the Port of Long Beach. Accordingly, moving forward 
with both voluntary initiatives and advocating standards at both the 
State and Federal level have been key in influencing both execution of 
law and public policy.
    Advocating for improved infrastructure and funding for same has 
been a major concern at the Port of Long Beach. As an example, seeking 
funding for the Gerald Desmond Bridge (The Bridge to Everywhere) from 
both the State and Federal levels has been a focal point. 
Infrastructure advocacy has included expanding on-dock rail. In 
addition, I have been an advocate for infrastructure relating to 
improved security at the ports.
    In the course of these activities, I have had occasional meetings 
with Members of Congress to discuss infrastructure, maritime, security, 
and international trade-related issues. I have also received Members of 
Congress at the Port of Long Beach to provide briefings and tours of 
port operations.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
FMC's designated agency ethics official and that has been provided to 
this committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In the fall of 2007, I appealed an unemployment benefit reduction 
that I had received from the State of California Employment Development 
Department (Anaheim, CA). From December 2006 to February 2007, I had 
received unemployment from the State of California while I was between 
jobs. Months later, I received a notice of repayment because the 
benefit calculation did not account for a stipend of $100 per meeting 
that I receive as a Commissioner for the Port of Long Beach. I appealed 
the notice on the issue of whether the stipend was considered income. 
The Department denied my appeal and I promptly repaid approximately 
$500 in unemployment benefits.
    In approximately 1989, a malpractice suit filed by one of my 
previous firms' clients named every attorney at the firm. I was quickly 
dismissed by the plaintiff because I had not had any significant 
involvement in the matter at issue.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of mario cordero
Experience

    Commissioner, Port of Long Beach; Long Beach, California; Board of 
Harbor Commissioners, 2003 to present.

    Harbor Commission President, July 2007-July 2008.

    Harbor Commission Vice President, July 2006-July 2007; July 2009-
July 2010.
    Spearheaded the Green Port Policy at the Port of Long Beach. The 
Green Port Policy is today an international model for striking a 
balance among industry, labor, shippers and the health and safety of 
the people who live and work in and around ports. Promoted and expanded 
Port Community Outreach Initiative including the new Pulse of the Port, 
an award winning cable TV program.
International Environmental and Trade Missions
    Served as Executive Board member on the American Association of 
Port Authorities' Latin American delegation. Instrumental in 
development of policy urging greater cooperation between North American 
and Latin American ports.
Speaking Presentations (partial list)
    Application of new Environmental Port technologies, Brazil 2009.
    First Environmental Latin American Hemisphere Conference, Panama 
2008.
    Port of Rotterdam symposium (Europe's largest port) to speak on 
POLB's Green Port Program, 2007.
    Organized First Annual Conference between Mexican Ports of the 
Pacific and Ports of Long Beach and Los Angeles, 2007.
Trade Missions
    As Port President, was a delegation member for a City of Long Beach 
trade mission with Mayor Bob Foster to Hamburg, Marseilles and Trieste, 
2007.
    Port of Long Beach speaker and representative on Los Angeles 
economic development trade mission to India, 2007.
    Port of Long Beach representative on trade missions to Korea 
(2003), China (2006) and Japan (2007).
Appointments
    Currently President of the Association of Pacific Ports, September 
2010-2011; Vice President; 2009-2010.
    First appointed to Board Commission in 2003 by then Mayor Beverly 
O'Neill. Reappointed in July 2009 by Mayor Bob Foster. Both times the 
City Council unanimously approved these 6 year term appointments.

    Law Office of Wayne Singer, Long Beach, California; Senior Attorney 
specializing in workers' compensation defense; November 2009 to 
present.
    SAFECO Insurance, Long Beach, California; House Counsel exclusive 
to workers' compensation defense; February 2007-December 2008.
    Adelson, Testan & Brundo, Long Beach, California; Attorney 
specializing in workers' compensation defense and related employment 
law; August 2001-December 2006.
    Altman & Shoemaker, Encino, California; Attorney specializing in 
workers' compensation defense and related employment law; 1998-2001.
    Ochoa & Sillas, Los Angeles, California; Attorney tasked with 
workers' compensation defense, civil litigation and political advocacy; 
1996-1998.
    Robin, Carmack & Gonia, Tustin, California; Attorney specializing 
in workers' compensation defense and related employment law; 1993-1996.
    Nezin, Maher & Johnson, Tustin, California; Attorney specializing 
in workers' compensation defense; 1988-1993.
    Industrial Indemnity Insurance, Los Angeles, California; House 
Counsel, workers' compensation defense; 1987-1988.
    State Compensation Insurance Fund, Los Angeles, California; 
Attorney specializing in workers' compensation defense; 1986-1987.
    Sole Practioner, Long Beach, California; Attorney in the general 
practice of law; 1982-1986.
    California Department of Insurance, Los Angeles, California; 
Counsel to Insurance Commissioner on regulatory affairs; 1980-1982.
Educator
    Long Beach City College, Long Beach, California; Professor (part-
time) in Political Science and California Politics; 1996 to present.
Education
    Santa Clara University School of Law, San Jose, California--Juris 
Doctor, 1978.
    California State University, Long Beach, Long Beach, California--
B.A. Political Science, 1974.
Language
    Fluent in Spanish
Licenses
    Admitted to The State Bar of California, 1980
    Admitted to Bar of the U.S. District Court, Central District of 
California, 1980
Affiliations
    Member, The State Bar of California
    Member, Long Beach Bar Association, Long Beach, California Past 
Chair, Workers' Compensation Committee
    Member, Mexican-American Bar Association, Los Angeles, California 
Past Chair, Workers' Compensation Committee
Awards
    ``National 20/20 Vision Award''--2009--The Alternative Fuel Vehicle 
Institute, Las Vegas, NV
    ``Attorney of the Year''--2007--Mexican American Bar Assoc. of Los 
Angeles County
    ``Environmental Award''--2007--League of California Cities, 
Sacramento, CA
References
    Available upon request.

    The Chairman. Thank you very much.
    Ms. Dye, you have a sort of a North Carolina college and 
judicial--or, rather, legal training background.
    Ms. Dye. I do, Mr. Chairman.
    The Chairman. And I'm very happy that you're here.

    STATEMENT OF HON. REBECCA F. DYE, COMMISSIONER, FEDERAL 
                      MARITIME COMMISSION

    Ms. Dye. Thank you very much. I appreciate it, and members 
of the Committee.
    I'm honored to appear before you today, renominated by 
President Obama to be a Commissioner of the Federal Maritime 
Commission.
    My daughter, Caroline, who is also a senior at the 
University of North Carolina, was unable to be here today, 
unfortunately. But, I deeply appreciate my fellow 
commissioners, Chairman Lidinksy and Commissioner Corey, being 
present, and also my other friends and supporters, and the 
Federal Maritime Commission staff who have accompanied us here 
today.
    I began my career in Washington as a commissioned officer 
and attorney in the United States Coast Guard. I later served 
as a law instructor at the Coast Guard Academy. After 2 years 
as an attorney at the United States Maritime Administration, I 
joined the former Committee on Merchant Marine and Fisheries, 
in the House of Representatives, as Minority Counsel, and later 
became Counsel to the Coast Guard and Maritime Transportation 
Subcommittee of the Committee on Transportation and 
Infrastructure. I was originally confirmed as a Federal 
Maritime Commissioner in 2002.
    Mr. Chairman, if I am confirmed to another term at the 
Federal Maritime Commission, I believe that my 30 years of 
experience in maritime law and policy will allow me to continue 
to contribute positively to the Commission's vital mission. My 
experience with the Coast Guard and the Maritime 
Administration, as well as the Federal Maritime Commission, has 
allowed me to develop a broad understanding of maritime 
transportation. I'm also very familiar with the needs and 
general concerns of the various industry stakeholders affected 
by the Commission.
    Mr. Chairman, the international container shipping industry 
experienced, from late 2008 through 2009, an unprecedented drop 
in international trade volumes. Ocean carriers laid up 
approximately 12 percent of the world's container fleet.
    By early 2010, increases in export and import volumes 
collided with the previous vessel capacity reductions. The 
resulting supply-and-demand mismatch created serious supply 
chain disruptions for American importers and exporters.
    Due to the Commission's concerns about the causes of these 
problems and our concern that the situation could hinder our 
country's economic recovery, the Commission ordered an 
investigation into this matter and designated me as the 
investigating officer. Following extensive interviews around 
the country, Mr. Chairman, I'm pleased to report that the 
condition in U.S. ocean shipping has stabilized. Supply-and-
demand in the U.S./Asia trades are more evenly matched today, 
and shipper complaints have diminished.
    I was also pleased to deliver my final confidential report 
on my investigation to the Commission today. The Commission 
will consider the report's recommendations at our meeting 
scheduled for December 8.
    If I am confirmed, Mr. Chairman, I will continue to work 
with shippers and ocean carriers on contractual service and 
supply chain reliability issues, to improve the long-term 
effectiveness and reliability of the U.S. ocean transportation 
system.
    Mr. Chairman, during my term at the Commission, I also 
strongly supported providing relief from tariff publication 
requirements to ocean transportation intermediaries, which 
could save these businesses up to $2,000 per year. This action 
would put cash back into their businesses and potentially 
generate additional American jobs. The Commission will consider 
a final rule in this matter in the near future.
    Mr. Chairman, of course, if confirmed by the Senate, I'll 
be fairminded and objective in executing all of the 
Commission's statutory directives. And, finally, Mr. Chairman, 
if I'm confirmed, I'll do all I can to assist in the effort to 
ensure economic and homeland security for our country.
    Thank you very much for holding this hearing and 
considering my nomination. And I'll be delighted to answer any 
questions you or the members of the Committee may have.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Dye follows:]

       Prepared Statement of Hon. Rebecca F. Dye, Commissioner, 
                      Federal Maritime Commission
    Mr. Chairman, Ranking Member Hutchinson, and members of the 
Committee, I am honored to appear before you today, renominated by 
President Obama to be a Commissioner of the Federal Maritime 
Commission. My daughter, Caroline, who is a senior at the University of 
North Carolina at Chapel Hill, was unable to be here with me today.
    I began my career in Washington as a commissioned officer and 
attorney in the United States Coast Guard's Office of Chief Counsel. I 
later served as a law instructor at the Coast Guard Academy in New 
London, Connecticut. After 2 years as an attorney at the United States 
Maritime Administration, I joined the former Committee on Merchant 
Marine and Fisheries in the House of Representatives as Minority 
Counsel, and in 1995, I became Counsel for the Coast Guard and Maritime 
Transportation Subcommittee of the Committee on Transportation and 
Infrastructure.
    I was originally confirmed as a Federal Maritime Commissioner in 
2002 and again in 2005. Mr. Chairman, if I am confirmed to another term 
at the Federal Maritime Commission, I believe that my 30 years of 
experience in maritime law and policy will allow me to continue to 
contribute positively to the Commission's vital mission. My experience 
with the Coast Guard and the Maritime Administration, as well as the 
Federal Maritime Commission, has allowed me to develop a broad 
understanding of maritime transportation. I am also very familiar with 
the needs and general concerns of the various industry stakeholders 
regulated by the Commission.
    Mr. Chairman, the international container shipping industry 
experienced, from late 2008 through late 2009, an unprecedented drop in 
international trade volumes. Ocean carriers laid up roughly 575 vessels 
worldwide, idling approximately 12 percent of the world's container 
fleet.
    By early 2010, increases in export and import volumes collided with 
previous vessel capacity reductions. The resulting supply and demand 
mismatch created serious supply chain disruptions for American 
importers and exporters. The Commission received reports from American 
shippers and intermediaries that they were experiencing extreme 
difficulty obtaining vessel space and shipping containers for ocean 
transportation, particularly in the U.S.-Asia trades.
    Due to our concerns about the causes of these and other reported 
problems, as well as our concern that this situation could hinder our 
country's economic recovery, the Commission ordered Fact-Finding 
Investigation No. 26, Vessel Capacity and Equipment Availability in the 
United States Export and Import Liner Trades. The Commission designated 
me the Investigating Officer in this matter.
    Following extensive interviews at the Commission and around the 
country, Mr. Chairman, I am pleased to report that the condition in 
U.S. ocean shipping has stabilized. Supply and demand in the U.S.-Asia 
trades are more evenly matched and complaints from American shippers 
have diminished.
    I am also pleased to announce that I have delivered my final, 
confidential report on my investigation to the Commission today. I 
developed a number of recommendations to address the problems we 
discovered during this investigation, in addition to the 
recommendations the Commission adopted this summer. The Commission will 
consider the final recommendations at our meeting scheduled for 
December 8, 2010.
    If I am confirmed, I will continue to work with shippers and ocean 
carriers on contractual service and supply chain reliability issues to 
improve the long-term effectiveness and reliability of the U.S. ocean 
transportation system.
    Mr. Chairman, during my term at the Commission, I strongly 
supported providing relief from tariff publication requirements to 
ocean transportation intermediaries which, according to comments filed 
with the Commission, could save their business up to $200,000 per year. 
This action would relieve unnecessary requirements, put cash back into 
their businesses, and potentially generate additional American jobs. 
The Commission will consider a final rule in this matter in the near 
future.
    Mr. Chairman, if confirmed by the Senate, I will be fair-minded and 
objective in executing the Commission's statutory directives. I will do 
all I can to guarantee that all entities regulated by the Commission 
are provided with a fair market environment in which to operate. I will 
also work to eliminate unfair shipping practices by foreign 
governments, and protect cruise ship passengers against undue financial 
risk.
    Finally, Mr. Chairman, if I am confirmed, I will do all I can to 
assist in the effort to ensure economic and homeland security for our 
country.
    Mr. Chairman, thank you very much for holding this hearing today, 
and I will be delighted to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Rebecca 
Feemster Dye; Maiden name: Rebecca Lynn Feemster; Nickname: ``Becky''.
    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: September 20, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 800 North Capitol Street, NW, Washington, DC 20573.

    5. Date and Place of Birth: May 8, 1952; Charlotte, North Carolina.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    I am divorced. My daughter's name is Caroline Lytton Dye, age 21.
    7. List all college and graduate degrees. Provide year and school 
attended.

        University of North Carolina at Chapel Hill, Bachelor of Arts 
        awarded May, 1974.

        University of North Carolina School of Law, Juris Doctorate 
        awarded May, 1977.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        December 2002 to Present, Commissioner, Federal Maritime 
        Commission.

        January 1995-December 2002, Counsel, Committee on 
        Transportation and Infrastructure, U.S. House of 
        Representatives.

        February 1987-January 1995, Minority Counsel, Committee on 
        Merchant Marine and Fisheries, U.S. House of Representatives.

        June 1985-February 1987, Attorney, Legislation Division, Office 
        of the Chief Counsel, Maritime Administration of the Department 
        of Transportation.

        August 1983-June 1985, Law Instructor, U.S. Coast Guard 
        Academy.

        June-August 1983, Attorney, Office of the Assistant General 
        Counsel for Legislation, Department of Transportation.

        1980-1983, Attorney, Legislation Division, Office of the Chief 
        Counsel, United States Coast Guard Headquarters.

        1979-1980, Assistant Division Chief, Legal Administration 
        Division, Office of the Chief Counsel, United States Coast 
        Guard Headquarters.

        1978-1979, Attorney Project Coordinator, Legal Services of 
        North Carolina.

        1977-1978, Special Counsel, Broughton Psychiatric Hospital.

        1977, Instructor, Dyslexia School.

        1976-1977 (Part-time) Sales Clerk, Belk-Leggett Co.

        1975-1976 (Part-time) UNC Law School Library.

        1975 (Part-time) Instructor, Reading Research Foundation.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        North Carolina State Bar, 1977 to present.

        Saint Francis Episcopal Church, 1998-2005.

        All Saints Episcopal Church, 2005-2010.

        The Falls Church, 2010 to present.

        White House Military Social Aides Association, 1983 to present.

        Palisades Swim and Tennis Club, 2002-2006.

        Montgomery County Republican Party Association 2004-2007.

        Propeller Club of Washington 2005 to present.

        (WISTA) Women in Surface Transportation Association, USA, 2008 
        to present. WISTA is a women's professional organization.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        $500--Steele for Maryland

        $500--Republican National Committee

        $500--Friends of George Allen

        $2,000, $2,000--Bush-Cheney 2004

        $2,000--Bush-Cheney 2004 Compliance Committee

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Coast Guard Commendation Medal.

        Coast Guard Achievement Medal.

        Coast Guard Meritorious Public Service Award.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    ``Slick Work: An Analysis of the Oil Pollution Act of 1990''; 
Published in 1992 by the Journal of Energy, Natural Resources and 
Environmental Law; Coauthored with Cynthia M. Wilkinson and Lisa 
Pittman.
    In the past, I have been asked infrequently to give remarks 
concerning current issues related to my employment. I speak often from 
brief notes for the appearances, and do not keep copies of my notes or 
dates of appearances. Following are the speeches for which I have 
retained prepared remarks: September 2007, Comments before the National 
Custom Brokers and Forwarders Association of America; April 2008, 
Comments before the National Industrial Transportation League; April 
2009, Remarks at the Global Liner Shipping Conference; April 2009, 
Comments before the National Custom Brokers and Forwarders Association 
of America; October 2009, Comments before the National Association of 
Waterfront Employers; April 2010, Comments before the National Custom 
Brokers and Forwarders Association of America; October 2010, Comments 
before the 2010 Midwest Specialty Grains Conference and Trade Show.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Committee on Commerce, Science, and Transportation, U.S. Senate, 
Nomination Hearing, July 31, 2002; Subcommittee on Coast Guard and 
Maritime Transportation, Committee on Transportation and 
Infrastructure, U.S. House of Representatives, five appearances: April 
15, 2008, Fiscal Year 2009 Federal Maritime Commission Budget Request; 
June 19, 2008, Management of the Federal Maritime Commission; May 13, 
2009, Fiscal Year 2010 Federal Maritime Commission Budget Request; 
March 17, 2010, Capacity of Vessels to Meet U.S. Import and Export 
Requirements; and June 30, 2010, Update on Federal Maritime 
Commission's Examination of Vessel Capacity.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my 30 years of experience in matters concerning maritime 
law and policy, including my experience as a Federal Maritime 
Commissioner, qualify me for this position. If confirmed, I believe 
that my experience and other qualifications will allow me to discharge 
successfully the responsibilities of the position for which I was 
nominated. I believe it is an honor to serve the people of the United 
States in the position for which I have been nominated.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will continue to cooperate with the Chairman of the 
Federal Maritime Commission in ensuring that the Commission has proper 
management and accounting controls. In the absence of a Federal 
Maritime Commission Chairman from November 2006 to June 2009, I 
performed the management duties of Chairman for the agency in 
cooperation with my fellow commissioners.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    As a small agency, the Federal Maritime Commission is challenged to 
enforce the law strategically, in order to use limited resources 
wisely. As an independent Commission, the Federal Maritime Commission 
is challenged to enforce the law independently after considering all 
relevant view points and exercising sound judgment, based on the law 
and other mandates of the Commission. Finally, the Commission is 
challenged today to enforce the law and other requirements of the 
agency in a way that promotes the homeland and economic security of the 
United States.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my position as Counsel for the Committee on Transportation and 
Infrastructure, I was employed to develop legislation to carry out the 
legislative agenda of the Members of Congress for whom I worked.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I am unaware of any potential conflicts of interest at this time. 
If any potential conflicts arise at any time I will recuse myself from 
consideration of the matters involved.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was the Plaintiff in a civil divorce proceeding, for which a 
Final Divorce Decree was issued on August 27, 2008.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        Resume of Rebecca F. Dye
Professional Background
Federal Maritime Commission, Washington, D.C.--December 2002 to 
        present.
Commissioner
    Enforce laws related to international liner ocean shipping, ocean 
carriers, ocean transportation intermediaries, passenger vessel 
operators, ports, and marine terminal operators, including the Shipping 
Act of 1984, the Foreign Shipping Practices Act of 1988, section 19 of 
the Merchant Marine Act, 1920, and Public Law No. 89-777. Instrumental 
in Commission decisions to increase competition in international 
maritime transportation. Authored the dissent that formed the basis of 
the U.S. Court of Appeals decision in Landstar Express America v. 
Federal Maritime Commission. Participated in negotiations that led to 
the bilateral Maritime Agreement between the Peoples Republic of China 
and the United States. Fostered and developed regulatory exemptions to 
allow nonvessel-operating common carriers to offer service to customers 
under NVOCC Service Arrangements, and to exempt NVOCCs from the 
requirement to publish tariff rates. Leading Commission investigation 
of vessel capacity and equipment availability in the U.S. export and 
import liner trades.
Transportation and Infrastructure Committee, U.S. House of 
        Representatives--Washington, D.C.--January 1995 to December 
        2002
Counsel
    Provided legal and political advice to Members of Congress on 
matters under the jurisdiction of the Transportation and Infrastructure 
Committee, including oil pollution, the Federal budget process and 
Federal financing, international ocean shipping, international maritime 
agreements, maritime safety and law enforcement, and all other matters 
related to maritime transportation. Developed bills and legislative 
amendments, briefing memoranda and materials, policy statements, and 
legislative histories. Coordinated action on legislative matters with 
the Senate, Executive Branch agencies, State offices, and industry, 
labor, public interest, and constituent groups. Supervised staff of 
Coast Guard and Maritime Transportation Subcommittee.
Merchant Marine and Fisheries Committee, U.S. House of 
        Representatives--
        Washington, D.C.--February 1987 to January 1995
Minority Counsel
    Provided legal and political advice to Members of Congress on 
matters under the jurisdiction of the Merchant Marine and Fisheries 
Committee, including marine environmental pollution, the Federal budget 
process and Federal financing, international maritime agreements, and 
maritime safety and law enforcement. Developed bills and legislative 
amendments, briefing memoranda and materials, policy statements, and 
legislative histories.
Legislation Division, Office of the Chief Counsel--Maritime 
        Administration of the Department of Transportation--Washington, 
        D.C.--June 1985 to February 1987
Attorney
    Researched, drafted, and coordinated clearance of Maritime 
Administration legislative proposals for submission to Congress. 
Monitored and developed Maritime Administration policy positions on 
bills, executive orders, legislative reports, and Congressional 
testimony. Responsible for legislation in all areas of interest to the 
merchant marine industry, including Federal ship financing, cargo 
preference requirements, ship subsidy reform, and Federal budgetary and 
tax reform issues.
United States Coast Guard Academy--New London, Connecticut--August 1983 
        to June 1985
Law Instructor
    Instructed Coast Guard cadets on a variety of legal topics, 
including the legislative process, criminal law and procedure, tort 
liability of the United States, and selected administrative and 
international law topics.
Office of the Assistant General Counsel for Legislation--Department of
    Transportation--Washington, D.C.--June-August 1983
Attorney
    Researched, drafted, and coordinated clearance of Department of 
Transportation legislative proposals for submission to Congress. 
Monitored and developed Departmental policy positions on bills, 
executive orders, legislative reports, and Congressional testimony. 
Areas of responsibility included Surface Transportation Deregulation, 
Regulatory Reform, and Passenger Rail Transportation.
Legislation Division, Office of the Chief Counsel--United States Coast 
        Guard 
        Headquarters--Washington, D.C.--1980-1983
Attorney
    Researched, drafted, and coordinated clearance of Coast Guard 
legislative proposals for submission to Congress. Monitored and 
developed Coast Guard policy positions on bills, executive orders, 
legislative reports, and Congressional testimony. Areas of 
responsibility included user fees for Coast Guard services, deep draft 
port and inland waterways user fees, Armed Forces pay and personnel 
matters, and military justice.
Legal Administration Division, Office of the Chief Counsel--United 
        States Coast Guard Headquarters--Washington, D.C.--1979-1980
Assistant Division Chief
    Commissioned as a Lieutenant in the United States Coast Guard 
Reserve in July 1979. Responsibilities included budgetary and personnel 
planning. Acted as trial and defense counsel in general and special 
courts martial.
Legal Services of North Carolina, Attorney Project Coordinator--1978-
        1979
Broughton Psychiatric Hospital, Morganton, NC, Special Counsel--1977-
        1978
Educational Background
    University of North Carolina School of Law, Juris Doctorate Degree, 
1977
    University of North Carolina at Chapel Hill, Bachelor of Arts 
Degree, 1974
Other Experience
    1977--Admitted to North Carolina State Bar
    1980-1983--White House Military Aide
    Authored ``Slick Work: An Analysis of the Oil Pollution Act of 
1990,'' 12 Journal of Energy, Natural Resources. and Environmental Law 
183 (1992) (with Cynthia Wilkinson and Lisa Pittman).

    The Chairman. Thank you very much, Ms. Dye.
    I have lots of questions, and I guess I better start with 
you, although some of my hardest ones are to the both of you.
    [Laughter.]
    The Chairman. It's very interesting to me--I'm not a 
scientist. I regret that and I apologize for that. But, it is 
very interesting to me that--partly because of the whole issue 
of climate change, but also just the sort of forward push of 
scientists, such as yourself, who have been laboring for years 
and years and years--that the whole subject of oceans, the 
subject of weather, the subject of acidification, all of these 
things, which used to be very, very obscure, the concept that 
pressures at the bottom of the ocean might be able to do some 
of the things which can only happen now 250 miles in the sky, 
with NASA, or higher. In other words, the mystery of oceans, 
which obviously got to you and had an influence. But, it got to 
you. You stayed with it. You've stuck with it. So, it raises 
two questions in my mind: Is that sort of the climate-change-
driven problem? Is that because we are endlessly curious? I 
don't think it's because of DVDs, because DVDs tend to just 
take tons of pictures of beautiful fish, and don't get into the 
policy questions that are involved with oceans, which interests 
me very, very much.
    West Virginia is not actually contiguous to any large 
ocean, that I'm aware of, but I am endlessly curious about 
oceans and about estuaries and about all kinds of things that 
we work on in this committee. Could you talk to me a little bit 
about, Why do you think it is that oceans have become so 
important? Some of the answers will be obvious. Second, we 
spend a lot of time, in Congress, worried about science, 
technology, engineering, and math--STEM. We're having a very 
hard time convincing people to get into the sciences.
    Now, you, because of your own brains and because of this, I 
guess, your aunt, right?
    Dr. Doney. Yes.
    The Chairman. That had to be a big influence on you. You 
got into it. You stayed with it. Are there lots of you?
    Dr. Doney. So, let me take that one on. We've been 
working----
    The Chairman. You just run with that.
    [Laughter.]
    Dr. Doney. We've been working a lot with students and 
educators in Hawaii, through a program. We have a National 
Science Foundation grant, where we work with the University of 
Hawaii, MIT, Woods Hole. And we've actually been trying to 
engage students at a whole variety of levels. And I think--part 
of the answer is, I think there are lots of kids who can become 
engaged in science and the STEM education that you're talking 
about, but often science is presented as relatively dry, as a 
bunch of independent facts. And what we've been trying to do 
is, do a lot of hands-on projects.
    The Chairman. It's not dry.
    [Laughter.]
    Dr. Doney. It's not dry. Well, there's the ocean part, as 
well. But, it's getting the kids involved----
    The Chairman. No, I don't mean that. I wasn't being 
humorous.
    Dr. Doney. Yes.
    [Laughter.]
    The Chairman. I mean, to me, it's a subject which just 
opens up like a flower in the spring.
    Dr. Doney. Right. But, it's getting--it's making the 
connection between the kids' experience and showing that 
science is actually relevant to their life. And it's relatively 
straightforward in Hawaii to do that, because the ocean is----
    The Chairman. Right.
    Dr. Doney.--obviously, all around them. But, we've been 
trying to take the lessons of, you know, hands-on experiments. 
Some of the people who work for me, actually were just here a 
couple of weeks ago, on the Mall, for the--there was a Science 
and Technology Day. And they brought in kits that get kids to 
actually do stuff, not just listen to adults lecturing, but 
actually get them in doing the exploration. And that's, I 
think, one of the best ways to engage kids and show them what 
science is about.
    The Chairman. All right. So, when you read about the United 
States being 14th or 19th in its production of scientists, 
where it used to be 1st or 2nd for years and years, you feel 
that there's a resurgence? And, if there is so, that can't just 
be based upon workshops that you hold; it has to be based on 
something generic in the DNA. Now, curiosity and, you know, 
intellectual drive or----
    Dr. Doney. I think----
    The Chairman.--the mystery----
    Dr. Doney. I think the----
    The Chairman.--of oceans, of weather, of all kinds of 
things, can attract, but that it would be hard to hold people 
on that. So, talk to me about that.
    Dr. Doney. I think there are a lot of opportunities. I 
think kids are naturally curious and--this isn't my specialty, 
but from what I've seen is, kids--all kids start off interested 
in science. And it's, How do we maintain that? And I think 
that's by trying to bring in, as you say, the curiosity, the 
exploration of the Earth, that there are lots of things we 
don't know about the ocean. And ocean and weather are, I think, 
great ways of engaging students, because weather is everywhere; 
everyone experiences weather. And so, by trying to teach 
science curriculum by things that people can understand and 
relate to--you know, Why does a storm appear? Why do hurricanes 
appear? You know, why does a hurricane go one way and not the 
other?--can get them thinking about why understanding science 
could actually be relevant to their life.
    The Chairman. OK. All right, I'll settle for that for the 
moment.
    Dr. Doney. OK.
    The Chairman. Mr. Cordero and Ms. Dye, one of the issues 
which I have focused on, the result being absolute futility for 
26 years, is the whole problem of captive shippers, which you 
face.
    For example, at the Port of Baltimore--and you would know 
about this--and, I think, at CSX and Norfolk Southern, both 
have rail traffic, but they will not share rails. They will not 
share business. They insist on having their own. Now, if they 
have their own, and it's just one track, they can set the 
price. If they have several tracks--i.e., if they were 
competing with each other and were, therefore, sharing the 
opportunity to try and get the business in a very huge port--
then the market would determine what the price would be that 
those who they serve would have to pay them. But, they, as in 
railroads generally, don't choose to do that. They want to 
minimize competition and maximize the profit that they get from 
being able to set the prices themselves, as opposed to going, 
in the cases of railroads generally, to the Surface 
Transportation Board--they don't like that--even though that is 
the law.
    So, could you talk a little bit about that? Because that 
combines both of you to--actually, with the idea that--is it 
next year that the Panama Canal enlarged, doubled in size, is 
opening up? For the year 2014? 2014?
    Ms. Dye. 2014. Yes, sir.
    The Chairman. When that happens, that's going to be an 
explosion of activity, of traffic, because that's a long time 
bane of very virtuous thought, under Teddy Roosevelt and even 
previous to that. It wasn't big enough to let things go 
through. Now it will be.
    So, what's going to happen, for example, at the Port of--
I'll just use Baltimore--you can use Long Beach, you can use 
anything you want. Do we have the infrastructure in our ports 
to be able to handle what's going to descend on them? I think 
the answer is probably no. The other side is that I may be 
entirely wrong. In any event, I'd like to hear you talk about 
that, where you think our weaknesses are in capacity, because I 
think it's an American characteristic not to pay attention to 
infrastructure.
    I mean, that's why the stimulus bill was roundly criticized 
because it did a lot of work on infrastructure. And that's 
roads and bridges. I mean, that would seem to be fairly basic. 
But, ports become incredibly basic for the national economy and 
number of people they employ. So, could you talk about that? 
And you don't have to wax too enthusiastic one way or another 
on the Panama Canal, but I'm really interested in the new 
traffic. Are we ready to accept that traffic in our ports, 
generally?
    And, second, if you can work it in, this question of 
railroads competing with each other so that the price of their 
service would decline. They would still make a very healthy 
profit, believe me, I know. But, it just interests me.
    So, with that sort of big, fat softball, I'd welcome either 
of your comments----
    Mr. Cordero. Well----
    The Chairman.--both of your comments.
    Mr. Cordero. Thank you, Mr. Chairman, that's an excellent 
question.
    I think this all falls under the category of intermodal 
transportation. Whether you're from the East Coast or the West 
Coast, the question of infrastructure is paramount for the 
whole Nation. There are some ports who may not be prepared, and 
there are some ports who may be prepared, but, of course, need 
the funding to move forward with what's very important: 
infrastructure. Because, at the end of the day, it's the 
movement of those goods in an efficient and an expeditious 
manner that's going to determine the competitiveness of our 
Nation and our ports.
    The Chairman. If you took the ten largest ports in this 
country----
    Mr. Cordero. Pardon me?
    The Chairman. If you take the ten largest ports, in 
capacity, wouldn't they take in approximately 75 to 85 percent 
of all of the----
    Mr. Cordero. Well----
    The Chairman.--all of what is shipped?
    Mr. Cordero. Well, it--certainly from the West Coast, Mr. 
Chairman--the Ports of Long Beach and Los Angeles take 70 
percent of the containers that come in from the Asian 
Transpacific traffic. So, that's--the question of railroads is 
a paramount question. And I think, in answering that question 
or addressing those issues, it would seem to me that working 
with the various parties of interest, such as the Surface 
Transportation Board and the wishes of Congress, I think--the 
bottom line is--I think you're very correct--that, no matter 
you're on the East Coast or the West Coast, infrastructure is 
paramount. And I think, even though I would like to say that 
the Port of Long Beach and Los Angeles are--comparatively 
speaking, have been blessed, in terms of history, with the kind 
of railroad infrastructure that has made it successful, in 
years to come, that railroad infrastructure has to be amended 
and improved. And I'm sure, in the case of southern California, 
BNSF and Union Pacific, these have been exactly the discussions 
that we have had with our shareholders.
    The Chairman. You have the same captive-shipper conflict?
    Mr. Cordero. Well, you know, I think, in answer to the 
question, Mr. Chairman, from the West Coast, there are no 
conflicts. But, I just say that facetiously, so to speak. But, 
I think, in terms of the broader issue, Mr. Chairman, we do 
have an issue with regard to that aspect of the railroad 
infrastructure. And I think we've worked very hard to have the 
kind of dialogue and communication with railroads, not so much 
to address any present capacity issues, but, as the Chairman 
correctly referenced, future capacity issues, because if we 
don't dialogue and try to repair and amend those questions, I 
believe, and I think we believe, that it is going to have an 
impact on our ability to move, efficiently, those goods.
    The Chairman. I was just thinking, Senator Hutchison and I 
were talking about the new Panama Canal, doubled in size, 
opening up by 2014, and what that's going to mean for ports. 
Are ports ready to handle what's going to be a much larger 
volume? And then we also talked about, what is a problem at the 
Port of Baltimore, about railroads, the Norfolk Southern and 
the CSX system, refusing to share a rail, refusing to compete 
with each other, and therefore keeping the prices that they 
charge at a very high rate, and getting away with it. Now, Mr. 
Cordero has made an amazing statement, which should appear all 
over the Los Angeles Times tomorrow, ``In the West, we really 
don't have problems.''
    [Laughter.]
    Mr. Cordero. Well, that certainly wasn't my intent, Mr. 
Chairman.
    The Chairman. Senator Hutchison has a little port called 
Houston. Maybe they'll have a different view.
    Mr. Cordero. But, I will say, like I said, on a serious 
note, there are competitive issues on the West Coast. But, 
again, I think it's clear, like I mentioned in my statement, 
we're the largest port complex. And I think we've done a lot of 
things that other port authorities are working with us to----
    The Chairman. OK. So, what are some of the deficiencies in 
the ports' infrastructures?
    Mr. Cordero. Well, number one, I think the deficiencies, in 
terms of the port infrastructures, particularly the urban 
ports, is the ability to mobilize that container from the ship 
to the inland. And I think, with that, that's where railroad 
infrastructure is so important. And I think, in that regard, 
projects like the Alameda Corridor, that we did in southern 
California, that concluded in 2001-2002, and the building of 
that corridor, assisted us in addressing one of those 
deficiencies. And I think, from a Port Authority perspective, 
on-dock rail is something that--I think it's crucial and 
paramount for port authorities to mobilize that container in a 
time-of-an-essence-type manner.
    The Chairman. On-dock rail means that the rail goes right 
out on the dock----
    Mr. Cordero. Absolutely. Right from the ship on the 
terminal on the dock----
    The Chairman. Yes.
    Mr. Cordero.--and out.
    The Chairman. But, that's not always the case now.
    Mr. Cordero. That is not always the case.
    The Chairman. Yes.
    Mr. Cordero. And, in fact, in Long Beach, one of our major 
terminal projects, at this time, that we refer to as the Middle 
Harbor Project, is, in fact, primarily--or a major factor 
addressing that issue: on-dock rail.
    The Chairman. OK.
    I've exceeded my time to the extent they actually turned 
off the time measurement; I was so outrageous.
    So, I now yield to Senator Hutchison.
    Senator Hutchison. I'd like to ask Dr. Doney a question. I 
introduced legislation, years ago, just for NOAA. It has been 
battered around, actually. It went into the White House Office 
of Science and then back to NOAA. We haven't passed the bill 
yet, but it is to start studying weather modification. And it 
just seems, with the ferocity of hurricanes and tornados, and 
most certainly with the things that are done in one area, we 
don't even really have good records about how it affects 
another area. For instance, cloud seeding in Midwest, and how 
does it affect Colorado, or how does it affect another area 
downstream? And, my question to you is: Do you think that it 
would be worth getting more data collected, when there are 
weather modification programs in different areas, to see how it 
affects that area and then also other areas?
    And, second, the possibility of studying modifying a 
hurricane when it is 20 miles out, rather than having it hit 
and have such a devastating impact on people and property. Do 
you think there's a future there that we could work on?
    Dr. Doney. I----
    Senator Hutchison. Dr. Doney?
    Dr. Doney.--I haven't worked a lot in that particular area. 
I do know that there has been a lot of interest, particularly, 
as you mention, on the ocean side, of trying to change the 
temperature of the ocean, which might affect either the course 
or the intensity of the hurricane. I think one of the places 
that may be a place of intersection is trying to do--my 
background in the ocean is trying to actually do experiments 
where we manipulate the environment to see what the outcome is. 
You know, before you wanted to weather modification, you really 
need to understand how things are actually working. And so, 
some form of manipulative experiments, certainly that we do in 
the ocean, have been discussed as ways of understanding the 
processes that then would allow you to decide, ``Well, is this 
a good idea?''
    I think there are concerns, as you mentioned, both in the 
U.S. and abroad, about, you know, if somebody changes the 
weather here, what's the effect going to be downstream? And are 
you, you know, taking rainfall from one spot and therefore 
taking moisture that wouldn't fall someplace else? So, I think 
there are a lot of issues beyond the science.
    But, you know, certainly trying to explore the mechanisms 
are--the underlying mechanisms are very important.
    Senator Hutchison. Do you think it would be worthwhile for 
NOAA to do the beginning planning and what would be the first 
step? Because I think you're absolutely right, you don't want 
to do any weather modification; you want to study what the 
effects might be before you would actually do something. But--
--
    Dr. Doney. I think one of the----
    Senator Hutchison.--would there be a planning possibility 
for the first step that you might take?
    Dr. Doney. I think one of the things I would want to do, if 
I were confirmed, is really sit down both with the research arm 
of NOAA--OAR--and also the National Weather Service, and talk 
about what their priorities are, what their plans are. And I 
would really need to get a better sense for their future 
directions of research to, sort of, be able to answer that. 
But, that's certainly something that I could follow up on with 
you later.
    Senator Hutchison. I would appreciate that.
    Just to start looking at what the options are, maybe talk 
to other scientists that might have looked at this, as well.
    Dr. Doney. Right.
    Senator Hutchison. It just seems like, with all that's 
happening, we ought to be proactive in studying it and keeping 
data, at a very minimum. And then, from that, perhaps seeing if 
there is a course that should be taken, because you don't, I 
agree, want to do something until you know what the effect 
would be at the end. But, I think it's worth looking at. And I 
just would like to know that you're interested, as well, in 
doing that.
    Dr. Doney. No, certainly it's something we could follow up 
on.
    Senator Hutchison. Thank you.
    I think you covered the maritime issues very well, so I'm 
not going to have other questions there.
    Thank you.
    The Chairman. Do I get one more?
    Senator Hutchison. Mr. Chairman, you have my permission.
    The Chairman. We do this all the time.
    [Laughter.]
    The Chairman. The----
    Senator Hutchison. He always wins.
    The Chairman. Thank you.
    [Laughter.]
    The Chairman. This is actually to both institutions--the 
Maritime Commission can know what deficiencies exist in ports 
and how they need to be included, or whatever other 
infrastructure is needed along the way. But, you probably have 
a hard time advocating for that. And what I'm interested in--
and, Ms. Dye, you've been on it--do you advocate? I mean, do 
you only do it when you're called before a committee, or 
something? Or do you, on your own, make a fuss? You're putting 
out a report, coming out today, and that's going to have a lot 
of information in it. Will that be kind of an advocacy 
document?
    Ms. Dye. What--that's an interesting question. I came from 
the Hill staff----
    The Chairman. Right.
    Ms. Dye.--of course, and have been coming to an independent 
agency, such as the Federal Maritime Commission----
    The Chairman. Right.
    Ms. Dye.--where we take our role, as being an independent 
objective voice, very seriously, to faithfully execute the law. 
As far as--I wouldn't say so much ``advocacy,'' but I can say 
that what I've done--we've tried to do in this investigation is 
a little bit outside the box, as far as the collaborating, 
using moral-suasion to draw people together, to help them solve 
their own problems and get something done.
    The Chairman. The reason I mention that is, I think we're 
going to go through a period--and I'm sure that Senator 
Hutchison would agree with this--where we're going to be 
financially restricted, to the extent that we have not been 
accustomed to the level of restriction. The money isn't going 
to be there. It's not going to be there for healthcare, for 
science, for ports, for what you all do. I mean, it'll be 
there, but not to the extent that you're racing ahead to try 
and make improvements. I wanted to get back to that Green Ports 
issue. That's the reason I mention advocacy. I'm a little 
wandering here, afield, myself, because it may be that you're 
not meant to advocate; you're meant to report or keep 
knowledge, make it available for those who want it.
    But, I think we're coming into a period--and I'd say it 
will last probably about 10 years--where money is going to be 
very hard to get a hold of. You, by definition, want to make 
things better. You're not on the Maritime Commission just to 
watch the day go by. You want the enlarged Panama Canal to be 
increasing the flow of traffic and creating a much closer world 
economy. You want us to be able to be effective with it. You're 
going to need money. And I actually don't know whether you can 
advocate for that.
    Does your Commission sort of take a hands-off view and 
leave it up to others? Or could you advocate, if you wanted?
    Ms. Dye. We are a small $25-million agency. And, with that, 
we have, I believe--from my time there, I've observed that 
we've been very frugal. And we've had to be. And I have great 
faith in my Chairman, who has the authority over our 
pocketbook, to continue to be judicious with our limited 
resources, to use them to prioritize and use them to get 
something done in the most strategic way we can.
    The Chairman. I think it's going to be important; $25 
million or $25 billion, either way it's going to be important.
    Ms. Dye. Yes, sir.
    The Chairman. I think infrastructure is woefully 
underestimated, in terms of the urgency of its need in this 
country, on all fronts. And Americans are somehow--except if 
they go through a one-lane bridge, then they get very mad and 
they write their Congressman or -woman or Senator--but, for the 
most part, they just don't seem to pay a lot of attention to 
infrastructure until they hit a really bad pothole or something 
of that sort. You understand what I'm saying. We've got to get 
beyond that. That's all I'm saying. We've got to get beyond 
that. That's going to take resources. There's going to be a lot 
of competition for those resources. And I think your voice--I'm 
just saying this, hopefully, helpfully--your voice will be 
important on the Commission. Let us know.
    Ms. Dye. Thank you.
    The Chairman. Question to you, Dr. Doney. Jane Lubchenco is 
absolutely marvelous. And I take it you are, too.
    Dr. Doney. Well, thank you, sir.
    The Chairman. I think your son and wife would agree with 
that, and I would, too. So, you have all of this knowledge and 
desire and ambition. You're coming into something for the first 
time. There hasn't been somebody in your position since 1996. I 
might question that, but I won't, for the moment. Which means 
that, you know, Jane and the President--Jane Lubchenco and the 
President and others--are very serious about this. I agree with 
them; I think it's just excellent that you're going into that 
position. She's a wonderful person to work with. She has very 
high respect from the Congress, in a world which is kind of 
opening up to all of us, and I think a lot of it is coming from 
climate change. You talk about manipulating, or Senator 
Hutchison was talking about manipulating, hurricanes. Well, in 
West Virginia, we don't talk much about that, but, that's a 
very dramatic, interesting idea.
    So, my question to you is: Often with those in the world of 
science--I could put it this way: NOAA is an extraordinary 
agency. What percentage of Americans actually know what NOAA 
does? I wouldn't want to know the answer to that question. The 
Maritime Commission, the same. NIST, an amazing agency. And I 
remember going out there, some 25 years ago, and they said, 
``We haven't seen a Senator out here for 10 years.'' That was 
sort of depressing. Lack of interest in something which, at 
that time, was less forceful than it is now.
    But, you come into this job, now, wanting to accomplish 
things. And so, two parts to this. One is, ``How do you view 
this era that we're now in?'' which is unpleasant, certainly 
politically, and, in the discourse, the dialogue as people run 
for office and say the most horrible things about each other. 
You can't even talk about what you've done, because nobody's 
interested in what you've done. They just want to know if you 
have a really horrible ad about the person you're running 
against. Well, this is not a good place for America to be. So, 
you would say, ``Well, science, truth, you know, objectivity 
can, in part, help get us out of that.''
    So, my question to you is, Does the scientific community, 
at a very high level--I'm thinking of the John Holdrens and 
Janes, and now yourself, and others, do they have difficulty 
when they go into the bureaucracy, taking their ideas and 
making them a part of a plan?
    Now, it's my impression that the President listens to Jane 
Lubchenco very carefully. We certainly do, up here. But, there 
has been nobody there since 1996. One, I'd like to know why; 
then I'd like to know, did Jane approach you? Or did the 
President, himself, or one of his people, approach you? Did you 
know Jane?
    Dr. Doney. I've known Dr. Lubchenco for----
    The Chairman. ``Dr. Lubchenco,'' I should say, yes.
    Dr. Doney.--sorry--Dr. Lubchenco for a----
    The Chairman. Yes.
    Dr. Doney.--number of years, and she actually approached 
me.
    The Chairman. Good.
    Dr. Doney. I can't answer some of the questions about the 
past, because I wasn't there. I can say that, when I've talked 
to Dr. Lubchenco and others in NOAA, there's a--one of the 
reasons for filling this position is the clear need for strong 
guidance on the science side, that--you know, although Dr. 
Lubchenco is an excellent scientist, she's involved in so many 
things that the science enterprise itself hasn't had a lot of 
leadership inside of NOAA. And so, the idea would be to bring 
someone in to really guide, not only the research that NOAA 
does, but how science gets used in NOAA's service products, 
things like the Weather Service, and also in the stewardship 
activities on our coastal ecosystems and our oceans.
    So, I think that's--the role that I would fill is to really 
try to bring research to a high level within the agency, 
maintain the quality of it, and make sure that the best science 
is being used within the agency.
    The Chairman. That's really good. That's really good.
    Can I get a word from you about the green effort at Long 
Beach?
    Mr. Cordero. Yes, thank you, Mr. Chairman. With that open 
question----
    The Chairman. Yes, it's an open question.
    Mr. Cordero.--I will answer, then. Mr. Chairman, I think 
the preceding question you had about advocacy was rather 
interesting, because, in effect, that was a result of a Green 
Port policy. And this whole question about advocacy, I guess, 
from my perspective, certainly when you sit on a policymaking 
body, at the very least, you have to listen to those who 
advocate--and whether it's community advocates or whether it's 
within the industry. And, in answer to your question, that was 
a result of those who advocated about certain issues that 
needed to be addressed in the Long Beach/Los Angeles area.
    So, to put it very simply and succinctly, the Green Port 
policy came about because of the fact that, if we did not do 
anything, that port would not grow. And that--no matter how one 
feels about environmental initiatives, what we did at Long 
Beach was a matter of necessity and it was a matter of 
listening to advocates. And, once we listened and, as the 
Chairman referenced, applied that wisdom and that balance, we 
promulgated a policy. And the result of that is the Green Port 
policy, which basically, in essence, took a new look at port 
operations. And that new look was based on new technology, what 
we now refer to as ``green technology,'' or--I think, as a 
Nation, we're all aware of this verse, ``green technology.''
    And, I think, often in my public speaking, I refer to the 
Industrial Revolution. And many of us in our high school years 
and college years, we remember that the Industrial Revolution 
came forth before this country, and it changed this country 
tremendously, and we became a competitive economic power. I 
would suggest that, in recent years, we're going through the 
second revolution--Industrial Revolution. And that second 
Industrial Revolution involves green technology, involves 
sustainable systems. And what the Green Port policy, in 
essence, is about, it's about a system which is sustainable, 
which promulgates efficiency in an environmentally friendly 
way. And I guess that's the general and long-winded answer to 
your question, but I'm more than happy to be more specific with 
regard to any further questions.
    The Chairman. No, it's very helpful. Weren't you also, at 
one point, Chairman of the West Coast Ports----
    Mr. Cordero. I am presently----
    The Chairman.--Association?
    Mr. Cordero. That's----
    The Chairman. Oh, you are.
    Mr. Cordero.--that's correct. My present position with the 
Association of Pacific Ports is its President.
    The Chairman. That's kind of an opportunity, isn't it?
    Mr. Cordero. Well, it's a challenging opportunity, but, of 
course, I welcome the challenge, as I welcome this challenge, 
if confirmed by the Senate. And I----
    The Chairman. It's so interesting, you all are very 
diligent about that, ``if confirmed.''
    [Laughter.]
    The Chairman. It's called ``wise humility.''
    [Laughter.]
    The Chairman. And I think, in your case, it is entirely 
unnecessary.
    Mr. Cordero. Well, thank you.
    The Chairman. But, I mean, you are schooled to say that, 
and I understand that. I hate to hear you saying it: ``if 
confirmed.''
    I interrupted you.
    Mr. Cordero. Well, at the risk of not abiding by that 
protocol, I will stand by the statement, ``if confirmed.''
    [Laughter.]
    Mr. Cordero. But, I think, last, I will say about that 
experience with the American Pacific Association, it gives you 
an opportunity not to focus just on Long Beach; it's an 
opportunity to focus on other port issues through the West 
Coast: the small ports; the larger ports; the agricultural 
ports--that is, ports who focus more on agriculture and 
perishable goods; the Northwest, who are very concerned about 
lumber issues and exports; and, of course, the southern 
California ports. So, I think that opportunity has really given 
me a new perspective with regard to all issues that ports face 
around our Nation.
    The Chairman. Good.
    Any of you have any particular thoughts you want to say? 
You don't have to.
    Ms. Dye. Oh. Thank you, Mr. Chairman. No, but I'd be 
pleased to answer any other questions. Thank you.
    The Chairman. No, I was just going to give you a chance to 
say anything more that you wanted to say.
    Ms. Dye. Oh. I'd be delighted to brief the members of the 
Committee, your staff, on the investigation we just wrapped up. 
We have our own set of captive-shipper issues with agricultural 
shippers, in remote parts of the country, who are unable to get 
shipping containers. It's a chronic problem, and we've devoted 
a lot of resources to this and other capacity problems, with 
exporters and importers. And I'm please to have the support of 
the Commission to draw it to a close and keep working on it, if 
confirmed.
    The Chairman. Good.
    [Laughter.]
    The Chairman. Good. I've spent 26 years negotiating with 
railroads. I haven't made one-quarter of an inch of progress.
    [Laughter.]
    The Chairman. I'm convinced that surely it's not because 
they're stubborn, it must be because I'm just not very----
    Ms. Dye. We have been working----
    The Chairman.--skillful.
    Ms. Dye. We have also been working with the railroads on 
this issue, and I have to say----
    The Chairman. Yes.
    Ms. Dye.--the Association of Railroads in Burlington 
Northern have been very, very cooperative with us, which we 
appreciate.
    The Chairman. So, that's good.
    Ms. Dye. It is.
    The Chairman. That's good.
    All right. Well, let me conclude just by saying that this 
is not a well-attended hearing, and there are two reasons for 
that: one, nominations hearings, unless they're controversial--
with so much going on, we all belong to too many committees and 
all of that, and subcommittees constantly meeting. Also, on the 
floor right now, Christopher Dodd is making his farewell speech 
and his father had served in the Senate, you know, probably 50 
or 60 years. So, there are a lot of people down there to hear 
him speak. So, I apologize for the lack of attendance.
    On the other hand, I feel really good about the three of 
you, and for different reasons. Just the fact that you want to 
do this means a lot to me. Government is a hard challenge, and 
we're in a tough patch right now. I think we'll mature our way 
out of it, I hope. In the meantime, you're going to be in very 
important jobs. We will, as I indicated--the Chairman has 
agreed--when we have a vote on something, in the next several 
weeks, we'll have a little meeting afterwards and vote you out, 
which we will certainly do. And, since they're not here to say 
anything bad about you, I'll be in a position to repudiate 
them.
    [Laughter.]
    The Chairman. Anyway, I thank you for being willing to do 
this. You're interesting people doing a--sort of the work of 
the future and fulfilling strong needs in this country. So, I 
thank you.
    And with that, this hearing is adjourned.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]
                            A P P E N D I X

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Mr. Chairman, thank you for the opportunity to express my strong 
support for the nomination of Dr. Scott Doney to become Chief Scientist 
at the National Oceanic and Atmospheric Administration (NOAA).
    NOAA Administrator Jane Lubchenco has repeatedly indicated the 
central role science must play in our decisionmaking. President Obama's 
nomination of Dr. Scott Doney to become Chief Scientist at NOAA will 
help translate that vision into reality.
    Dr. Doney has proven to be a trailblazer on the science behind 
climate change, ocean acidification, marine ecosystems, and the global 
carbon cycle. He has demonstrated the depth of knowledge and experience 
necessary to promote policies and provide direction to strengthen 
NOAA's science programs and allow the agency's actions to be 
confidently guided by science.
    Dr. Doney has been a leading, highly respected voice in the 
scientific community both in Massachusetts and nationwide. He is 
currently the Senior Scientist at the Woods Hole Oceanographic 
Institution (WHOI) in the Department of Marine Chemistry and 
Geochemistry--a world renowned institution dedicated to advancing and 
communicating science for the benefit of society. Over the last twenty 
years, he has studied ocean acidification and the global carbon cycle 
with the Massachusetts Institute of Technology/Woods Hole Oceanographic 
Institution Joint Program. He also spent over a decade in the Advanced 
Study Program and Climate and Global Dynamics Division at the National 
Center for Atmospheric Research in Boulder, Colorado.
    Dr. Doney's areas of research and expertise are the ideal 
compliments to the challenges facing NOAA today. As we prepare to begin 
the next Congress, now is the time to make sure we have the best people 
in place to produce and promote the authoritative science we need to 
address these challenges. For this reason, I urge my colleagues to 
support the confirmation of Dr. Doney to be NOAA's Chief Scientist.
                                 ______
                                 
     Prepared Statement of U.S. Representative Laura Richardson of 
               California (D-37th Congressional District)
    Chairman Rockefeller and members of the Senate Commerce Committee, 
it is my honor and pleasure to submit for the record my testimony to 
you and the Committee my thoughts on the consideration of Mario 
Cordero's appointment to the Federal Maritime Commission. Having served 
on the elected local, state and Federal level which includes the Port 
of Long Beach (2000 to Present) my recommendation is based on an over 
10 year direct observation of Mr. Cordero's expertise, knowledge and 
commitment.
    In 1974, Mr. Cordero began his public service career as a 
practicing attorney, continuing even to this day to teach community 
college level political science courses and recently achieving major 
professional and personal goals by authoring and implementing a 
historic nationwide wide Clean Trucks Port Program. Whether in the 
courtroom, the classroom or the boardroom; Mario Cordero is the 
catalyst and pragmatist this country needs.
    Finally, in light of the Federal Maritime Commission's objective to 
monitor and strengthen our Nation's shipping policies, Mr. Cordero's 
experience of serving as the Harbor Commissioner of the second largest 
port in the United States, moving $140 billion goods each year, 
supporting 316,000 jobs and balancing economic growth and environment 
sustainability, President Obama and the Senate Commerce Committee is 
gaining an asset and not just a Commissioner.
    I urge the Senate Commerce Committee in the strongest terms without 
reservation to confirm the nomination of Mario Cordero to the Federal 
Maritime Commission.
    Thank you Chairman Rockefeller, I yield back the balance of my 
time.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Scott Doney, Ph.D.
    Question 1. Dr. Doney, NOAA has not had a Chief Scientist for 15 
years. With one of the Nation's top scientists, Dr. Lubchenco, serving 
as NOAA's administrator, can you tell us a little about why NOAA needs 
a Chief Scientist and what you think your role will be in this 
position?
    Answer. I understand that the Administrator of NOAA has a wide 
range of duties, which makes it difficult for that position to focus on 
setting the general scientific tone of the agency. Such a job is large 
enough to require the specific focus of a senior level official of the 
agency. Setting the agenda for the research council and ensuring that 
science is properly integrated throughout the agency are large tasks 
that require tremendous focus. Filling the Chief Scientist position 
will allow the agency to make progress in these important areas.

    Question 2. Dr. Doney, you have dedicated much of your career to 
research on climate change and its impact on ocean health. Just this 
year, NOAA announced its intent to create a Climate Service. As the 
prospective Chief Scientist of NOAA, why do you think the agency has 
the expertise to best provide these services? How will NOAA's climate 
science work be coordinated with that of other Federal agencies, 
states, and stakeholders?
    Answer. Americans are increasingly demanding information about the 
climate in order to make smart choices to keep their businesses 
competitive and communities safe and resilient. From electric utilities 
seeking information about future expected high and low temperatures to 
gauge power demands and make sound investments in power generation, to 
water managers in need of projections of the frequency and intensity of 
precipitation on which to design adequately-sized reservoirs, public 
and private sector decision-makers are at the forefront of recognizing 
that improved climate information is critical to efficient investments 
and public safety.
    NOAA has a proven track record of providing these types of data and 
products nationwide. NOAA already responds to the millions of requests 
it receives each year for climate information by sharing data, 
observations, predictions, assessments, training and vital on-the-
ground services.
    Based on its experience and expertise, NOAA is uniquely positioned 
to provide critical information, data and service delivery 
infrastructure, and in many cases NOAA provides a foundation on which 
many others rely for their climate services.
    A Climate Service Line Office within NOAA is an effort to more 
efficiently organize the agency's internal climate assets to best 
respond to Americans' growing need for climate information and to 
increase NOAA's capability to contribute as a more effective partner in 
the inter-agency climate services arena.
    NOAA already works closely with many Federal, regional, academic 
and other partners on climate research, data collection and 
dissemination and climate service provision. NOAA recognizes the 
importance of this collaboration, and understands that no single agency 
can provide all climate services for all people. NOAA is committed to 
continue to work with our Federal and state partners, the private 
sector, and universities to provide the best and most comprehensive 
climate services and information to decisionmakers across all sectors.

    Question 3. Dr. Doney, I believe strongly that NOAA, like other 
Federal agencies, must deliver services that benefit all Americans, and 
that taxpayer dollars must be carefully managed. You are a well 
respected scientist by training, specializing in chemical oceanography. 
But I want to ask you about the human factor, for a moment. You have 
worked to communicate the likely social and economic impacts of various 
human-induced changes on our oceans. If appointed, how will you 
personally work to ensure that NOAA's scientific efforts directly 
improve the lives of people around the Nation and world?
    Answer. I believe what is needed are efforts on two fronts. The 
first task is to increase emphasis on research that illuminates the 
connections and interdependencies of human communities with the ocean, 
weather and climate. This involves a combination of raising the profile 
of social science research within the agency as well as using the 
research council and other entities to engage the external academic 
community on this topic. The second task is to continue to improve and 
expand the translation of knowledge gained from research into useful 
information products for the public, businesses, and local and state 
governments. If confirmed, I would also use the Sea Grant program to 
explore other options to ensure NOAA's scientific efforts are improving 
lives.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                            Dr. Scott Doney
    Question 1. Ocean acidification is the other effect of global 
climate change that is already impacting the West Coast's shellfish 
farmers. As you noted in your article ``Ocean acidification: the other 
CO<INF>2</INF> problem,'' the occurrence of this process has been 
verified in field data with expected increases in the future. As part 
of your past years in the field, where do you see the vital next steps 
for research into ocean acidification?
    Answer. High priority next steps for understanding ocean 
acidification are well described in the National Research Council's 
recent study entitled, Ocean Acidification: A National Strategy to Meet 
the Challenges of a Changing Ocean, as well as NOAA's recent Ocean and 
Great Lakes Acidification Research Plan. The key components outlined in 
these reports include: a robust monitoring and observation network, 
research studies of ecosystem effects, studies of the effects on human 
communities, assessments and decision tools to support decisionmakers, 
data management, training of ocean acidification scientists, and 
education and outreach.

    Question 2. Where are we most lacking as we move forward to try to 
monitor and mitigate the effects of ocean acidification, especially as 
they are impacting are coastal economies?
    Answer. The major research priorities include a number of 
interlinked science directions: (1) developing robust chemical and 
biological observation networks for coastal and coral reef 
environments; (2) conducting more detailed studies of the direct 
biological responses of commercially important species (e.g., finfish, 
mollusk, crustaceans, sea urchins) and key habitat forming species such 
as corals, mangroves, sea grasses and kelp; (3) exploring indirect 
effects on finfish, marine birds and marine mammals through changing 
foodwebs; and (4) characterizing better the social and economic 
linkages of organisms that are potential at risk with commercial and 
recreational fisheries, recreation, tourism, etc. as a basis for 
understanding impacts to coastal economies.

    Question 3. What role do you see NOAA playing in the coming years 
in monitoring and responding to ocean acidification?
    Answer. With the passage the Federal Ocean Acidification Monitoring 
and Research Act, NOAA has been authorized to both establish its own 
ocean acidification program, as well as lead the coordination of an 
interagency effort. NOAA scientists are at the forefront of ocean 
acidification research and are working to better observe, monitor, 
understand and forecast ocean chemistry. NOAA scientists are also 
conducting research on ocean acidification impacts to commercial 
fishery species, and coastal and marine ecosystems, including coral 
reefs. NOAA will continue to play a key role in these areas, and can 
integrate physical, biogeochemical and ecosystem research findings with 
its fisheries, coastal, marine sanctuaries, and other stewardship 
responsibilities to better understand and develop tools to manage ocean 
acidification impacts to coastal communities.

    Question 4. What are the specific ways in which NOAA can help 
prepare citizens for monitoring and adapting to climate change?
    Answer. NOAA provides a wide array of climate information and 
services including ground, ocean and space-based observations, climate 
assessments, drought early warning information, and climate predictions 
and projections. This information is delivered to a range of users and 
can help Americans to make good choices to adapt to climate change. For 
example, NOAA can provide information to local coastal managers to help 
prepare for and adapt to likely changes in sea level, storms and ocean 
temperatures. For inland and coastal states alike, the issues 
associated with water management in our changing climate is critical. 
For example, climate assessments indicate that in the Northwest where 
it snows and people depend on snowpack for water, a warmer climate 
means major changes in the timing of runoff with streamflow increasing 
in winter and early spring, and then decreasing in late spring, summer 
and fall. This trend is projected to continue and reductions in summer 
water availability will be felt more significantly in areas that are 
dominated by snowpack runoff. Targeted climate services can help state 
and local water managers ensure that runoff periods are anticipated and 
water is adequately captured, stored and managed for the duration of 
longer drier periods.

    Question 5. What services is NOAA in a unique position to provide?
    Answer. In addition to the basic climate services NOAA derives and 
provides from its core climate observing, research, and modeling 
capabilities, NOAA is uniquely positioned to address the climate 
service needs of coastal communities, marine resource managers and 
ocean industries given its stewardship responsibilities. In this way, 
NOAA is both a producer and a user of climate information. NOAA already 
provides information on likely changes in sea level, storms and ocean 
temperatures. This climate information is already starting to be 
incorporated into marine resource and coastal ecosystem management 
decisions in NOAA, other Federal agencies, and state governments 
through adaptation planning for fisheries, coastal and ocean habitats.

    Question 6. When will we know enough about the impacts and dangers 
of ocean acidification to call for action and actually do something? In 
your view, have we reached that point yet?
    Answer. The role of the research arm is to provide the best 
science-based information about our current understanding to the 
policymakers and those that will take action on this issue. If 
confirmed, I will ensure that NOAA will continue to carry out research 
on this and other topics to make sure those policymakers have the best 
data available to make those decisions.

    Question 7. You mention in your testimony the critical role that 
science plays in NOAA's missions. As I am sure you are aware, the 
recent Draft Biological Opinion regarding Steller Sea Lions points out 
many gaps in our science regarding this species, from the basic life 
characteristics and population counts to more complex inter-species 
interactions and food webs. Millions of dollars were spent on 
investigating this problem back in the early 2000s, and we still don't 
have the key answers to these basic questions about Steller Sea Lions. 
As Chief Scientist, what steps will you take to ensure that NOAA 
develops a strong scientific research and monitoring plan for Steller 
sea lions so another 5 years doesn't pass us without asking and 
answering the basic questions at the heart of the Steller sea lion 
Biological Opinion?
    Answer. I consider the Steller sea lion research program a high 
priority and if confirmed I will carefully review the recommendations 
of the North Pacific Fishery Management Council. The need for 
additional research in the Aleutian Islands is clear. Until the 
appropriation process is finalized, NOAA cannot commit in advance to 
expanding resources currently committed to Steller sea lion research. I 
will also work closely with the North Pacific Research Board to support 
high priority research on Steller sea lions should I be confirmed.

    Question 8. NOAA is often caught in the political dynamic of being 
asked to get answers fast--even when those scientific questions are 
best answered through consistent, long-term research plans. What can 
you do as Chief Scientist to help push NOAA toward more effective long-
term efforts and away from the need to bow to the political expedience 
of ``needing answers now?''
    Answer. I understand both the need to be responsive to pressing 
questions and at the same time exacting in our methodology. If 
confirmed, I will work to continue to ensure that NOAA is responsive, 
but firmly grounds answers in sound science. I will also work to 
anticipate the research needs of policymakers so that they may have 
access to data in a timely manner.

    Question 9. You say that NOAA not only has to recruit the top 
scientists but play a role in cultivating our own leagues of strong 
scientific minds. As I have stated in the past, NOAA and its science is 
essential to the functioning of the American economy. What are your 
plans for engaging the Nation's youth in promoting science as a career, 
and even further, that NOAA is a career goal?
    Answer. Having a robust STEM education pipeline (Pre-Kindergarten 
through graduate school level) can facilitate our Nation's ability to 
meet environmental, energy, industrial manufacturing, and public health 
challenges of the 21st century. A strong component of this process is 
to lead the effort of building a career pipeline for NOAA-related 
occupations. The process involves linking educational content, 
experiential opportunities, advanced education, and career placement 
opportunities for students and early career scientists from pre-
kindergarten through post-doctoral levels in both formal and informal 
science education settings. This approach integrates the goals of 
environmental literacy and workforce development established in the 
Education Strategic Plan to provide continuity of the workforce 
pipeline to better engage students at younger ages where career 
identification and exploration are most critical. Important activities 
include active development of educational partnerships with external 
organizations, providing professional development opportunities for 
STEM teachers, participating in the training of pre-service teachers, 
leveraging current student scholarships to make higher education more 
accessible, and creating meaningful experiential opportunities for 
hands-on science.

    Question 10. I have often said that the Olympic Coast National 
Marine Sanctuary is, unfortunately, one of Washington's best-kept 
secrets. How will you use our existing infrastructure and scientific 
minds, such as our Olympic Coast National Marine Sanctuary and its 
visitor center, to focus attention on science literacy and education 
among the youth and general public?
    Answer. The NOAA Office of National Marine Sanctuaries (ONMS) 
conducts several education initiatives that focus on students, 
teachers, and the general public. Recently, the program began the Ocean 
Guardian Program to encourage children to explore their natural 
surroundings to form a sense of personal connection to the ocean and/or 
watersheds in which they live. The Ocean Guardian Program includes a 
Kids Club that encourages children to explore their natural 
surroundings to form a sense of personal connection to the ocean, an 
Ocean Guardian Classroom that allow classrooms throughout the United 
States to be involved in an exciting and innovative ocean conservation 
programs, and an opportunity for schools to register as an Ocean 
Guardian School by implementing a school- or community-based 
conservation project. NOAA's ONMS also offers and manages a free 
education network that will alert educators by e-mail of upcoming field 
studies and professional development opportunities.
    My understanding is that the Olympic Coast National Marine 
Sanctuary strives to improve the scientific understanding of both 
students and the general public who will not only become future 
generations of informed citizens, but will also be tomorrow's 
scientists. It is my understanding that the Olympic Coast National 
Marine Sanctuary regularly conducts unique education events and 
programs in addition to their ongoing outreach events in communities 
throughout the region.

    Question 11. How will you focus the agency to make sure that vital 
opportunities that fulfill both scientific needs and outreach purposes, 
like the Mukilteo facility, are not overlooked going forward?
    Answer. I am not familiar with the specific issues regarding the 
Mukilteo facility but I feel that encouraging youth to consider a 
career in marine science is important for the sustained health of 
coastal communities and is essential for the future NOAA workforce. 
Opportunities to connect with students early to show them the wonder of 
the ocean and the exciting opportunities in the marine sciences is 
critical. I will use my position as Chief Scientist to advocate for 
investments in NOAA's infrastructure that both improves NOAA's 
scientific capacity and increases the agency's capacity to engage a 
broad cross-section of the public and students, of all ages, in marine 
science. An awareness of our critical connection with the sea is 
important for the general public and business and government leaders. 
We also need to assure that the Nation and NOAA will have access to a 
broad and strong pool of next generation scientists, technicians and 
resource managers trained in marine science.

    Question 12. As you may know, the National Marine Fisheries Service 
(NMFS) has recently prepared three biological opinions on the effects 
of organophosphate and carbamate pesticides on salmon species on the 
west coast, and is in the process of developing several additional 
biological opinions on nineteen other pesticides. The handling of these 
biological opinions by the National Marine Fisheries Service and the 
Environmental Protection Agency has been of great concern to many 
farmers in Washington State and all along the west coast. While we 
appreciate the recent delay in the issuance fourth biological opinion 
until April to give more time for stakeholder input we believe more can 
be down to better coordinate the efforts of the EPA and NMFS. If 
confirmed as NOAA's Chief Scientist, how will you improve coordination 
and communication with the EPA and stakeholders to ensure that future 
biological opinions are a product of open and transparent communication 
and coordination?
    Answer. I understand that the EPA and NOAA are planning several 
workshops for early next year. These workshops will explore mechanisms 
for communicating more effectively with applicants and affected parties 
to ensure that all relevant sources of information are identified and 
an explanation of how that information is used is available. I will 
work to ensure these workshops are convened and where appropriate the 
results are incorporated in the process.

    Question 13. At the very least, can you commit to push your agency 
to:

        1. Allocate adequate resources and staff to the upcoming 
        biological opinions in order to review, analyze, and respond to 
        public comments and data over short timeframes;

        2. Develop a joint process with the Environmental Protection 
        Agency to incorporate major stakeholders in the decision-making 
        process; and

        3. Respond to at least the most major, substantive, and 
        frequently-repeated concerns raised by state agencies and 
        stakeholders?
    Answer. I understand NOAA is challenged to meet the court approved 
schedule for the consultations being conducted pursuant to court order. 
If confirmed, I will focus on ensuring adequate staff is available for 
those consultations and evaluate the program's long term needs. I will 
work to ensure major stakeholders and states are involved in the 
decision-making process.

    Question 14. Part of the difficulty in the pesticide consultations 
is different scientific perspectives and approaches between the 
scientists at NMFS and the scientists at EPA. If confirmed as NOAA's 
Chief Scientist, will you commit to helping the scientists at NMFS and 
EPA find common ground, collaborate more effectively, and come to 
consensus on some of their key scientific disagreements?
    Answer. I understand EPA, USFWS, and NMFS have convened to 
determine how to conduct a risk assessment to meet the information 
requirements of the Endangered Species Act. The goal is to produce a 
common analytical framework that aligns the requirements under the 
Federal Insecticide, Fungicide and Rodenticide Act and the Endangered 
Species Act. If confirmed, I will engage in this effort and work to 
ensure the group works to achieve its goal.
    I understand that the third biological opinion which was recently 
published contains diagrams and information specifying the levels of a 
pesticide and herbicide compound below which jeopardy would not occur.

    Question 15. The third biological opinion which was recently 
published contains diagrams and information specifying the levels of a 
pesticide and herbicide compound below which jeopardy would not occur. 
Because effectively communicating the science is so important here, are 
you willing to push NOAA to go back and compile this information for 
the first two biological opinions to provide stakeholders with more 
guidance about how to apply the herbicides and pesticides to avoid 
actual jeopardy taking place?
    Answer. Yes; if confirmed, I will explore reviewing those opinions 
in the future, but I understand that NOAA must first meet the court 
approved schedule for the remaining consultations. However, if there 
are improvements identified in any of the workshops scheduled early 
next year, I will work to incorporate them in the implementation of the 
reasonable and prudent alternatives.

    Question 16. If confirmed, would you be willing to push NOAA to 
consider providing performance standards, i.e., a list of in-water 
concentrations of pesticides and herbicides that if not exceeded would 
not cause jeopardy, instead of the one-size-fits-all approach that 
application buffer zones represent?
    Answer. I understand that NOAA is willing to consider performance 
standards where appropriate, but they may not always be appropriate 
given differing toxicity levels and modes of operation for different 
chemicals. If confirmed, I will continue to explore using performance 
standards where appropriate.

    Question 17. I have heard that NOAA does not believe Washington 
state's current water quality monitoring program for pesticides is 
robust enough for the agency to utilize the state's data. Will NOAA 
commit to working with the State of Washington to develop a robust 
water quality monitoring program that will meet NOAA's standards and 
provide useful information for future pesticide biops?
    Answer. I am not familiar with Washington State's water quality 
monitoring program, but if I am confirmed I will make sure NOAA 
continues to work with the State of Washington to develop more robust 
water quality monitoring programs.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            Dr. Scott Doney
    Question. Changes in ocean chemistry will affect our food supply 
and the health of our oceans--yet research on ocean acidification is 
still in its infancy. I wrote a law last year that requires NOAA to 
lead an inter-agency effort to study the effects of ocean 
acidification. As chief scientist, how will you help improve our 
understanding of ocean acidification and how to best mitigate its 
impacts?
    Answer. If confirmed, I would work to create a cross-agency plan 
that would look similar to the NRC report developed by the Ocean 
Acidification Program. NOAA has and can play a large role in 
understanding the impacts of ocean acidification and responding to 
changes in ocean chemistry, working to understand impacts on commercial 
fishery species and coral species. We will need to continue to carry 
out research on this and other topics to make sure those decisionmakers 
have the best data available to make those decisions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Mario Cordero
    Question 1. In your capacity as Long Beach Harbor Commissioner, you 
helped the Port of Long Beach implement the Clean Air Action Plan, 
which called for drastic reductions in port-related emissions. How can 
the Federal Maritime Commission help ports become more environmentally 
friendly while at the same time remaining economically competitive?
    Answer. The Commission can and has embraced its role as a 
clearinghouse for best practices that improve sustainability and 
economic efficiency. If confirmed, I will work to support these 
efforts, and will promote and encourage dialogue so that the Commission 
serves as a partner in greening the ports. Through this dialogue and by 
highlighting best practices, the Commission can encourage the use of 
green technology that furthers port operations that are more 
sustainable and more efficient. On this note, Chairman Lidinsky has 
formed an environmental team to explore ways U.S. port authorities and 
private marine terminal operators (MTOs) are addressing these 
questions.
    I believe that the Ports of Long Beach and Los Angeles can serve as 
a case study on implementation of sustainable and efficient programs. 
One prime example is the Pier PASS program undertaken by the MTOs at 
Long Beach and Los Angeles. This program was initially implemented to 
address congestion and environmental issues, but it also served to 
reduce delivery time and fuel consumption in harbor drayage. This 
program was put in place through an agreement that was filed and 
reviewed at the FMC.

    Question 2. During your years of experience in the maritime 
industry, how would you describe the level of communication between 
industry and the Federal Maritime Commission?
    Answer. During my time as Harbor Commissioner at the Port of Long 
Beach, I met and communicated with the FMC on our clean air 
initiatives, foreign cargo diversion issues, and the port's economic 
condition. Such communication with the various stakeholders is 
paramount. If confirmed, I will build on the Commission's current 
efforts to gather input and seek consensus. Commissioners are in a 
unique position to learn about and then highlight new commercial and 
regulatory approaches to maritime transport-related problems through 
their outreach to the industry and the shipping public.

    Question 3. What is your view of cargo destined for the United 
States being diverted from U.S. ports to ports in Canada or Mexico? Is 
this a serious problem, and what can we do in response?
    Answer. The FMC consults regularly with U.S. ports on this 
important issue, and it is examining potential unfair practices by our 
neighbors that may add to U.S. cargo shifting from the U.S. to Canada 
and Mexico. We also need to examine what we can do here at home to make 
our ports more efficient and competitive.

    Question 4. In his National Export Initiative, President Obama 
called for doubling U.S. exports by 2015. Given the Federal Maritime 
Commission's role in regulating foreign commerce at our ports, what 
actions can the Commission take to help meet the President's goal?
    Answer. The Commission has an important role in ensuring that 
increased exports have an efficient, reliable way to move to overseas 
customers. The Commission is currently in the process of finalizing its 
Fact Finding Investigation on export and import capacity and equipment 
issues. In the coming year, the Commission can work to resolve problems 
that the Fact Finding Investigation identifies in our export supply 
chain. In addition, the Commission should continue to work with the 
U.S. Department of Agriculture, the International Trade Administration, 
and other agencies of the Federal Government to find solutions to the 
problems of U.S. exporters.

    Question 5. How will you work to improve the FMC's outreach and 
communications with industry?
    Answer. If confirmed, I will strive for prompt responses to 
concerns of the public and industry. To this end, the Commission has 
established rapid response teams at its Office of Consumer Affairs and 
Dispute Resolution, and has encouraged shipping lines to designate 
liaisons to work with these teams in an ongoing manner. If confirmed, I 
will be accessible to industry and their customers in order to listen 
to their concerns, as well as make them aware of the resources offered 
by the FMC.

    Question 6. What can the FMC do to protect consumers moving their 
personal goods overseas from scams--a problem that we see too often in 
New York/New Jersey?
    Answer. The Commission is currently in the process of a Fact 
Finding Investigation into unfair or deceptive practices in the 
movement of household goods and personal property. This is a serious 
issue, and the FMC is correct to focus on it as an important part of 
its mission to protect the American consumer. Raising consumer 
awareness and coordination with other agencies and law enforcement will 
likely be important ingredients in the Commission's response.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Rebecca F. Dye
    Question 1. In his National Export Initiative, President Obama 
called for doubling U.S. exports by 2015. Given the Federal Maritime 
Commission's role in regulating foreign commerce at our ports, what 
actions can the Commission take to help meet the President's goal?
    Answer. The Commission is focused on taking all steps within its 
authority to foster an ocean transportation system that can meet the 
growing needs of U.S. exporters. Due to our concerns about ocean 
transportation capacity to carry U.S. exports and imports, on March 17, 
2010, the Commission ordered Fact-Finding Investigation No. 26, Vessel 
Capacity and Equipment Availability in the United States Export and 
Import Liner Trades. The Commission named me as the Fact-Finding 
Officer for this investigation.
    The Fact-Finding Investigation recommended the creation of 
Commission ``Rapid Response Teams'' to resolve capacity problems and 
increasing Commission oversight over ocean carrier agreements. The 
Fact-Finding Investigation also held an export capacity forecasting 
group meeting and developed an export container availability outreach 
effort.
    If confirmed, I will continue to work to increase the reliability 
of the international supply chain for U.S. exports.

    Question 2. How will you work to improve the FMC's outreach and 
communications with industry?
    Answer. As Fact-Finding Officer for Fact-Finding Investigation No. 
26, I was involved in an outreach effort involving ocean carriers, 
exporters, importers, ocean transportation intermediaries, port 
officials and other participants around the country. As a Commissioner, 
I also speak to and consult with industry groups regularly on issues 
before the Commission. If confirmed, I will continue to engage in 
efforts to increase Commission outreach and communication with all of 
the Commission's stakeholders.

    Question 3. What can the FMC do to protect consumers moving their 
personal goods overseas from scams--a problem that we see too often in 
New Jersey?
    Answer. On June 23, 2010, with my support and encouragement, the 
Commission ordered an investigation to of potentially unlawful, unfair 
or deceptive practices by household goods movers in U.S.-foreign 
trades. The Commission will consider the interim report and 
recommendations of this investigation at our next Commission meeting.
    If confirmed, I will support Commission action to protect consumers 
from unlawful, unfair or deceptive practices by international household 
goods movers.

    Question 4. Statute requires cruise lines to show financial 
responsibility to reimburse passengers when cruises are canceled or 
lines go bankrupt, yet the Commission's current rules do not require 
more than $15 million in bonding, even for massive cruise lines. Do you 
think it is time to update that amount to better protect passengers?
    Answer. If confirmed, I will work to protect cruise ship passengers 
against undue financial risk. No passenger covered by current 
Commission financial responsibility regulations has failed to be 
indemnified for nonperformance of transportation on a vessel. I believe 
the most effective passenger indemnification system is risk-based, and 
takes into consideration all available sources of indemnification.

                                  <all>

</pre></body></html>
